<html>
<title> - EFFICIENCY AND RESILIENCY IN FEDERAL BUILDING DESIGN AND CONSTRUCTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 EFFICIENCY AND RESILIENCY IN FEDERAL BUILDING DESIGN AND CONSTRUCTION

=======================================================================

                                (116-20)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-459 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland             Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
    Georgia                          JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
    Chair                            BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                       DINA TITUS, Nevada, Chair
DEBBIE MUCARSEL-POWELL, Florida      MARK MEADOWS, North Carolina
SHARICE DAVIDS, Kansas               GARY J. PALMER, Alabama
ELEANOR HOLMES NORTON,               JENNIFFER GONZALEZ-COLON,
  District of Columbia                 Puerto Rico
HENRY C. ``HANK'' JOHNSON, Jr.,      CAROL D. MILLER, West Virginia
    Georgia                          GREG PENCE, Indiana
JOHN GARAMENDI, California           SAM GRAVES, Missouri (Ex Officio)
ANTHONY G. BROWN, Maryland
LIZZIE FLETCHER, Texas, Vice Chair
PETER A. DeFAZIO, Oregon (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chair, Subcommittee on Economic Development, Public 
  Buildings, and Emergency Management:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Mark Meadows, a Representative in Congress from the State of 
  North Carolina, and Ranking Member, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management:

    Opening statement............................................     3
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    61

                               WITNESSES
                                Panel 1

Kevin Kampschroer, Director, Office of Federal High-Performance 
  Buildings, Office of Governmentwide Policy, and Chief 
  Sustainability Officer, U.S. General Services Administration:

    Oral statement...............................................     7
    Prepared statement...........................................     9

                                Panel 2

Elizabeth R. Beardsley, P.E., Senior Policy Counsel, U.S. Green 
  Building Council:

    Oral statement...............................................    25
    Prepared statement...........................................    27
Kevin Van Den Wymelenberg, Director, Energy Studies in Buildings 
  Laboratory, University of Oregon:

    Oral statement...............................................    34
    Prepared statement...........................................    36
Mark Russell, Ph.D., P.E., GGA, LEED AP, BREAAM IA, Green Globes 
  Assessor, Green Building Initiative:

    Oral statement...............................................    38
    Prepared statement...........................................    40

                       SUBMISSIONS FOR THE RECORD

``Federal Buildings: Agencies Focus on Space Utilization as They 
  Reduce Office and Warehouse Space,'' U.S. Government 
  Accountability Office, GAO-18-304, March 2018, submitted for 
  the record by Hon. Palmer......................................    55

                                APPENDIX

Questions from Hon. Dina Titus for Kevin Kampschroer, Director, 
  Office of Federal High-Performance Buildings, Office of 
  Governmentwide Policy, and Chief Sustainability Officer, U.S. 
  General Services Administration................................    63
Questions from Hon. Mark Meadows for Kevin Kampschroer, Director, 
  Office of Federal High-Performance Buildings, Office of 
  Governmentwide Policy, and Chief Sustainability Officer, U.S. 
  General Services Administration................................    67
Questions from Hon. Mark Meadows for Elizabeth R. Beardsley, 
  P.E., Senior Policy Counsel, U.S. Green Building Council.......    68
Questions from Hon. Mark Meadows for Kevin Van Den Wymelenberg, 
  Director, Energy Studies in Buildings Laboratory, University of 
  Oregon.........................................................    70
Questions from Hon. Mark Meadows for Mark Russell, Ph.D., P.E., 
  GGA, LEED AP, BREAAM IA, Green Globes Assessor, Green Building 
  Initiative.....................................................    71
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              June 6, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:   Staff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:       Hearing on ``Efficiency and Resiliency in Federal 
Building Design and Construction''

                                PURPOSE

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Tuesday, June 11, 2019, 
at 10:00 a.m. in 2167 Rayburn House Office Building to hold a 
hearing titled, ``Efficiency and Resiliency in Federal Building 
Design and Construction.'' At the hearing, Members will receive 
testimony from the General Services Administration's (GSA) 
Office of Federal High-Performance Buildings and 
representatives of organizations with equities in the green 
building space.

                               BACKGROUND

    GSA manages an extensive real estate portfolio on behalf of 
the Federal Government. The agency owns and leases over 376.9 
million square feet of space in approximately 9,600 buildings 
throughout the country.\1\ Construction and operation of such a 
large portfolio of buildings requires a significant amount of 
energy consumption. Federal buildings, generally, consume 
approximately $6.5 billion in utilities each year.\2\ As a 
result, GSA's property management practices and agency 
compliance with statutory energy efficiency requirements have a 
direct impact on the environment.
---------------------------------------------------------------------------
    \1\ ``Inventory of Owned and Leased Properties.'' GSA.gov. 
(Accessed May 29, 2019).
    \2\ Ewing, Mark. ``GSA Building Energy Strategy.'' 2014. Available 
at https://www.energy.gov/sites/prod/files/2014/05/f15/
fupwg_may2014_gsa_update.pdf.
---------------------------------------------------------------------------
    GSA's Office of Federal High-Performance Buildings within 
the Office of Government-wide Policy was established in 2007 to 
develop guidance and best practices in the planning, design, 
and operation of Federal buildings. GSA utilizes legislative 
targets and third-party certification programs such as LEED, 
ENERGY STAR, and Green Globes to meet its energy efficiency and 
sustainability goals.

GSA'S OFFICE OF FEDERAL HIGH-PERFORMANCE BUILDINGS

    Section 436 of the Energy Independence and Security Act of 
2007(EISA, P.L.110-140) established the Office of Federal High-
Performance Buildings within GSA to develop guidance and best 
practices in the planning, design, and operation of Federal 
buildings. Subsection (h) requires GSA to evaluate high-
performance building certification systems and submit the 
findings to the Secretary of Energy who, in consultation with 
the Department of Defense and GSA, identifies the system(s) to 
be implemented across the Federal Government. GSA completed its 
most recent 5-year review in March 2019. The review consisted 
of an initial market analysis screening of building-related 
certification systems, followed by a formal review of the 
systems that pass the initial market analysis screening. The 
findings report includes an analysis of the alignment of five 
building certification systems (LEED, Green Globes, Living 
Building Challenge, BOMA BEST, and BREEAM) with Federal high-
performance building requirements.\3\ In 2012, two 
certification systems were identified as meeting federal 
criteria--LEED and Green Globes.\4\ The March 2019 review will 
inform DOE's determination of what systems are recommended over 
the next 5 years.
---------------------------------------------------------------------------
    \3\ General Services Administration ``High-Performance Building 
Certification System Review.'' Available at https://www.gsa.gov/about-
us/organization/office-of-governmentwide-policy/office-of-federal-
highperformance-buildings/policy/highperformance-building-
certification-system-review.
    \4\ While both LEED and Green Globes were recommended certification 
systems, GSA recognizes both for its leased space but only LEED for its 
owned space. GSA's Facilities Standards (P100) establishes design 
standards and criteria for new owned buildings, repairs, renovations, 
modernizations and alterations for GSA buildings. The P100 requires all 
new construction projects and substantial renovations to achieve, at a 
minimum, a Gold rating through LEED.
---------------------------------------------------------------------------
    Section 494 of EISA created the Green Building Advisory 
Committee. The committee is composed of Federal and private 
stakeholders who provide policy advice to the Office of Federal 
High-Performance Buildings. In October 2017, the Green Building 
Advisory Committee submitted a number of recommendations to the 
Office of Federal High-Performance Buildings, enumerating 
recommendations on maximizing the sustainability and efficiency 
in Federal buildings. The Advisory Committee recommended the 
use of long-term, clean energy power purchasing agreements to 
lock in stable energy costs and save money.\5\ In a separate 
letter from 2017, the Advisory Committee proposed 
recommendations to double the annual rate of high-performance 
retrofitting of Federal buildings.\6\ These recommendations 
provided a narrower focus for methods to increase building 
efficiency and provided clarity in choosing the most cost-
effective methods to do so.
---------------------------------------------------------------------------
    \5\ Advisory Committee PPA Advice Letter. October 24, 2017. 
Available at https://www.gsa.gov/cdnstatic/
Adv%20Comm%20PPA%20Advice%20Letter%2012-15-17.pdf.
    \6\ Advisory Committee HPBA Advice Letter. October 24, 2017. 
Available at https://www.gsa.gov/cdnstatic/
Adv%20Comm%20HPBA%20Advice%20Ltr%2012-15-17.pdf.
---------------------------------------------------------------------------
    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management is responsible for overseeing GSA's 
role in ensuring the statutory standards promoting 
sustainability are continually updated and implemented in the 
construction and operation of federal buildings. It has been 
almost a decade since the Subcommittee conducted oversight 
activities related to energy efficiency and resilience in 
federal buildings.

RELATED STATUTES AND LEGISLATION

    Improving the efficiency of federal buildings and reducing 
costs has generally been a bipartisan concern across both 
Democratic and Republican administrations. The laws below 
detail the evolution of building efficiency requirements.
    The Energy Policy Act of 1992 (PL 102-486) directed the 
Secretary of Energy to establish federal building energy 
standards to require energy efficiency measures that were 
``technologically feasible and economically justified.'' \7\
---------------------------------------------------------------------------
    \7\ Quoting (in part) P.L. 102-486.
---------------------------------------------------------------------------
    The Energy Policy Act of 2005 (PL 109-58) required the 
development of energy and water conservation programs for 
congressional buildings; required a 20 percent reduction in 
energy consumption for existing Federal buildings by 2015; set 
an energy consumption target of 30 percent below 2005 standards 
for new Federal buildings; required the application of 
sustainable design principles to the siting, design, and 
construction of new and replacement buildings; established 
Energy Star as a joint program of the Department of Energy 
(DOE) and the Environmental Protection Agency (EPA) and 
required agencies to purchase products that have either an 
Energy Star label or are designated as energy-efficient by the 
DOE.
    The Energy Independence and Security Act of 2007 (EISA, 
P.L. 110-140) established energy use intensity (EUI) targets to 
reduce agency energy usage by 30 percent by 2015; required 
federal agencies to designate an energy manager to reduce 
facility energy use; required GSA's Office of Federal High-
Performance Green Buildings to report every five years on 
certification systems that are comprehensive and 
environmentally-sound in the certification of green buildings. 
Specifically, in identifying certification systems, the 
Secretary of DOE should take into account a number of criteria 
including the ability of the applicable certification 
organization to collect and reflect public comment and the 
ability of the standard to be developed and revised through a 
consensus-based process. The Office of Federal High-Performance 
Buildings published three reports in 2006, 2012, and 2019.
    The Energy Efficiency Improvement Act (PL 114-11) directs 
GSA to develop model leasing provisions to encourage the 
implementation of energy and water efficiency measures by 
tenants in commercial buildings. GSA may also use such 
provisions for leases involving Federal agencies.
    The act also amended EISA to add provisions to improve 
energy efficiency in tenant spaces. These include a DOE study 
to determine the feasibility of improving energy efficiency in 
commercial buildings through the implementation of energy-
efficiency measures in discrete spaces within those buildings; 
directing DOE's Energy Information Administration to collect 
additional occupant energy-use information as part of its 
Commercial Buildings Energy Consumption Surveys; and directing 
EPA to develop a Tenant Star recognition label as a part of the 
Energy Star program.

EXECUTIVE ORDERS

    On March 19, 2015, President Obama signed Executive Order 
(EO) 13693 revoking EOs 13423 and 13514.\8\ EO 13693 set 
specific targets for Federal agencies to achieve by FY 2025. 
Targets included requiring each agency to reduce building 
energy intensity by 2.5 percent annually relative to FY 2015, 
reducing potable water consumption by 36 percent relative to FY 
2007, producing at minimum 25 percent of total building 
electric and thermal energy from clean sources, and ensuring 
that all new buildings with more than 5,000 gross square feet 
of floorspace are designed to achieve net-zero energy, and, if 
possible, net-zero water or waste by FY 2030. Executive Order 
13693 also called for the inclusion of climate-resilient design 
elements in federal buildings and directed the Chair of the 
Council on Environmental Quality (CEQ) to issue a revised set 
of ``Guiding Principles.''
---------------------------------------------------------------------------
    \8\ EO 13423, ``Strengthening Federal Environmental, Energy, and 
Transportation Management,'' signed by President George W. Bush, 
January 24, 2007; EO 13514, ``Federal Leadership in Environmental, 
Energy, and Economic Performance,'' Signed by President Barack Obama, 
October 5, 2009.
---------------------------------------------------------------------------
    On May 17, 2018, President Trump signed EO 13834, which 
revoked the specific reduction targets of EO 13693 and replaced 
them with the requirement that agencies meet goals established 
in statute. The EO provides broad direction to ``achieve and 
maintain annual reductions in building energy use and implement 
efficiency measures that reduce costs'' and

     ``ensure that new construction and major renovations 
conform to applicable building energy efficiency requirements 
and sustainable design principles; consider building efficiency 
when renewing or entering into leases; implement space 
utilization and optimization practices; and annually assess and 
report on building conformance to sustainability metrics.'' \9\
---------------------------------------------------------------------------
    \9\ Quoting (in part) ``Executive Order Regarding Efficient Federal 
Operations.'' Available at https://www.whitehouse.gov/presidential-
actions/executive-order-regarding-efficient-federal-operations.

    The Implementing Instructions for EO 13834 do not set new 
reduction targets beyond those already in statute. They re-
establish EISA's 30 percent EUI reduction requirements and 
extend indefinitely the deadline for agencies to achieve those 
targets.

                               CONCLUSION

    The hearing will focus on the progress made on improving 
the efficiency of federal buildings and reducing costs and 
GSA's role in meeting the efficiency goals for public buildings 
government-wide.

                              WITNESS LIST

                                Panel I

    <bullet>  Mr. Kevin Kampschroer, Director, Office of 
Federal High-Performance Green Buildings, U.S. General Services 
Administration

                                Panel II

    <bullet>  Dr. Kevin Van Den Wymelenberg, Director, Energy 
Studies in Buildings Laboratory, University of Oregon
    <bullet>  Ms. Elizabeth Beardsley, Senior Policy Counsel, 
U.S. Green Building Council
    <bullet>  Mr. Mark Russell, Green Globes Assessor, Green 
Building Initiative

 
 EFFICIENCY AND RESILIENCY IN FEDERAL BUILDING DESIGN AND CONSTRUCTION

                              ----------                              


                         TUESDAY, JUNE 11, 2019

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m. in 
room 2167, Rayburn House Office Building, Hon. Dina Titus 
(Chairwoman of the subcommittee) presiding.
    Ms. Titus. The subcommittee will come to order. I want to 
thank all of our witnesses for joining us today, as we examine 
what I think is a very important topic: the state of energy 
efficiency and resiliency, and the design, construction, and 
operation of our Federal buildings.
    It is appropriate we are having this hearing, because this 
is High-Performance Building Week. So what could be better than 
looking for high performance in our Government buildings?
    The GSA owns and leases over 376.9 million square feet of 
space, and approximately 9,600 buildings throughout the 
country. Having such a large real estate portfolio results in 
an enormous amount of energy consumption. The Federal 
Government spends over $7 billion every year on utilities. And 
accordingly, we are the Nation's largest energy consumer.
    We know our natural resources aren't infinite, so it is 
imperative that the Government lead by example to achieve 
efficiency in construction and operation practices in 
buildings. Government action often sets the standard for best 
practices and innovation in the private sector, as well. And 
successful and cost-neutral changes can have reverberating 
effects across the entire construction industry.
    Recent extreme weather events and natural disasters have 
demonstrated the importance of incorporating elements of 
resilience into our public buildings. With the increasing 
threat of climate change, it is now more important than ever 
that the Federal Government take preventive steps to curb its 
carbon footprint and ensure the long-term sustainability of our 
buildings.
    It has been some time since this subcommittee heard 
testimony regarding the greening of our public buildings. In 
fact, it was nearly a decade ago that the very first witness 
testified in front of this subcommittee on life-cycle cost 
benefits and improved health of occupants in green buildings. 
So I look forward to hearing from our witnesses what progress 
has been made, and where we continue to lag behind, and what we 
can do to address that.
    Third-party certification systems, such as LEED, Energy 
Star, and Green Globes, are used to assess how well green 
building principles are incorporated into a building's design 
and operation. So it is important that this subcommittee get a 
clearer picture of how those systems are perceived today, and 
how they are being utilized by Federal agencies. So thank you 
all for being here.
    In 2015, President Obama issued an Executive order 
providing specific annual guidelines to significantly decrease 
energy consumption in our public buildings, to promote 
renewable energy use, and to incorporate resilient design 
elements into public building construction. That Executive 
order, unfortunately, was rescinded under the Trump 
administration. And then, instead, the current administration 
issued Executive Order 13854, which states broad goals to 
achieve efficiency and resiliency. They aren't very meaningful 
standards, and what does exist dates back to 2007. We know a 
lot has changed since then.
    I look to our witnesses and hope that they can discuss what 
impact this new Executive order is having or will have on 
achieving our resiliency and efficiency goals. My colleagues 
and I are anxious to hear about progress from the witnesses, 
but we also want to understand how the existing state of 
regulation may be insufficient.
    This morning's hearing is an opportunity to examine what 
has and has not been effective, and ensure that our 
Government's sustainability efforts are rising to the 
significant challenges we face. This is a chance to look at the 
past accomplishments, the present situation, and our future 
goals. We have gone, over time, from a focus on green buildings 
to trying to also create healthy buildings, and to the future 
need for smart and secure buildings. So we realize that, as we 
try to achieve those goals and move across that path, we can be 
both responsible stewards of our environment and of taxpayer 
dollars. Those are not mutually exclusive goals.
    So thank you for being here, and I look forward to hearing 
from you.
    [Ms. Titus's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
     from the State of Nevada, and Chair, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    I want to thank our witnesses for joining us today as we examine 
the state of energy efficiency and resiliency in the design, 
construction, and operation of Federal buildings.
    The General Services Administration owns and leases over 376.9 
million square feet of space in approximately 9,600 buildings 
throughout the country.
    Such a large real estate portfolio results in an enormous amount of 
energy consumption.
    Spending over $7 billion each year on utilities, the Federal 
Government is the nation's largest energy consumer.
    Our natural resources are not infinite, and it is imperative that 
the government lead by example to achieve efficiency in construction 
and operation practices for buildings.
    Government action often sets the standard for best practices and 
innovation in the private sector, and successful and cost-neutral 
changes can have reverberating effects across the construction 
industry.
    Recent extreme weather events and natural disasters have 
demonstrated the importance of incorporating elements of resilience 
into our public buildings.
    With the increasing threat of climate change, it is now more 
important than ever that the Federal Government take preventive steps 
to curb its carbon footprint and ensure the long-term sustainability of 
its buildings.
    It has been some time since this Subcommittee heard testimony 
regarding the ``greening'' of public buildings.
    In fact, it was nearly a decade ago, that our first witness 
testified in front of this Subcommittee on life-cycle cost benefits and 
improved health of occupants in green buildings.
    I look forward to hearing what progress has been made and where we 
continue to lag behind.
    Third-party certification systems, such as LEED, ENERGY STAR, and 
Green Globes, are used to assess how well green building principles are 
incorporated into a building's design and operation.
    It is important that this Subcommittee get a clearer picture of how 
those systems are perceived today and how they are being utilized by 
Federal agencies.
    In 2015, President Obama issued an executive order providing 
specific, annual guidelines to significantly decrease energy 
consumption in public buildings, promote renewable energy use, and 
incorporate resilient design elements into public building 
construction.
    That executive order was rescinded under the Trump Administration 
and in its stead, the current administration issued executive order 
13854, which states broad goals to achieve efficiency and resiliency 
yet fails to create meaningful standards when compared to the order 
issued by President Obama.
    I hope our witnesses can discuss what impacts this new executive 
order will have in achieving our resiliency and efficiency goals.
    My colleagues and I are eager to hear about progress from the 
witnesses, but we also want to understand how the existing state of 
regulations may be insufficient.
    This morning's hearing is an opportunity to examine what has and 
has not been effective and ensure that our government's sustainability 
efforts are rising to the significant challenges we face.
    We can be both responsible stewards of our environment and of 
taxpayer dollars--these are not mutually-exclusive goals.

    Ms. Titus. And I would now recognize Mr. Meadows, our 
ranking member, for his opening statement.
    Mr. Meadows. Thank you, Madam Chair. I certainly appreciate 
your leadership on so many vital areas in a city where division 
is the headline of the day. I can tell you that your 
willingness to engage and take a leadership role should be 
applauded, and I applaud you.
    Certainly reducing costs and increasing efficiency in our 
Federal real estate portfolio is a bipartisan issue, and this 
subcommittee has worked and will continue to work to ensure 
that the Federal space is not only right-sized, but used 
efficiently, consolidated, and, if not, is sold if needed.
    For example, just last week my colleague, the fine 
gentleman, Mr. Pence, and I introduced some legislation to look 
at reform that will actually provide an additional tool to GSA 
in terms of replacing expiring leases with good deals for the 
American taxpayer, and to expand the opportunities to 
consolidate and reduce space, and I would like to thank the 
gentleman for his leadership on that particular area.
    These are not controversial issues, and yet many times the 
effective solutions seem to elude us in terms of reducing 
costs. When we look at efficiency, we are looking at not only 
the efficiency of the leased space, but the energy and water 
consumption. It is also important that we apply those processes 
and those solutions in other ways to reduce costs.
    But there are challenges that we must address. For example, 
nearly 50 percent of GSA's owned building inventory is more 
than 50 years old. More than 50 percent of GSA's space is now 
in leased facilities, and there is limited funding for new 
construction. And if we are serious about building efficiency, 
then we must look at new ways of approaching the financing of 
Federal facilities.
    Federal agencies already can take advantage of performance 
contracting, which provides a way to finance improvements by 
leveraging private dollars. However, these presume a building 
is already built or that there is funding for construction. And 
if we are serious about efficiency, then we should look at 
doing more in the public-private partnership side of things, as 
they are commonly called.
    Now, when we look at public-private partnerships, 
oftentimes those are looked at with a jaundiced eye from both 
sides of the aisle. But if we are looking at design-build--and 
you are talking to someone who is in the real estate business--
if we are truly looking at design-build, there are real 
opportunities if we provide the flexibility of the Federal 
Government to allow these buildings to be constructed, ensure 
that they are efficient, and maintained throughout the life of 
the building.
    Ultimately, our goal in building efficiency is really 
looking at the effectiveness and reducing costs. We must ensure 
solutions are, in fact, effective, and that we aren't 
``greening'' to just ``green.'' Now I will say, having been in 
the private sector, and having built commercial buildings, new 
construction generally is the best way to find--whether it is 
through the LEED program or others--is the best way to make 
sure that we are energy efficient. And yet, with our aging 
portfolio, we continue at times to pay higher water, and higher 
electric costs, higher maintenance costs. And, indeed, it would 
be cheaper to have a new facility.
    And yet we sometimes don't look at the overall return on 
investment. Those solutions are something that would ultimately 
reduce the cost to the taxpayer. So to achieve this 
effectiveness and return on investment, there needs to be some 
flexibility and competition in those solutions. New space 
solutions are different than those for historic space. Office 
space is different than warehouse space or testing facilities.
    And we must ensure that there are standards that are 
flexible to allow the agency to have choices in those 
certifications as we meet those needs. GSA has a unique role in 
this regard. GSA provides recommendations governmentwide, but 
also has the responsibility of improving efficiency in its own 
facilities. I can also say this, that the hodgepodge way that 
we do our Federal portfolio drives me crazy. I could never 
figure out whether it is GSA's responsibility, or the agency's 
responsibility, or somebody else's responsibility. And so, for 
me, you are going to find a very willing bipartisan support, 
even if it goes against perhaps some of the long-held 
principles that I might have. If we can find a way to be 
efficient, and consolidate, and make sure that we lower our 
costs, I am all in.
    So I look forward to hearing from the witness, and I yield 
back.
    [Mr. Meadows's prepared statement follows:]
                                 <F-dash>
 Prepared Statement of Hon. Mark Meadows, a Representative in Congress 
 from the State of North Carolina, and Ranking Member, Subcommittee on 
    Economic Development, Public Buildings, and Emergency Management
    Reducing costs and increasing efficiency in federal real estate has 
been a bipartisan issue. This subcommittee has worked and continues to 
work to ensure federal space is right-sized, used efficiently, 
consolidated, and sold if not needed.
    For example, just last week my colleague, Mr. Pence, and I 
introduced reform legislation that will provide GSA with the tools 
needed to replace expiring leases with good deals for the taxpayer and 
expand opportunities to consolidate and reduce space.
    These are not controversial issues--these are effective solutions 
that we know will reduce costs.
    As we examine efficiency issues, including energy and water usage, 
it is important we apply those same principles in this context to 
ensure such solutions are effective and will reduce costs.
    But there are challenges we must address. For example, nearly 50 
percent of GSA's owned building inventory is more than 50 years old. 
More than 50 percent of GSA's space is now in leased facilities and 
there is limited funding for new construction.
    If we are serious about building in efficiency, we must look to new 
ways of approaching the financing of federal facilities. Federal 
agencies already can take advantage of performance contracting, which 
provides a way to finance improvements by leveraging private dollars. 
However, these presume a building is already built or that there is 
funding for construction. If we are serious about efficiency, we should 
be doing more with public-private partnerships, or P3s.
    For example, P3s such as Design-Build-Finance-Manage-Operate, would 
allow for new efficient buildings to be constructed and ensure 
efficiency is maintained throughout the life of the building.
    Ultimately, our goals in building efficiency are effectiveness and 
reducing costs. We must ensure solutions are, in fact, effective--that 
we aren't ``greening'' to just ``green.''
    We also must ensure a return on investment. Solutions should reduce 
costs for the taxpayer.
    To achieve effectiveness and return on investment, there must be 
some flexibility and competition in the solutions. New space solutions 
are different than those for historic space. Office space is different 
than warehouse space or a testing facility. We must ensure standards 
are flexible and that agencies have choices in the certifications they 
use to meet their needs.
    GSA has a unique role in this regard. GSA provides recommendations 
government-wide but also has the responsibility of improving efficiency 
in its own facilities.

    Ms. Titus. Thank you very much. Sounds like we are on the 
same path, so I appreciate that.
    I would now like to recognize Mr. DeFazio, who is the 
chairman of the Transportation and Infrastructure Committee, 
for his opening statement.
    Mr. DeFazio. Thanks, Madam Chair. As you mentioned, it has 
been 10 years since this subcommittee held a hearing on energy 
efficiency in Federal buildings, and it is long past time that 
we exert some oversight, look at progress that has been made, 
and look at new objectives.
    I would also echo some of the concerns of the gentleman who 
just spoke in terms of making more sense out of the Federal 
Government's portfolio and looking toward where we can make 
some upfront investments, whether it is through a P3 or other 
ways, that ultimately, over the term of the occupancy, whether 
it is a lease option or an actual outright purchase, when we 
are going to have net savings over time. So I think there is a 
lot of room for bipartisan consensus here.
    I was disappointed that this administration did rescind the 
order of President Obama's administration to have energy, water 
and net zero buildings by 2030. But GSA has actually had a 
couple of successes with some historic buildings. And if you 
can move a historic building in that direction without an 
inordinate investment, then I think we should be looking more 
and more at those, and at all new acquisitions.
    I actually last week was at Oregon State University. We are 
hearing from the University of Oregon today--no offense to the 
U of O--but I was there and we were talking about earthquake 
resilience and retrofitting. And they have developed a new 
system that they can retrofit our massive VA hospital in 
Portland to make it not only survive an earthquake, but the 
people inside--but to be functional afterwards. And making 
those sorts of investments in resilience and energy efficiency, 
I think, are very, very prudent.
    And we are also going to hear from Professor Kevin Van Den 
Wymelenberg, a professor of architecture at the University of 
Oregon, and he will talk both about green buildings and energy 
efficiency. He is also going to talk about resilience and 
something that is really just receiving attention, which is 
health, the health of the buildings that we work in, and how 
they impact our productivity and our long-term health. And I 
think it is something that really has been overlooked over 
time, and it is something that needs more attention.
    So I look forward to the testimony, and I thank you for 
holding the hearing.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    It's been ten years since this subcommittee held a hearing on 
energy efficiency in federal buildings and in those ten years much has 
changed.
    The General Services Administration now owns and leases over 376.9 
million square feet of space in approximately 9,600 buildings 
throughout the nation.
    The operation of federal buildings now consumes approximately $6.5 
billion in utilities annually.
    Energy savings contracts are being utilized by the GSA.
    The United States committed to--and then abandoned--the Paris 
Climate Accords.
    President Obama ordered the Federal Government to achieve energy, 
water, and waste net-zero buildings by 2030--and President Trump 
rescinded that directive.
    GSA stood up its Office of High Performance Buildings.
    There are now more building codes and more certified buildings.
    Old buildings in GSA's portfolio have been renovated to achieve 
net-zero energy consumption.
    And forward thinkers are asking how buildings can improve human 
health.
    I've heard that the Federal Government sets the standard for the 
private sector because buildings owners want to build buildings that 
GSA will lease.
    And I hope that is true--but I'm sure that the Federal Government 
can do even better. Federal buildings can be more energy efficient, 
more resilient to the effects of climate change, and become healthier 
places in which to work. That is why we are holding today's hearing.
    I want to thank the witnesses for being here, and particularly Mr. 
Kevin Van Den Wymelenberg, a professor of architecture at the 
University of Oregon. I look forward to hearing testimony on the 
current state of federal green building efforts and where we can 
improve.

    Ms. Titus. Thank you, Mr. Chairman. Mr. Graves is not here.
    All right. Well, at this time I want to welcome our 
witnesses. On our first panel, Mr. Kevin Kampschroer, who is 
the director of the Office of Federal High-Performance 
Buildings at the U.S. General Services Administration.
    Thank you for being here today. I look forward to hearing 
what you have to say.
    Without objection, our witness' full statement will be 
included in the record.
    Since your written testimony will be made part of the 
record, the subcommittee requests that you limit your oral 
testimony to 5 minutes.
    I welcome Mr. Kampschroer, and please proceed.

  TESTIMONY OF KEVIN KAMPSCHROER, DIRECTOR, OFFICE OF FEDERAL 
 HIGH-PERFORMANCE BUILDINGS, OFFICE OF GOVERNMENTWIDE POLICY, 
    AND CHIEF SUSTAINABILITY OFFICER, U.S. GENERAL SERVICES 
                         ADMINISTRATION

    Mr. Kampschroer. Good morning, Chairwoman Titus, and thank 
you, Ranking Member Meadows and members of the subcommittee. My 
name is Kevin Kampschroer, and I am the U.S. General Service 
Administration's Director for the Office of Federal High-
Performance Buildings, and GSA's Chief Sustainability Officer. 
I appreciate being invited here today to testify about our work 
on efficiency and resilience in Federal building design, 
construction, and operation.
    GSA's mission is to deliver value and savings in real 
estate acquisition, technology, and other mission support 
services across the Government. GSA manages over 371 million 
square feet of space, housing 1.1 million Federal employees 
from 65 Federal agencies. Congress created the Office of 
Federal High-Performance Buildings in the Energy Independence 
and Security Act of 2007 to enable and enhance Federal 
leadership in sustainable real property portfolio policy, 
management, and operations. Our office develops best practices, 
guidance, and tools for governmentwide use to advance building 
innovations in planning, design, and operations that reduce 
cost and enhance human health and performance.
    High-performance Federal buildings provide value for the 
taxpayer through life-cycle cost benefits and positive effects 
on human health and performance. In a recent study comparing 
100 GSA high-performance buildings to 100 GSA legacy-stock 
buildings, the high-performance buildings used 23 percent less 
energy; 28 percent less water; 23 percent less money for 
building operations; and have 9 percent less waste; and still 
maintain 2 percent overall higher tenant satisfaction. Energy 
and water savings are even greater when compared to industry 
benchmarks: 43 percent lower for energy; and 35 percent for 
water. By striving for annual improvement in energy and water 
efficiency, GSA has avoided over $600 million in energy and 
water costs over the past decade.
    GSA shares information, provides guidance, and assists the 
agency in improving building performance through the Federal 
Management Regulations, and through tools such as the 
Sustainable Facilities Tool and Green Procurement Compilation, 
and by working with our Federal partners and the private 
sector. Among these are the Interagency Sustainability Working 
Group which GSA cochairs; the Chief Sustainability Officers 
Council; ASHRAE; NAESCO; and the American Institute of 
Architects, among others.
    GSA also tests new technologies in conjunction with the 
Department of Defense, the Department of Energy, and their 
national laboratories.
    Technologies that GSA has recently recommended for broader 
deployment include next generation chillers, alternative water 
treatment technologies for cooling towers, LED upgrades for 
lighting, and low-e window retrofits.
    Over the past 5 years, GSA has deployed these and other 
advanced technologies in over 200 Federal buildings, resulting 
in annual savings of over $7 million a year. One of the key 
areas of interagency collaboration is our review of high-
performance building certification systems. EISA requires our 
office to complete a review of certification systems every 5 
years and to provide our findings and recommendations to the 
Secretary of Energy. The Secretary then issues a rule to 
encourage a comprehensive and environmentally sound approach to 
the certification of high-performance buildings within the 
Federal sector.
    We evaluate the alignment of certification systems based on 
a list of criteria found in the 2014 DOE certification system 
rule, EISA, the Energy Policy Act of 2005, and the Guiding 
Principles for Sustainable Federal Buildings. We are now 
completing our third review, and plan to submit our 
recommendation to the Secretary later this year.
    Another area of interagency collaboration, one that affects 
the Federal Government more broadly, is planning for 
resilience. GSA works with other key agencies, such as the 
Department of Homeland Security, FEMA, and the U.S. Army Corps 
of Engineers to better understand infrastructure risk, and 
methods for enhancing resilience, and to safeguard Federal 
investments.
    GSA incorporates resilience by integrating the latest 
building codes and methodologies into existing processes and 
standards, and applying them in its capital investment leasing 
program. Each capital project is screened for multiple factors, 
including the weather extremes, expected long-term changes 
during the asset life, and the presence of core mission 
functions.
    High-performance buildings need to be operated as 
efficiently as possible, and Congress has recognized that there 
is a shortage of skilled building professionals needed to keep 
buildings operating at peak efficiency. GSA has fulfilled the 
requirements of the Federal Buildings Personnel Training Act of 
2010 to consult with professional societies, industry 
associations, and apprenticeship training providers, and to 
identify, develop, and annually update core competencies. These 
are for building operations and maintenance, energy management, 
safety, and design functions. GSA has created an online tool 
that agencies can use to establish a training baseline and 
identify training needs.
    Thank you for the opportunity to testify today. Putting all 
of these tools together will help the Federal Government to 
make strides in designing, operating, and maintaining high-
performance Federal buildings.
    And to support further investment in GSA's portfolio of 
buildings I would ask that this committee support the 
President's fiscal year 2020 budget to fully fund GSA's repair 
and alteration request. This $1.6 billion funding level will 
allow GSA to address a portion of the $1.4 billion repair 
backlog, which will further improve the energy efficiency and 
performance of our buildings.
    I am pleased to be here today, and I am happy to answer any 
questions you may have.
    [Mr. Kampschroer's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Kevin Kampschroer, Director, Office of Federal 
High-Performance Buildings, Office of Governmentwide Policy, and Chief 
      Sustainability Officer, U.S. General Services Administration
    Good morning, Chairwoman Titus, Ranking Member Meadows, and members 
of the Subcommittee. My name is Kevin Kampschroer and I am the Director 
of the Office of Federal High-Performance Buildings (OFHPB) within the 
Office of Government-wide Policy (OGP) and the Chief Sustainability 
Officer for the U.S. General Services Administration. Thank you for 
inviting me today to discuss our work on efficiency and resiliency in 
Federal building design, construction, and operation.
    GSA's mission is to deliver value and savings in real estate, 
acquisition, technology, and other mission-support services across 
government. GSA leads the way in maximizing the effectiveness of every 
tax dollar by supporting more than $55 billion in annual procurement 
spending, while managing approximately 370 million square feet of space 
in over 8,700 owned and leased properties across the country. GSA also 
owns and maintains a fleet of over 214,000 vehicles used by over 75 
other Federal agencies.
    GSA's approach to sustainability focuses on our major mission areas 
of real estate, procurement, and fleet, and our core role as service 
provider to other agencies. Our mission is to provide Federal agencies 
with the workspaces, services, products, and vehicles they need to 
accomplish their missions today. Our commitment to sustainability is to 
carry out this mission cost-effectively, while advancing the economic, 
civic, and environmental well-being of the United States.
    To support investment in GSA's portfolio of more than 1,600 
buildings, I would ask this Committee to advocate for the President's 
FY20 budget request. Fully funding GSA's major and minor repair and 
alteration programs will allow GSA to address a portion of the $1.4 
billion repair backlog while also improving the energy efficiency and 
performance of GSA's buildings.
    Congress created my office within GSA to enable and enhance Federal 
leadership in sustainable real property portfolio policy, management 
and operations. Authorized in December 2007 under Section 436 of the 
Energy Independence and Security Act (EISA), OFHPB develops best 
practices, guidance and tools for government-wide use to advance 
building innovations in planning, design, and operations to reduce 
costs, and enhance human health and performance. OFHPB partners with 
GSA's Public Buildings Service and other Federal agencies to pilot and 
implement the high-performance building practices. In this effort, 
OFHPB has played a major role in the advent of Energy Savings 
Performance Contracts (ESPCs) across Government.
                                benefits
    High-performance Federal buildings provide value for the taxpayer 
and for the public through both life-cycle cost benefits and positive 
effects on human health and performance. Compared to average buildings, 
high-performance buildings use less energy, water, and material 
resources; have better indoor environmental quality; reduce air and 
water pollution, and produce less waste; use environmentally preferable 
products; have integrated systems; use local transportation to reduce 
adverse impacts on the local community; and improve conditions for the 
health and productivity of the buildings' occupants.
    EISA section 401(13) states that a high-performance green building 
must not just perform well mechanically, but perform to improve the 
health and enhance the performance of the occupants. The Environmental 
Protection Agency (EPA) has found that indoor air can contain volatile 
organic compounds, such as those found in paints and cleaning products, 
at concentrations indoors that are 2-5 times, and sometimes as much as 
100 times, higher than outdoor air. Poor indoor air quality associated 
with such pollutants as mold, tobacco smoke, and radon can also 
increase respiratory diseases and the risk of cancer \1\. Lighting 
quality, including levels of daylighting and views, have significant 
impacts on employee performance and satisfaction.
---------------------------------------------------------------------------
    \1\ US Environmental Protection Agency, Indoor Environments 
Division, http://www.epa.gov/iaq/voc.html
---------------------------------------------------------------------------
    GSA has conducted 3 studies in the past 10 years on improvements to 
its high-performance buildings, and each study has found that high-
performance buildings save energy, save water, cost less to operate, 
produce less waste, and have more satisfied occupants compared with 
typical buildings. In short, they deliver cost savings and tenant 
satisfaction. The latest study, conducted in 2018, The Impact of High-
Performance Buildings \2\ compared 100 GSA high-performance buildings 
to 100 GSA legacy stock buildings looking at actual performance data in 
five key metrics from three full years of operation. Compared to legacy 
stock buildings, GSA's high-performance buildings have 23 percent lower 
energy use, 28 percent lower water use, 23 percent lower building 
operating expenses, 9% less waste landfilled and a 2 percent higher 
overall tenant satisfaction. Energy and water savings are even greater 
when compared to industry average benchmarks--43 percent for energy and 
35 percent for water.
---------------------------------------------------------------------------
    \2\ US General Services Administration. Impact of High-Performance 
Buildings https://www.gsa.gov/cdnstatic/
GSA%20Impact%20of%20HPB%20Paper%20June%202018_508-2%20(1).pdf
---------------------------------------------------------------------------
    By striving for annual improvement in energy and water efficiency 
targets (as required by EISA and related laws), GSA estimates that by 
the end of fiscal year 2019, GSA controlled buildings will have saved 
or avoided hundreds of millions of dollars in energy and water expenses 
for taxpayers relative to 2009 spending levels. These efforts have 
benefitted Federal agencies and taxpayers by lowering utility bills.
                   inter-agency work and coordination
    GSA has a long history working with our Federal partners, the 
Department of Energy (DOE) National Laboratories, and the private 
sector on these issues. Consistent with its EISA charter, OFHPB has 
dedicated resources and expertise to a variety of interagency high-
performance buildings initiatives. OFHPB coordinates much of this 
agenda through existing Federal interagency bodies--such as the 
Interagency Sustainability Working Group, which GSA co-chairs with DOE. 
We work with the DOE Federal Energy Management Program and the 
Buildings Technology Office on ESPCs, on providing training for Federal 
facility managers, and on evaluating new and emerging building 
technologies. In addition, GSA participated in the creation of the 
DOE's Commercial Real Estate Energy Alliance \3\.
---------------------------------------------------------------------------
    \3\ https://betterbuildingsinitiative.energy.gov/alliance/sector/
commercial-real-estate
---------------------------------------------------------------------------
    GSA uses several means to share information, provide guidance, and 
aid other agencies in improving building performance. GSA's Office of 
Government-wide Policy issues the Federal Management Regulations \4\ 
and provides agencies with access to guidance and best practices 
through tools like the Sustainable Facilities Tool, Green Procurement 
Compilation, and GSA Bulletins. GSA invests in next-generation building 
technologies based on their actual performance, and recommends such 
technologies for broad deployment only after they have demonstrated 
good financial payback, cybersecurity and claimed performance factors 
via actual installation and operation in the real world of our 
portfolio of buildings. GSA tests new technologies in conjunction with 
the Department of Defense, the DOE and the DOE National Laboratories. 
The results of these tests are available for all agencies to use in 
evaluating building investments, and the results include information on 
both financial performance and operational performance results. 
Technologies that GSA has recently recommended for broader deployment 
in Federal facilities include next generation (such as magnetic 
levitation) chillers, alternative water treatment technologies for 
cooling towers, low-e window retrofits and LED upgrades. Over the past 
five years, GSA has deployed these and other advanced technologies in 
over 200 GSA-owned Federal buildings, resulting in annual savings of $7 
million.
---------------------------------------------------------------------------
    \4\ The Federal Management Regulation applies to Federal agencies, 
including GSA's Public Buildings Service, operating under, or subject 
to, the authorities of the Administrator of General Services. These 
policies cover the acquisition, management, utilization, and disposal 
of real property by Federal agencies that initiate and have decision-
making authority over actions for real property services.
---------------------------------------------------------------------------
         high-performance building certification system review
    One of the key areas of inter-agency consultation is in the review 
of High-performance Building Certification Systems. Sections 433(a) and 
436(h) of EISA require OFHPB to complete a review of high-performance 
building certification systems every five years and provide its 
findings to the Secretary of Energy. The Secretary then identifies a 
certification system most likely to encourage a comprehensive and 
environmentally sound approach to the certification of high-performance 
buildings within the Federal sector based on a review of GSA's 
findings.
    The purpose of GSA's review is to provide an objective, independent 
evaluation of the alignment of certification systems with Federal high-
performance building requirements for new construction and existing 
buildings. GSA evaluates certification systems available in the market 
based on a list of effectiveness, development, and conformance criteria 
found in the 2014 DOE certification system rule \5\, EISA and the 
Guiding Principles for Sustainable Federal Buildings.
---------------------------------------------------------------------------
    \5\ US Department of Energy. Green Building Certification Systems 
Requirement for New Federal Buildings and Major Renovations of Federal 
Buildings Final Rule https://www.ecfr.gov/cgi-bin/text-
idx?SID=18013effcff886527d31170b774b0771&mc=true&node=se10.3.433_1300&rg
n=div8 https://www.energy.gov/eere/femp/downloads/green-building-
certification-systems-requirement-new-federal-buildings-and-major
---------------------------------------------------------------------------
    GSA is now completing its third review of certification systems and 
plans to deliver the results of its latest review to the Secretary of 
Energy later this year. Previous reviews have found that while each 
building certification system offers a unique framework and approach to 
achieving building certification, they all support aspects of building 
design, construction, operation and maintenance that lead to high-
performing buildings.
    GSA's previous review in 2014 \6\ found that both the LEED and 
Green Globes systems were most aligned with Federal criteria. GSA 
recommended that agencies use the system that best meets their mission.
---------------------------------------------------------------------------
    \6\ https://www.gsa.gov/gbcertificationreview
---------------------------------------------------------------------------
                               resiliency
    GSA's Public Buildings Service (PBS) incorporates resiliency by 
integrating the latest building codes (such as seismic or wildfire) and 
resilience methodologies into its existing processes and standards, 
such as PBS' Capital Investment and Leasing Program and the Facilities 
Standards for PBS. GSA also collects lessons learned from building 
performance in recent extreme weather incidents. Within this context, 
each capital project is screened for multiple factors including: 1) the 
observed extremes and expected long term changes during the asset 
service life; 2) if the asset houses a core mission or mission 
dependent function that is currently or is expected to be vulnerable to 
extreme weather or long term changes; and 3) if the asset is designated 
as culturally or historically significant. From this analysis, GSA 
engages contracted, licensed design professionals to include risk 
management throughout the design and delivery of the building project. 
These activities are undertaken by GSA to safeguard Federal investments 
and ensure reliable delivery of mission and operations in changing 
conditions. The National Institute of Building Sciences has found that 
mitigation saves $11 for every $1 invested \7\.
---------------------------------------------------------------------------
    \7\ National Institute of Building Sciences. Natural Hazard 
Mitigation Saves Study https://www.nibs.org/page/mitigationsaves
---------------------------------------------------------------------------
    The American Society of Civil Engineers, the American Institute of 
Architects, the American Society of Landscape Architects, ASHRAE and 
others are each advancing the concept of resiliency, and GSA is aware 
of the standards development, resilience training, and ethical 
commitments of these professional societies. GSA is also engaged with 
multiple entities that are developing standardized metrics for 
resilience. Progress and leadership by Federal agencies such as the 
Federal Emergency Management Agency (FEMA), the U.S. Army Corps of 
Engineers (USACE), Federal Highway Administration (FHWA) and the 
National Aeronautics and Space Administration (NASA) serve as useful 
resilience and risk management resources to GSA. Collectively, there is 
a demand for American design innovation for a more resilient and secure 
Nation.
    This is an issue that affects the Federal Government broadly, and 
it is through inter-agency cooperation and knowledge sharing that 
agencies are progressing. GSA participates with other key agencies such 
as Department of Homeland Security-Cybersecurity and Infrastructure 
Security Agency (CISA), FEMA and the USACE to better understand 
infrastructure risk and methods for enhancing resiliency. This also 
extends to energy system resilience, which focuses on preparing for and 
adapting to changing conditions and withstanding and recovering rapidly 
from disruptions, which includes deliberate attacks, accidents, or 
naturally occurring threats or incidents. GSA is engaged in the MitFLG 
(Mitigation Federal Leadership Group) and has supported the development 
of the National Mitigation Investment Strategy (NMIS) and multiple 
other strategic resilience initiatives. GSA is also engaged in CISA's 
Resilient Infrastructure Planning and Development Working Group.
            federal buildings personnel training act of 2010
    Congress has recognized that a crucial component of building 
performance, especially complex modern buildings, is the people who 
operate them. Both public and private sector building operators have 
recognized that in the U.S., there is a shortage of skilled building 
professionals needed to keep buildings operating at peak efficiency.
    The Federal Buildings Personnel Act of 2010 (FBPTA) requires GSA, 
in consultation with representatives of professional societies, 
industry associations, and apprenticeship training providers, ``to 
identify, develop and annually update core competencies for Federal 
personnel performing building operations and maintenance, energy 
management, safety and design functions.''
    The FBPTA leverages existing private industry and Federal 
Government training to develop Federal facilities professionals with 
the knowledge, skills and abilities needed to efficiently and 
responsibly operate, maintain and manage hundreds of millions of square 
feet of taxpayer-funded buildings and related facilities throughout the 
world. A highly developed facilities workforce reduces the cost of 
operating and maintaining buildings.
    GSA annually updates the FBPTA Competency Model to ensure it 
contains the specific skills needed by building professionals to be 
effective in their respective roles. GSA created an online tool, 
Accelerate FM (AFM), to advance the outcome of the use of the FBPTA 
Competency Model for use government-wide and to eliminate the 
duplication of effort by other agencies. Agencies and their building 
professionals use this tool to identify specific responsibilities at 
different levels of expertise, establish a training baseline, identify 
gaps in training, and align existing industry and government training 
to fill identified training gaps while at the same time providing clear 
justification for investment in that training.
    GSA created an exam within AFM called the Federal Skills Assessment 
Test (FEDSAT), which is used to jumpstart individual participation in 
facilities workforce development by leveraging existing facilities 
training and related content to educate individuals on the most high 
impact skills and knowledge that will yield the most immediate results 
in actual facility performance.
    GSA continues to pursue engagement with Federal agencies, training 
providers and private industry to maintain the FBPTA competency model 
and identify new relevant training resources. For example the latest 
FBPTA Competency Model update contains 19 newly identified cyber 
security related competency performance areas deemed to be critically 
important in the emerging landscape of web enabled facility systems. 
Recently, the Department of Defense approached GSA about using this 
tool to help identify cyber-security skills gaps, and training 
requirements, to support implementation of Executive Order 13870, 
America's Cybersecurity Workforce.
                               conclusion
    Putting all of these tools together, and ensuring we use the best 
evidence available to make decisions, will allow the Federal Government 
to make strides in designing, operating, and maintaining high 
performance Federal buildings. GSA is proud to be part of that effort.
    Thank you again for this opportunity to come before you and we look 
forward to working with this Subcommittee to further improve the 
efficiency, effectiveness, and resiliency of Federal buildings. I am 
available to address any questions you may have.

    Mr. Kampschroer. And I don't have any time to return. 
Sorry.
    [Laughter.]
    Ms. Titus. That is all right. Most people say, ``I give 
back my time'' when they don't have any time, anyway. So that 
is all right. But thank you very much.
    We are going to move on now to Member questions. Each 
Member will be recognized for 5 minutes, and I would like to 
start by recognizing myself.
    Mr. Kampschroer, you have been at this a long time. And as 
you laid out some of those statistics, when you began--you have 
accomplished quite a lot. You have championed sustainability, 
and I want to thank you for that.
    A couple of things that you mentioned, though, I would like 
to talk about a little more in detail, because they kind of fit 
with FEMA and what we have been discussing in that 
subcommittee.
    When you assess the damage that has been done by flooding 
or tornadoes or hurricanes, and then you determine what changes 
we need to make to rebuild, can you tell us a little more about 
that process, and how you are working towards making us more 
resilient? Because we have found in the past we just keep 
making the same mistake over and over again, and you keep 
building right back where it is going to be flooded or 
destroyed. And that just didn't make good sense.
    Mr. Kampschroer. Thank you. Yes, we have changed in the 
last several years our processes for the initial selection of 
capital projects to require a comprehensive look at the site, 
the longevity, the expected life of the asset, and what is 
likely to happen at that particular site. And, of course, that 
is very geographically specific.
    In addition, we are looking at making sure that all of the 
architects and engineering firms that are working on our 
projects have the proper credentials to be able to make good 
evaluations for how to design buildings that would last for the 
service life. And that includes looking at strengthening the 
enclosure, ensuring that the services can continue to operate, 
examining with the intended tenant of the building, how we will 
react to a disaster, whether there are retreat options, what 
other backup facilities there will--and including looking at 
supply chain effects.
    We worked with one agency where we discovered that they 
could do everything in a storm, relocate elsewhere and operate, 
except for one little problem. They didn't have the bandwidth 
on their contract for electrical service, for Wi-Fi services. 
So looking at a comprehensive view of what we might do in 
different circumstances is the key.
    And in the case of rebuilding, obviously, after a disaster 
our first goal is to get the Government up and running, but 
then to look at the existing facilities and apply exactly the 
same criteria to them as we rebuild, moving forward.
    Ms. Titus. Well, I know we had $92 million for damages 
after Hurricane Florence, and that is just for Federal 
buildings. So we want to be sure that money is put to good use.
    Mr. Kampschroer. Yes. And, in fact, we are looking in that 
particular case to--the most expensive thing that we experience 
is flooding. And this is the flooding result. So we are looking 
at making different decisions about how to protect the existing 
structures, despite their presence in low-lying areas, so that 
we can either shed the water or make sure that it gets in and 
out more carefully--moving, for example, electrical connections 
up higher, so that they are not in the basement, and solutions 
like that.
    Ms. Titus. Thank you. Another question I have is we often 
talk about what we do to the building itself, how to make it 
sustainable or energy efficient. But some of it has to do with 
locating the building. In many places around the country 
outside of Washington the location of a Federal building has to 
do with the development in that area.
    So how do we go about locating a building where it is close 
to transportation, or helps a neighborhood, or is close to the 
workforce? And once you decide the general area, how do you 
locate the building so that it is able to take advantage of the 
sunlight, for example?
    Mr. Kampschroer. That is, obviously, a very local decision 
across the country. We look at the presence of transportation. 
We look at how people get to and from the building. That is 
part of our common evaluation in places with no local 
transportation. We look at the road services, and the other 
ways that people can get to the building, and how they can 
commute. That is part of the decision.
    We also look at how it is that we can--in building a new 
building we have very strong day-lighting requirements within 
the building. And in renovating old buildings we are able to do 
that. In the chairman's district, the Edith Green-Wendell Wyatt 
Building, when the facade was replaced, we were able to have 
the building be day-lit all day long in the entire occupied 
part of the building, including some areas of the basement that 
had historically been cut off from light.
    I will stop there.
    Ms. Titus. So those are considerations that you could 
make----
    Mr. Kampschroer. Yes, ma'am.
    Ms. Titus [continuing]. With every building, both in new 
buildings and in renovated buildings. Thank you.
    I would recognize the ranking member.
    Mr. Meadows. Thank you, Madam Chair. Mr. Kampschroer, can 
you help me understand, I guess, the role of the Green Building 
Advisory Committee? I guess in that criteria it talks about a 
process of adding non-Federal members for participation. And I 
guess I am unclear on exactly how those non-Federal members are 
added to that advisory board.
    Mr. Kampschroer. Thank you, sir. The Green Building 
Advisory Committee's non-Federal members are specified in the 
Energy Independence and Security Act of 2007, mostly by 
category. So we have members who represent rating systems, we 
have members who represent the construction industry, 
architectural industry, engineering expertise, transportation 
expertise on there. In fact, our chair of the committee is from 
the New York MTA.
    We go through a process of, every 4 years, of reappointing 
people. We put out a Federal Register notice. We explain what 
the expertise we are looking for is. We ask for resumes. We 
evaluate those, and then submit a recommendation to the 
Administrator of General Services, who makes the final 
selection. And then----
    Mr. Meadows. So I guess what I am saying is what is that 
criteria? Because you talked about reappointment. So does 
everybody just get reappointed, or how do you break into this 
club?
    And I see one of your staff shaking their head no. So I 
guess the answer is no.
    Mr. Kampschroer. Actually----
    Mr. Meadows. She should never play poker, by the way, but 
go ahead.
    [Laughter.]
    Mr. Meadows. Oh, you are not staff. Oh, you are just 
shaking your head no? All right, go ahead.
    Mr. Kampschroer. So people have rotated off the committee. 
The last time there were four new members that joined the 
committee. And so people leave, and new people come on.
    The criteria we have, we look for expertise in the things 
that the Green Building Advisory Committee is charged with 
doing----
    Mr. Meadows. No, I get that. But who is the evaluator of 
that expertise, I guess, is what I am saying.
    Mr. Kampschroer. Oh, the staff of the GSA making 
recommendations to the Administrator.
    Mr. Meadows. All right. And so if I were a non-Federal 
member, what is the best chances of me actually getting on that 
advisory committee? I mean I put forth a resume, and what--I 
mean, in the matrix, how do you get appointed to that? I mean 
what is the top priority for getting included in that group?
    Mr. Kampschroer. Expertise on the work of the committee.
    Mr. Meadows. Having built buildings that are indeed----
    Mr. Kampschroer. Yes, if they are representing the 
construction industry, experience in building buildings. And--
--
    Mr. Meadows. I guess what I am looking for is if you can 
get to this committee how do we make sure that we have a 
diversity of opinions as we do that, because some things, like 
boards, are self-perpetuating. And then what they do is they 
end up patting each other on the back, and you get no new ideas 
coming. And there has been groundbreaking ideas, in terms of 
how we make sure that we are more efficient.
    So can you get to this committee, in the next 60 days or 
so, a plan on how--and maybe you already are doing that, but 
how you would best make sure that we don't self-perpetuate----
    Mr. Kampschroer. I would be happy to do so, and I apologize 
for not explaining it well enough in the short time----
    Mr. Meadows. No, you are very kind. And actually, we are 
not in a confrontational kind of situation here, I just want to 
make sure that I understand it.
    So, in terms of updating the P100 facilities, why--it is my 
understanding there is only one certification system that is 
there. Why would that be? Why has that not been updated? Am I 
correct in that?
    Mr. Kampschroer. That is correct. The P100 is used by GSA 
as its standard for Federal buildings. In our recommendations 
that we made 5 years ago on high-performance building rating 
systems, we recommended that for each portfolio an agency 
select one and use that one, rather than have multiple systems. 
It is an efficiency measure, more than anything else.
    And in GSA's case the Public Building Service determined 
that the lead was the one that was most familiar to GSA 
employees who had to enforce it, and to the construction 
industry who were bidding on our projects.
    Mr. Meadows. And so--and I get that, as being most 
familiar. But I--you know, it wasn't too long ago that 
BlackBerries were most familiar to everybody, and I don't know 
that you can find one on Capitol Hill now.
    And so I guess what I am saying is, as we look at that, 
again, I am looking for a diversity of opinions and the ability 
to make sure we are efficient and effective. When will the P100 
be updated next?
    Mr. Kampschroer. It is on a--it has moved, actually, from a 
periodic updating to a continuous updating cycle now, so it 
gets updated frequently. So there is no particular brandnew 
P100 version 12, so it gets updated almost every month with----
    Mr. Meadows. So it could change tomorrow.
    Mr. Kampschroer. It could. It probably will.
    Mr. Meadows. All right. I yield back. Thank you.
    Ms. Titus. Thank you. I would now like to recognize Ms. 
Davids for 5 minutes.
    Ms. Davids. Thank you, Chairwoman, Ranking Member, and to 
Mr. Kampschroer for being here today. I appreciate your 
testimony, and I applaud the GSA for its leadership in 
developing new building code standards for Federal buildings.
    And I am particularly intrigued by the information you 
provided around resilient building. As the chairwoman noted 
already, with increases in large weather events and climate 
change being an indisputably real and daunting challenge for 
our time, there is no action too small to help mitigate the 
effects of climate change. And we need to use every tool at our 
disposal, and I think this committee can make it easier for 
agencies like yours to play a significant role in that 
mitigation.
    So I am from the Kansas Third Congressional District, which 
encompasses all of Johnson County, Wyandotte County. And I 
think a lot of times people think of coastal cities when they 
think about climate change, but the Weather Channel ranked our 
region, the Kansas City area, as the fifth in the top 25 list 
of U.S. cities to be most impacted by climate change. We are 
certainly an important area for purposes of our Nation's 
infrastructure and transportation. Our metro area is going to 
see 20 more days above 90 degrees, which is--you know, it will 
be more than the rural counterparts, and we have a lot of 
drought concerns coming up. And then, with heavy rains that are 
occurring, our region has a lot of flooding issues, as well.
    I guess I want to hear a bit about the process for 
information gathering prior to or during the design phase, like 
prior to the building, but during the design phase. What is the 
process for factors that you take into account there?
    Mr. Kampschroer. So before we even get to design phase, 
when we are selecting projects and developing the prospectus, 
and developing the contract, we work very closely with FEMA, in 
particular; the Army Corps of Engineers, with their experience; 
NASA; and other agencies, mostly in the Department of Homeland 
Security. That is where we get the most up-to-date standards, 
and that is where we get the most up-to-date information about 
forecasts for long-term events.
    So we look at--and it is very geographically specific, so 
we look at what--where we are in the country, what we are 
likely to have to deal with, and we look for the long term, 
because most new buildings that GSA built, we assume, are going 
to be functional for 100 years. So we are looking out 100 years 
using the science assessments of what is going to happen in 
that area.
    And, as you mentioned it is very geographic-specific. We 
worry about flooding, because that is the most expensive to 
recuperate from. But we have actually worked with people in the 
Midwest, our clients, who are operating computer centers that 
won't operate without water. And in extended periods of drought 
how do you deal with that? How do you do that?
    So we look at different options for cooling, different 
options for designing backup systems for data centers and that. 
And we do all of that before the building starts. Then we put 
those things into the specifications, and they become a part of 
the selection criteria for the teams that we hire that actually 
do the design and construction of facilities.
    Ms. Davids. Thank you. And one of the things--I think part 
of the reason that I am so interested in this is because when--
under the benefits section of your testimony I was very excited 
to see the 23-percent lower building operating expenses that 
you noted. I mean, of course, I am excited about the 23-percent 
lower energy, and the lower water usage, and that sort of 
thing.
    But I guess how do you marry up the potential cost savings 
with the--all that work that you put in with the other 
agencies? How do you marry those things up when you are looking 
for--when you are looking at the design and the building 
function?
    And then also, can you tell me, are you--do you use a 
design-build construction risk manager--what kind of----
    Mr. Kampschroer. If I could start with that one, because it 
is one of the things that we have learned, is the efficacy of 
design-build or design-built like--we also use something called 
design-build bridging, both of which are very effective.
    We did some studies of particularly effective buildings to 
look at what made those projects so successful. And the answer 
was integrated design, making sure that everybody was at the 
table, making sure that when the architects and engineers were 
thinking about buildings we had the building manager, who was 
going to operate the building, in the room contributing to 
that, as well as the people who are building it. The diversity 
of ideas in teams that are developed with integrated design 
principles is the most important factor in success there.
    And to get back to your savings question, we assume that we 
can get savings because we know we can do that, so we just keep 
watching for it as we go through the building, through energy 
models and the like. I mentioned the Edith Green-Wendell Wyatt 
Building. They did over 30 energy models during the course of 
design, just to make sure that the building would operate as 
well as it does today.
    Ms. Davids. Thank you.
    Ms. Titus. Thank you. I will now recognize Mr. Pence for 5 
minutes.
    Mr. Pence. Thank you, Chairwoman Titus and Ranking Member 
Meadows. And nice to meet you, Mr. Kampschroer. Thank you for 
being here today.
    The Energy Efficiency Improvement Act of 2015 directed GSA 
to develop model leasing provisions related to energy and water 
efficiency measured in leased space. GSA space is now more than 
50 percent leased. While we have been working to reduce those 
costs through consolidation and positioning--GSA did negotiate 
better deals, as Congressman Meadows mentioned--we have seen 
the costs of lease space increase. How does GSA ensure the 
taxpayer realizes the savings in the rental rates of leased 
space from efficiency requirements?
    Mr. Kampschroer. Well, to your first point, we actually did 
publish the model lease provisions, and we had them vetted with 
a number of different private-sector entities, and we used 
those provisions in our own leases.
    And, in fact, we based, in many cases, the model lease 
provisions on what GSA had been developing over the years.
    Leasing is a competitive process, and it is, like all real 
estate, a combination of location, functionality, size, and 
future benefit to the occupants of the building.
    I think that I would defer further questions on how that 
competitive process goes. It doesn't happen to be my particular 
area of expertise, if I may.
    Mr. Pence. OK, thank you. I yield my time.
    Mr. Meadows. Will the gentleman yield?
    Mr. Pence. I will so yield.
    Mr. Meadows. Yes, so let me follow up on one particular--
because you mentioned one area that really is a pet peeve of 
mine. When we look at leasing overall, the residual value of a 
building, GSA doesn't really get to figure that in. So if you 
are actually leasing a building and being able to purchase that 
building at the end of that contract, there are constraints on 
that. Is that correct?
    Mr. Kampschroer. That is correct.
    Mr. Meadows. How can you compare to the private sector, 
then?
    I guess the question for me is--because in the private 
sector, what we would do, if we go out and lease something, we 
would actually have a lease. And if it was a lease purchase, we 
would have a residual value. Sometimes that is $1, sometimes 
that is market value at the time.
    How do you compare to the private sector when, indeed, you 
can't even enter into a contract that is the same as the 
private sector?
    Mr. Kampschroer. We have done a number of studies that 
compare the Federal construction to private-sector construction 
by taking into account those differences.
    Obviously, we don't pay----
    Mr. Meadows. Well, in terms of cost, I get that, because 
you have those parameters. But in terms of lease costs, you are 
comparing apples to oranges. Wouldn't it be better if we were 
able to find an apple-to-apple comparison to allow residual 
values to--that if we are leasing a building, and we can 
purchase it for $1--let's put it in car terms, in automobile 
terms. You can have a lease on a car with a zero residual, or 
you can have a lease on a car that has a $10,000 residual. And 
yet the lease payments will be very different on those two 
automobiles.
    And so how do you compare the two? And I guess that is what 
happens in the private versus Federal. Would it not be helpful 
if you were given greater flexibility in that, to be able to 
make sure that we are efficient for the American taxpayer?
    Mr. Kampschroer. [No response.]
    Mr. Meadows. It is not a trick question.
    Mr. Kampschroer. I know it is not a trick question. It is 
also a question that is not--I am not quite current in all of 
the flexibility that the Government does have. So I would 
actually prefer to----
    Mr. Meadows. I yield back, and I thank the chairwoman's 
courtesy.
    Ms. Titus. We appreciate that, Mr. Kampschroer. We are here 
to talk about energy efficiency. The topic of leasing versus 
building and all that GSA does is--well, could be a whole other 
hearing. Maybe we can bring the Director in to address some of 
those questions. So we will get back to energy efficiency, and 
resilience, and that sort of thing.
    So I now recognize Ms. Holmes Norton.
    Ms. Norton. Thank you very much, Madam Chair, a very 
important hearing.
    But I would simply like to go on record before asking my 
questions to thank you, Madam Chair, for joining me in sending 
a letter last month to the Financial Services Appropriations 
Subcommittee to request that they restrict GSA's ability to use 
funds to assist in the implementation of USDA's plan to 
relocate two agencies, the Economic Research Service and the 
National Institute of Food and Agriculture, out of the 
Washington, DC, area. I very much appreciate your help in this 
respect. It is an attempt to use GSA's leasing authority 
without having moved through the standard GSA procurement 
process.
    The other committees and Members, including the entire 
House and Senate Capital Region delegation, have noted this 
problem. And, Madam Chair, I would ask that you consider a 
hearing in our subcommittee on GSA's role in facilitating 
USDA's relocation proposal. It is an attempt to get around this 
subcommittee, as well as the standard procedures. I would 
appreciate very much your considering that, Madam----
    Ms. Titus. Thank you for bringing that to our attention 
again.
    Ms. Norton. I have a question on the implementation of 
President Trump's Executive Order 13834. I am trying to figure 
out where it stands now, in relation to a prior Executive 
order.
    The Executive order says it does want to increase 
efficiency and eliminate unnecessary use of resources, protect 
the environment. So all of the upfront language is what you 
might expect. But it does not set specific energy, water, or 
greenhouse gas reduction targets, and it repeals the Obama-era 
Executive order, which specifically required such targets. Its 
target was to reduce building energy intensity by 2.5 percent, 
annually.
    Now, I can understand perhaps this administration disagrees 
with that, but it has got a new Executive order. And so I must 
ask you if you believe that the Trump Executive order actually 
repeals specific performance targets. And if it does, how will 
you know that there has been any reduction in energy 
consumption?
    Mr. Kampschroer. Thank you, Congresswoman. The Executive 
order whose implementing instructions were just issued a couple 
of weeks ago requires the same degree of reporting on all of 
those factors. And also----
    Ms. Norton. Well, the degree of reporting--so what do the 
agencies report?
    Mr. Kampschroer. Well, we are reporting on energy 
intensity, water intensity over time. Greenhouse gases are 
still reported, and they still appear on the OMB score card of 
agencies.
    What has changed is the flexibility with which individual 
agencies have to set targets for reduction. What is required is 
a reduction.
    Ms. Norton. And how will you know if there is a reduction? 
And why do you think there do not need to be targets, sir? What 
are they aiming for? If they reduce it a tiny bit, that is OK 
with GSA? If they reduce it a great deal, what do they get for 
that? What was the point?
    And erasing specific targets, perhaps you have another 
target. Perhaps you think the 2.5 percent is too great. Why 
then not have at least your own administration target?
    Mr. Kampschroer. Well, every agency sets an internal target 
and reports that in an annual plan, which is reviewed by the 
Council on Environmental Quality----
    Ms. Norton. So the Executive order does instruct them to, 
agency by agency, set targets and report them to GSA?
    Mr. Kampschroer. To report them to the Office of Management 
and Budget, and the Council on Environmental Quality.
    Ms. Norton. Madam Chair, I would ask that any targets set, 
which are not clear in the Executive order, by the way, be also 
reported to this subcommittee. I yield back.
    Ms. Titus. Thank you. If you could help us with that, we 
would appreciate it, Mr. Kampschroer.
    I now recognize Mrs. Miller for 5 minutes.
    Mrs. Miller. Thank you, Chairwoman Titus and Ranking Member 
Meadows. And thank you for being here today.
    In your testimony you mentioned that the GSA's investment 
in next generation building technology is based on actual 
performance, financial payback, and real-world demonstration. 
The GSA will then recommend deployment only after these 
technologies have demonstrated positive results. What 
technological resources has GSA recommended for deployment in 
the Federal facilities?
    Mr. Kampschroer. I mentioned new efficiency chillers. We 
did a series of studies of magnetic levitation chillers. They 
have much lower friction. We found them to be almost 
universally an improvement. We have recommended those, we have 
recommended several different kinds of LED lighting systems 
over the years.
    We have just--if I can get a plug to Congressman Meadows's 
earlier question--the Green Building Advisory Committee has 
recommended to us to take a look at, in particular, what we 
think is a very exciting new technology, which is the 
integration of buildings with grid-integrated buildings, and we 
are working closely with the Department of Energy to do a pilot 
project on that. I think it is very exciting, it is sort of the 
next generation there.
    We have looked at high-efficiency boilers.
    And then I think the other three areas which we have done--
we think are very worthy of investment are water and sewer 
savings get a very high payback; control systems, because the 
changes in control systems have made--and the presence of 
advanced meters have made--the analysis of what goes on 
buildings much more effective than it was a decade ago----
    Mrs. Miller. And even things like newer windows?
    Mr. Kampschroer. Windows are the most difficult energy 
improvement to make cost-effective in a reasonable time. But 
yes, it includes new windows, low-e glass panes.
    We have looked at--and, in fact, the building I work in has 
a roof that has electrochromic glass. It is one of the first 
installations on the east coast with electrochromic glass, 
because it was actually the cheapest way to cool the space much 
cheaper than sort of physical canvas coverings, and shades, and 
so on.
    Mrs. Miller. OK, so what is the timeline for the testing of 
the technology following the installation of these operations?
    Mr. Kampschroer. We usually test--and if I could back up a 
second--we look at the Department of Energy for ideas, and sort 
of the laboratory testing of buildings, and then ourselves and 
the Department of Defense test them in actual buildings. We 
work with the National Laboratories to do, usually, a yearlong 
test of equipment in situ, so we get the experience on all four 
seasons.
    Mrs. Miller. OK, thank you. And can you speak to GSA's 
goals for the upcoming year on continuing to implement 
analysis-based evaluations that you have been talking about?
    Mr. Kampschroer. Yes. I mentioned our focus this year is on 
selecting one, two, perhaps even three pilots on grid-
integrated buildings. We are looking at a combination of 
finding the right building, plus a cooperative utility, because 
you can't do this without a utility, and plus rates that are 
conducive to make this change.
    So grid-integrated buildings make the most sense where you 
have significant swings in time-of-day pricing--you know, cheap 
energy in the middle of the night, and expensive energy in the 
afternoon--where you can make those adjustments to the grid 
operator, and conceivably reduce the overall cost of the grid, 
and increase the reliability of the grid, which actually gets 
the utility interested in the project.
    Mrs. Miller. Thank you. And would you please humor me and 
tell me the name of those windows again, and how they operate?
    Ms. Evans. Electrochromic glass windows operate by reacting 
to the amount of sunlight that hits them, and then changing 
color automatically. They require a little trickle of 
electricity. And in our installation we have a couple of 
translucent solar panels that provide that trickle of 
electricity on the same roof.
    Mrs. Miller. OK, thank you. I yield back my time.
    Ms. Titus. Thank you. Don't you also work with the 
Department of Energy sometimes to put solar panels over covered 
parking buildings?
    Mr. Kampschroer. We have done that. And, in fact, in an 
energy project that we did under the ESPC authority right in 
New Carrollton, we found that the most cost-effective way to 
install the solar component was to cover the parking, which has 
sort of the very nice side effect of making the cars of the 
people who work in the building much cooler at the end of the 
day, and it also supplies over 20 percent of the electricity of 
that building.
    I might add that that is a wonderful case study of Energy 
Savings Performance Contract. We achieved over 62 percent 
actual energy savings. It has been in operation for 4 years, 
and it continues to outperform the predictions.
    Ms. Titus. Thank you. Now I recognize Mrs. Fletcher for 5 
minutes.
    Mrs. Fletcher. Thank you, Chairwoman Titus. And thank you, 
Ranking Member Meadows, for holding this important hearing 
today. Thank you, Mr. Kampschroer, for taking the time to 
testify.
    Management of Federal buildings throughout the country is 
no easy undertaking, and I want to talk just a little bit about 
some of the goals and objectives that have been set. The Energy 
Independence and Security Act of 2007 established the Office of 
Federal High-Performance Buildings to develop best practices, 
guidance, and tools for governmentwide use to reduce cost, 
enhance human health and performance, and minimize 
environmental impacts, as you know.
    GSA has driven improvements to the efficiency of Federal 
buildings through this office, which has been a large success 
story. Energy efficiency at Federal buildings is vastly 
improved from where we were a decade ago. I do, however, worry 
that some aspects of the Energy Independence and Security Act 
of 2007 have not spurred the desired outcome that was 
envisioned when the law was enacted.
    Section 433 of the Energy Independence and Security Act 
calls for the elimination of all fossil fuel-generated energy 
from Federal buildings by 2030. With the growth that we have 
seen domestically in natural gas over the last decade, I am not 
sure this provision has the desired environmental effect that 
was intended. Natural gas plants replacing coal-fired plants in 
the power sector have been the greatest factor in reducing 
carbon emissions to levels we haven't seen, the lowest levels 
in the last 20 years.
    But we now have a statute saying that by 2030 there will be 
no natural gas used in Federal buildings. This is 
counterintuitive to addressing carbon emissions. And so I want 
to ask you a couple questions that go to that issue.
    Number one, can you tell me what percentage of Federal 
buildings currently rely on fossil fuel-generated energy?
    Mr. Kampschroer. In GSA's inventory it is virtually all of 
them.
    Mrs. Fletcher. And, as I think you know, the 2007 Act sets 
targets for fossil fuels at 80 percent of all Federal buildings 
being fossil fuel free by 2020. Is this target a realistic one 
that you expect to meet?
    Mr. Kampschroer. As we build new buildings we are taking 
that target into effect in the buildings that we bring into the 
inventory, and we are currently achieving the targets that are 
set in statute.
    Mrs. Fletcher. Well, that applies to new buildings. But for 
existing inventory--I think you just told me virtually all of 
the buildings rely on fossil fuels. So do you think that a 
policy focused on energy efficiency and reduction of carbon 
emissions at Federal buildings, rather than the elimination of 
all fossil fuels, but instead having a fuel-source-neutral 
effort to reduce our overall carbon footprint, would be a 
better way to foster the environmental mandate?
    Mr. Kampschroer. In my personal opinion, if the goals are 
very clear, having greater flexibility in the means of 
achieving them is usually the better way to achieve those 
goals.
    Mrs. Fletcher. And just to be clear, we are talking about a 
goal--all the buildings right now rely to some extent on fossil 
fuels to power them. And we are talking about a reduction by 
2020, but--80 percent. That target is not achievable.
    Mr. Kampschroer. I am sorry, I didn't hear that.
    Mrs. Fletcher. Would you agree with me that the target of 
reducing fossil fuels 80 percent is not achievable by 2020?
    Mr. Kampschroer. I would agree with you that it is a very 
difficult goal.
    Mrs. Fletcher. And would you agree with me that it makes 
sense to revisit the goals and--instead of reducing all 
carbon--instead of reducing fossil fuels, instead focusing on 
carbon emissions and reducing emissions?
    Mr. Kampschroer. I am sure that we would be very happy to 
provide an opinion to this committee on proposed legislation 
that would talk about the practicality of achieving the 
legislation that was drafted.
    Mrs. Fletcher. I think that would be very helpful. I think 
one of the things that we should strive to do on our committee 
is set achievable targets. And from your testimony today, I 
don't think the goal for 2020 or for 2030 seem like they are in 
sight.
    So I thank you for your testimony this morning. I look 
forward to getting additional information from you. And I see 
that my time is running out, so with that I will yield back.
    Ms. Titus. Thank you. I now recognize Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chair.
    Mr. Kampschroer, I want to go in a little bit different 
direction. There was a report that came out that said--it has 
been a few years ago--that there were 77,000 empty or 
underutilized Federal buildings. I know that we are, on the 
energy side, spending some amount of money to maintain those 
buildings.
    Doesn't it make sense--wouldn't it make more sense for us 
to sell those buildings, get them out of the Federal inventory, 
and get them off the books in terms of what we are expending?
    Mr. Kampschroer. I am not sure I completely understand the 
question, but I would agree with the premise that buildings 
that are underutilized can save the most amount by being 
renovated so that they can be more intensively used.
    In GSA's headquarters, for example, we increased the number 
of people in the building after the modernization of the 
building by over 40 percent. And we are avoiding $32 million a 
year in avoided lease costs by reducing the amount of leasing, 
moving people into the building.
    It is also interesting that we studied two buildings, the 
one I work in here in Washington, DC, and a building in Denver, 
Colorado, that have that kind of density. And when you increase 
the density by 40 percent, the electrical consumption of the 
building only goes up by 4 percent. So it is also an energy 
efficiency component there.
    And it is certainly true that the square foot of space that 
you don't use at all has the greatest savings, compared to one 
that is more efficient.
    Mr. Palmer. Right. Well, Mr. Meadows made this point about 
buildings that are over 50 years old.
    Here is an article from National Public Radio about empty 
buildings, and there is one in particular. Now, this is from 
2014, so I don't know what has happened with this building, but 
it is a 132-year-old building that is just 6 blocks from the 
White House that is sitting empty.
    And the point I am trying to make is that, if you have got 
property that is underutilized, you are still paying to keep it 
heated and cooled. It might make more sense to sell those 
buildings, let somebody else bear the cost of doing the 
modernization of the building, reduce the energy footprint, 
rather than the Federal Government doing that.
    Then you have got this report from the GAO from March of 
last year on space utilization. I just think that has got to be 
part of the discussion when we are talking about reducing our 
overall energy costs, is better utilization of the properties 
that we have, and maybe disposal of the properties that we 
don't need. And I think that needs to be part of the 
conversation.
    Mr. Kampschroer. I think that is an important thing, sir. 
And it is also something that GSA is supporting governmentwide 
in the past several years. If I recall--I may have this 
statistic a little bit off--we have reduced the overall Federal 
inventory by over 3 million square feet, $3 billion.
    And there is a very active program to reduce the total 
footprint of the Government, and I would be happy to provide 
you some more information about that program.
    Mr. Palmer. Well, there is some--a little bit of 
frustration involved here, because the GAO placed the handling 
of Federal buildings on its high-risk list, and it has been on 
there since 2003. And I think, now that we have got this major 
focus on energy, and going to renewables, and being more 
efficient, that now would be a good time to start implementing 
some of the suggestions that the GAO has made.
    Obviously, there is some major complications with selling 
Federal property that I think we need to work through. But when 
you are talking about buildings, particularly older buildings, 
as Mr. Meadows brought up, and he has been a developer, I 
worked for two international engineering companies--I think it 
would be in our best interests if we took a holistic view of 
this, and start looking at property that is underutilized or 
unoccupied, and make some decisions there that would help us 
reduce our energy footprint.
    With that, Madam Chair, I will yield back.
    Ms. Titus. Thank you very much, Mr. Palmer.
    I would also remind this committee that during the last 
session of Congress, when it was chaired by Mr. Barletta, he 
was very concerned about this, and we were working towards 
this, and had several hearings on how to reduce that footprint 
and move away from some of the old buildings, sell some instead 
of renting, building. So we can get some of that information 
from previous hearings to the committee, and see where we want 
to go from there. Because I think some progress has been made 
as a result of those hearings, and we will see what might be 
next.
    Thank you. We are done with this? Thank you very much for 
being with us, it has been very enlightening. We appreciate 
your expertise and your commitment to this. Thank you for 
spending time this morning.
    Mr. Kampschroer. Thank you, Madam Chair.
    Ms. Titus. I will now ask the second panel to come forward.
    [Pause.]
    Ms. Titus. Well, thank you very much for being here, and 
welcome. Our next panel of distinguished guests includes Dr. 
Kevin Van Den Wymelenberg, henceforth known as Dr. Van Den Wy, 
who is the director of Energy Studies in Buildings Laboratory 
at the University of Oregon; Ms. Elizabeth Beardsley, who is 
the senior policy counsel, U.S. Green Building Council; and Mr. 
Mark Russell, the Green Globes Assessor from the Green Building 
Initiative.
    We thank you for being here today. We look forward to 
hearing your testimony.
    Without objection, our witnesses' full statements will be 
included in the record. As with Mr. Kampschroer, since your 
written testimony has been made part of the record, we would 
request that you limit your oral testimony to just 5 minutes.
    So we will proceed with Ms. Beardsley.

   TESTIMONY OF ELIZABETH R. BEARDSLEY, P.E., SENIOR POLICY 
      COUNSEL, U.S. GREEN BUILDING COUNCIL; KEVIN VAN DEN 
WYMELENBERG, DIRECTOR, ENERGY STUDIES IN BUILDINGS LABORATORY, 
UNIVERSITY OF OREGON; AND MARK RUSSELL, PH.D., P.E., GGA, LEED 
AP, BREAAM IA, GREEN GLOBES ASSESSOR, GREEN BUILDING INITIATIVE

    Ms. Beardsley. Thank you, Chairwoman Titus, Ranking Member 
Meadows, and members of the subcommittee. I am greatly honored 
to join you today on behalf of the U.S. Green Building Council.
    USGBC is a nonprofit organization dedicated to transforming 
the way buildings and communities are designed, built, and 
operated, enabling an environmentally and socially responsible, 
healthy, and prosperous world. We are best known for our 
successful Leadership in Energy and Environmental Design--
LEED--green building rating system. Through LEED initiatives 
such as education and events, we drive sustainable and high-
performing buildings that improve the quality of life for all.
    Federal progress in building efficiency and sustainability 
over the past decade has been significant. We offer these 
highlights of our recommendations for strengthening and 
expanding upon this progress.
    First, Federal agency targets for key metrics such as 
energy and water, intensity, renewable energy, and efficiency 
investments such as performance contracting, have been 
important and successful levers, and could be brought forward 
to ensure all agencies continue to benefit from efficiency.
    Federal energy efficiency performance standards are another 
area where updating could increase savings. Ensuring adequate 
continued funding for the GSA Office of Federal High-
Performance Buildings and for the Federal Energy Management 
Program, FEMP, within the Department of Energy, is also 
critical for progress. Additional advances in Federal building 
sustainability and cost savings could be made through enhancing 
resiliency activities, updating key contracting provisions, and 
improving energy efficient leasing implementation, as well as 
reestablishing Federal flood plain guidelines.
    To provide additional context on who we are and our 
partnership with the Federal Government, USGBC has more than 
9,000 diverse business organizational and Government members. 
More than 200,000 individuals around the globe hold LEED 
credentials, including Government professionals and veterans, 
for whom this is available through the GI bill.
    Since its establishment, LEED has become the most 
successful voluntary, consensus-based, high-performing green 
building program in the country, with more than 64,000 
commercial and institutional LEED-certified projects in the 
U.S. alone.
    The private sector has embraced LEED in recognition of its 
strong business case. Green buildings can save money on a life-
cycle basis, as energy and water savings pay back quickly and 
add value. Numerous econometric studies have found evidence of 
the economic benefits of LEED and Energy Star, including 
improvement in net operating income, and value premiums for 
rent and sales.
    Businesses also understand that their biggest investment is 
in the human resources that work in those buildings. High-
performing green buildings have been shown to support improved 
employee productivity, as compared with conventional buildings, 
by providing spaces that are comfortable, with air quality that 
promotes health, focus, and cognitive function.
    In the Federal sector the GSA is the leader in implementing 
energy and water efficiency across its large Federal buildings 
portfolio to provide high-performing spaces, saving money, and 
supporting Federal employees. Through construction and leasing 
policies, performance contracting, and other public-private 
partnership models, and use of third-party certification, GSA 
saved many millions of dollars, as you have just heard directly 
from GSA.
    LEED is among the private-sector tools GSA and Federal 
agencies use to meet their goals for public facilities. Across 
more than 20 agencies and departments, the Federal Government 
has certified over 5,000 LEED projects, representing nearly 290 
million gross square feet. GSA has repeatedly found LEED to 
align well with Federal goals, as part of its statutory review 
of green building systems.
    LEED also supports Federal resilience, as found with a 
recent study from UT San Antonio, for example. We have been 
increasing our focus and tools for resilience, as well, with 
pilot resilience credits in LEED, and a new resilience-focused 
rating system known as RELi. The GAO has also affirmed Federal 
agency benefits from green building systems. GAO reported 
third-party certification helps agencies ensure compliance with 
their requirements by holding contractors and agency project 
teams accountable. And GAO had no recommendations from this 
review.
    Federal agencies' use of high-performing buildings can also 
spill over, spurring innovative building science and 
technology, and has enabled a thriving industry with an export 
market now valued at almost $40 billion.
    Thank you for the opportunity to provide these remarks, and 
I look forward to answering your questions.
    [Ms. Beardsley's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Elizabeth R. Beardsley, P.E., Senior Policy 
                  Counsel, U.S. Green Building Council
    Chairman Titus, Ranking Member Meadows, and Subcommittee Members,
    I am greatly honored to join you today on behalf of the U.S. Green 
Building Council (USGBC). USGBC, best known for the Leadership in 
Energy and Environmental Design (LEED) green building rating system, 
has been engaged with the Federal agencies, including the U.S. General 
Services Administration (GSA), throughout our history. We are pleased 
to share this morning our observations on the significant progress that 
has been made in Federal high performing buildings over the past 
decade. We appreciate the opportunity to look forward as well, and 
comment on ways that the GSA and Federal agencies can have even greater 
impact, saving money and resources, while providing high performing 
spaces to support productivity and wellness of federal employees.
    In sum, GSA is a leader in implementing energy and water efficiency 
across the Federal buildings portfolio it manages. Through construction 
and leasing policies, deployment of performance contracting and other 
public private partnership models, and use of third party 
certification, GSA has saved many millions of dollars. GSA has 
reported, for example, that sustainable building standards helped GSA 
avoid more than $250 million in energy and water costs from 2008 to 
2014.\1\
---------------------------------------------------------------------------
    \1\ GSA, 2015 Strategic Sustainability Performance Plan [https://
app_gsagov_prod_rdcgwaajp7wr.s3.amazonaws.com/
GSA_FY_2015_SSPP_Final.docx].
---------------------------------------------------------------------------
    The significant progress that has been made also serves as a guide 
to opportunities for further improvement including energy, water, and 
cost savings. Federal agency goals for key metrics such as energy use, 
water consumption, renewable energy, and efficiency investment such as 
performance contracting, have been an important touchstone and could be 
brought forward to ensure all agencies are engaged in and benefit from 
efficiency. Federal energy efficiency performance standards are another 
area where updating could help increase federal savings. Areas for 
strengthening and expanding Federal building sustainability and cost 
savings include enhancing resiliency activities; updating key 
contracting provisions; and improving energy efficient leasing 
implementation. Ensuring adequate continued funding for the GSA Office 
of Federal High-Performance Buildings, and for the Federal Energy 
Management Program (FEMP) within the Department of Energy, is also 
critical to continue making progress in providing high-performing, 
cost-saving buildings.
                                 usgbc
    USGBC is a nonprofit organization dedicated to transforming the way 
buildings and communities are designed, built and operated, enabling an 
environmentally and socially responsible, healthy, and prosperous 
world. We are best known for our successful Leadership in Energy & 
Environmental Design (LEED) green building certification system. In 
addition to LEED, we leverage our education, credentials, events, 
communications, and policy advocacy activities to drive sustainable and 
high performing buildings, campuses, and communities that improve the 
quality of life for all. Through these programs, we support building 
owners, operators, and tenants from the private and public sectors in 
meeting their goals for spaces that save energy and water, support 
occupant health and productivity, reduce impacts on the climate, and 
incorporate resilience.
    USGBC has more than 9,000 business, organizational, and government 
members. Our business membership includes the full range of the 
building sector, including builders of all sizes, product 
manufacturers, professional firms, and real estate owners and firms, as 
well as health care, major retail corporations, hospitality, financial 
services and insurance companies. More than 200,000 individuals around 
the globe have LEED credentials including LEED AP and Green Associate.
                                  leed
    Since its establishment in 2000, LEED has become the most 
successful voluntary, consensus-based private market-driven high-
performing green building program in the country, with more than 64,000 
commercial and institutional projects that have achieved LEED 
certification and another 49,000 projects underway. In addition, there 
are more than 394,000 residential units currently certified and many 
more registered.\2\ LEED has bolstered the U.S. construction sector and 
created new industries that have converged into a multibillion dollar 
domestic high-performing building industry.
---------------------------------------------------------------------------
    \2\ USGBC data, as of May 2019. The commercial and institutional 
category includes all non-residential building types and some mixed use 
and high rise residential.
---------------------------------------------------------------------------
    LEED gives building owners and operators the tools they need to 
have a measurable effect on their buildings' performance, with a whole 
building, life cycle approach driving achievement of sustained savings. 
LEED works by establishing prerequisites and optional credits in key 
categories including integrative process, location and transportation, 
sustainable sites, water, energy, materials and resources, and Indoor 
environmental quality, as well as rewarding innovative strategies and 
attention to priority regional issues. Achieving LEED certification 
requires satisfying all prerequisites and earning a minimum number of 
credits. The levels of certification reflect the number of points 
earned: Certified (40-49 points), Silver (50-59 points), Gold (60-79 
points), and Platinum (80+ points).
    To reflect building industry best practices, LEED is updated 
following processes that ensure the highest levels of openness, 
inclusion and transparency. LEED committees are populated by a diverse 
group of technical and market experts who donate their time and 
expertise to advance the system.
    The most recent full update to LEED is known as LEED v4. Adopted 
after countless hours of volunteer time, consideration of public review 
comments, and a rigorous consensus process, LEED v4 offers a 
performance-based approach to measurable results and ongoing 
operations, During LEED v4 development, USGBC conducted six public 
comment periods and responded to more than 22,000 public comments. The 
final draft of LEED v4 was approved by 86% of the consensus body 
members.
    LEED v4 builds on the progress of previous versions, raising the 
bar for minimum performance and adding new optional credits in every 
category. LEED v4 was designed to address the unique needs and 
challenges of a variety of different building and space types. It 
currently includes 21 different market sector adaptations. Projects 
such as warehouses and distribution centers, data centers, 
laboratories, hotels and motels, existing retail, existing schools, 
existing multifamily, and mid-rise residential buildings are 
specifically addressed within LEED. The LEED rating system addresses 
new construction and major renovation, and existing buildings. Because 
optimizing operations on an ongoing basis is critical to achieve 
savings and benefits, projects are encouraged to recertify 
periodically; USGBC has invested in systems to support and streamline 
recertification.
    LEED seeks to engage building projects with industry best practices 
and deliver superior outcomes for the built environment. LEED's 
flexible, credit-based structure allows project teams to pursue a 
tailored benefit package that best suits the project's location, 
climate zone, building type, budget, and market positioning; while 
minimum prerequisites across all categories assure threshold 
performance. Third-party review and verification offer accountability 
and transparency for performance outcomes.
    Complementing LEED, we recently introduced LEED Zero 
certifications, which recognize buildings that have achieved net zero 
carbon, net zero energy, net zero water, or net zero waste. LEED Zero 
is a performance-based certification indicating the achievement of net 
zero in operations over a 12-month period.
                             business case
    LEED has transformed how the building industry and the public 
consider sustainability in real estate. The private sector has embraced 
LEED in recognition of the strong business case for green building. It 
has been demonstrated through many studies that green buildings can 
save money on a life cycle basis, as energy and water savings pay back 
quickly and add value. Beyond these direct utility savings, studies 
have documented a number of financial benefits for businesses, and 
supported the proposition that LEED-certified buildings with lower 
operating costs and better indoor environmental quality are more 
attractive to many corporate, public and individual buyers.
    Businesses understand that their biggest investment is in the human 
resources that work in those buildings. By providing spaces that are 
comfortable, high air quality that allows focus and high cognitive 
function, and features such as daylight and ample ventilation, 
employees are poised to be more productive and healthier than those 
working in conventional buildings. High quality, health-supporting 
buildings help attract talent as well; since we spend about 90 percent 
of our time indoors, people naturally want to feel confident interior 
spaces are good for them. These considerations can translate into 
increased sales and rent prices and improved lease-up rates for green 
buildings.
    For example, in one Department of Energy (DOE) funded study, a 
researcher from the Wharton School reviewed over 50 studies examining 
the impact of energy efficiency and green labeling on building 
valuation and completed a ``metastudy'' of the literature.\3\ The 
report provides evidence of substantial price and rent premiums that 
are associated with sustainable buildings in the commercial sector. The 
team reviewed studies that investigate the impact of certifications 
such as LEED and ENERGY STAR using state of the art methodologies, 
based on econometrics, combined with current real estate industry data 
to identify the relationships between green building practices and 
value. On average, these econometric studies establish value premiums 
of 6% for rents and 15% for prices for buildings with LEED and Energy 
Star labels. The research found evidence of multiple economic benefits 
of LEED and ENERGY STAR, such as improvement in net operating income 
(NOI) by both (1) reducing energy costs (which represent 25% of the 
operating expenses) and (2) increasing rents by reducing vacancy and by 
increasing a tenant's willingness to pay higher rents due to a higher 
worker productivity and a desire for ``green'' space and the 
reputational advantages; and a decrease in the Cap Rate, indicative of 
lower risk.
---------------------------------------------------------------------------
    \3\ Susan Wachter, Valuing Energy Efficient Buildings (2013), 
supported by the Consortium for Building Energy Innovation (CBEI) 
sponsored by the U.S. Department of Energy, http://cbei.psu.edu/wp-
content/uploads/2016/07/Valuing-Energy-Efficient-Buildings.pdf
---------------------------------------------------------------------------
    Another study of some 26,000 office buildings, found that certified 
office buildings, on average, continue to have higher rental, occupancy 
and pricing levels.\4\
---------------------------------------------------------------------------
    \4\ Nils Kok and Rogier Holtermans, of the University of Southern 
California. ``On the Value of Environmental Certification in the 
Commercial Real Estate Market (date) https://lusk.usc.edu/research/
working-papers/value-environmental-certi-cation-commercial-real-estate-
market.
---------------------------------------------------------------------------
                               resilience
    High-performing, efficient sustainable buildings are the first step 
towards resiliency, since they require less energy and water to 
maintain operations, and reduce stress on local grids and water 
infrastructure.
    LEED projects are rewarded for incorporating such resiliency-
supporting features as the use of durable materials, careful site 
selection, rainwater collection, demand response, grid islanding, 
maximal energy efficiency, on-site renewable energy generation, and 
more. These approaches can help not only LEED buildings become more 
resilient, but also their surrounding communities.
    A 2018 study by the University of Texas at San Antonio focused on 
how LEED v4: New Construction specifically addresses building 
resilience.\5\ The study, presented at the National Institute for 
Building Sciences (NIBS) Building Innovation Conference, identified 14 
types of natural disasters relevant to the built environment, and then 
analyzed how LEED v4 credit requirements enhance building resilience 
against these adversities. The study concluded that LEED v4 credits and 
prerequisites provide a multitude of opportunities to enhance 
resilience. Specifically, the study found that 64.8% of all credits 
contribute to increased resilience against flooding, and 63% of credits 
enhance resilience to hurricanes or typhoons.
---------------------------------------------------------------------------
    \5\ Sandeep Langar, Ph. D., and Suchismita Bhattacharjee, Ph. D., 
Focus of resilience within Building Rating Systems (BRS) LEED 4.0 
Review [https://portal.nibs.org/files/wl/
?id=672qjV0PmTXTtR8SqPwPP2DYyh97RcXK], presented at Building Innovation 
2018 (January 9, 2018).
---------------------------------------------------------------------------
    Examples of LEED certified projects that have demonstrated 
exceptional resilience qualities include an interior office space in 
San Juan, Puerto Rico that survived and thrived in the aftermath of a 
hurricane; an apartment building designed to rehabilitate and support 
formerly homeless veterans; and a large corporate headquarters building 
designed to withstand hurricane-strength winds.
    To further support project teams in enhancing resilience, USGBC now 
offers a resilience-focused rating system, RELi, as well as several 
resilient design pilot credits in the LEED system. The RELi rating 
system, originally developed by the Institute for Market Transformation 
to Sustainability, aligns with LEED, while expanding the focus on 
proven strategies and methods. For example, RELi requires assessment 
and planning for acute hazards, preparedness to mitigate against them, 
and designing and constructing for passive survivability.
    USGBC partnered with the Institute to synthesize LEED resilient 
design pilot credits with RELi's Hazard Mitigation and Adaptation 
credits, thereby strengthening the alignment and compatibility of LEED 
and RELi for projects. The LEED resilient design pilot credits are 
currently available to all new construction projects. The credits 
include Assessment and Planning for Resilience; Design for Enhanced 
Resilience; and Passive Survivability and Back-up Power During 
Disruptions.
    Building resiliently--and building back ``better''--deliver 
significant financial benefits, as well as protecting life and 
property. A 2019 study by the National Institute of Building Sciences 
(NIBS) found that each $1 spent on mitigation activities saves $11 in 
response and recovery costs.\6\ By incorporating resilient strategies, 
especially via LEED certification, projects are more sustainable, 
durable, healthier, and better for the overall community.
---------------------------------------------------------------------------
    \6\ National Institute of Building Science, Natural Hazard 
Mitigation Saves: 2018 Interim Report [https://www.nibs.org/page/
mitigationsaves].
---------------------------------------------------------------------------
             federal agencies and high-performing buildings
    Through its buildings and construction investments, the Federal 
government can protect and expand the American workforce and also 
catalyze future competitiveness and growth of domestic enterprises.
    Federal agencies use green building certification to meet their 
energy and sustainability goals for public facilities. GSA was an early 
adopter of LEED and has helped shape the system as its versions evolved 
over the past 15 years. Notably, GSA has contributed through 
demonstrating LEED in practice, developing experience in building 
technologies, and direct involvement in the development of the rating 
system through technical committees and pursuit of LEED 
Interpretations. This involvement has contributed to LEED being a green 
building certification system that is flexible enough to meet the 
unique challenges of the diverse federal portfolio, and robust enough 
to help Federal agencies meet increasingly stringent performance 
metrics.
    In addition to GSA, nine Federal departments and agencies and five 
national laboratories have participated on committees and as subject 
matter experts. Federal agencies have also helped, on numerous 
occasions, shape the system. For example, National Institute for 
Occupational Safety and Health (NIOSH) worked with USGBC to propose its 
Prevention through Design standard for use in LEED; this is now a pilot 
credit.
    Under section 436 of the Energy Independence and Security Act of 
2007,\7\ the U.S. General Services Administration (GSA) is tasked with 
evaluating green building certification systems every five years in 
order to identify a system and certification level ``most likely to 
encourage a comprehensive and environmentally sound approach to 
certification of green buildings'' in the federal government. GSA's 
Office of High-Performance Green Buildings recommends to the Secretary 
of Energy the green building certification system to be used in the 
federal government, and has recommended LEED since 2006. GSA has 
repeatedly found LEED to align well with federal requirements.\8\ GSA 
has its third five-year review underway. For this review, GSA applied a 
new methodology, including collecting information from green building 
system owners through a survey and providing an independent, third-
party review by the Rocky Mountain Institute. LEED has consistently 
received superior scores across all three reviews. The recently 
released Findings Report concludes that LEED is even more aligned with 
federal requirements.\9\
---------------------------------------------------------------------------
    \7\ Energy Independence and Security Act of 2007 (EISA), Pub. L. 
No. 110-140 , tit. IV subtit. C, Sec. Sec.  433(a), 436, codified at 42 
U.S.C. Sec.  6834(a)(3)(D)(iv), 42 U.S.C. Sec.  17092.
    \8\ See GSA, High Performance Building Certification System Review 
[https://www.gsa.gov/about-us/organization/office-of-governmentwide-
policy/office-of-federal-highperformance-buildings/policy/
highperformance-building-certification-system-review].
    \9\ See GSA, High-Performance Building Certification System Review 
Findings Report (2019) [https://www.gsa.gov/cdnstatic/
HPBCS_Findings%20Report%20March2019.pdf].
---------------------------------------------------------------------------
    Across more than 20 agencies and departments, the federal 
government has certified over 5,000 LEED projects, driving tremendous 
taxpayer savings while also creating jobs and reducing environmental 
impacts. As of May 2019, the total number of LEED certified federal 
projects is 5,319 representing 289 Million GSF, with additional 
registrations of more than 4,000 projects representing 462 Million GSF. 
The Department of Defense is a leader in high performing building 
certifications (3,810), along with GSA (225), Department of Health and 
Human Services (132), Interior (98), Energy (84), State (65), and NASA 
(50).
    A notable example is the U.S. Department of the Treasury's iconic 
headquarters, which earned LEED Gold in 2011. The building, which made 
significant building operation improvements to slash energy and water 
consumption, saves taxpayers $3.5 million per year. Another is the 
Wayne Aspinall Federal Building in Grand Junction, Colorado, which 
earned LEED Platinum certification in 2013. The building was modernized 
to operate as net-zero energy, while maintaining its status on the 
National Register of Historic Places--the first such building to do so. 
Incorporation of rooftop photovoltaic panels along with a thermally 
enhanced building envelope and advanced metering and controls helped 
the Aspinall Federal Building achieve net-zero status.\10\
---------------------------------------------------------------------------
    \10\ See GSA project information page [https://www.gsa.gov/about-
us/regions/welcome-to-the-rocky-mountain-region-8/buildings-and-
facilities/colorado/wayne-n-aspinall-federal-building-and-us-
courthouse].
---------------------------------------------------------------------------
                            federal progress
    The federal government is one of the nation's largest energy 
consumers, spending approximately spending approximately $6 billion in 
FY 2017 to provide energy to more than 300,000 buildings.\11\ Over the 
past decade, driven by agency leadership, congressional and executive 
direction, GSA and other Federal agencies have made strides in saving 
energy, water, and money, while providing high quality spaces with 
indoor air quality that promotes wellness and productivity.
---------------------------------------------------------------------------
    \11\ Data drawn from the DOE, Comprehensive Annual Energy Data and 
Sustainability Performance database [https://ctsedwweb.ee.doe.gov/
Annual/Report/HistoricalFederalEnergy
ConsumptionDataByAgencyAndEnergyTypeFY1975ToPresent.aspx].
---------------------------------------------------------------------------
    The GSA uses high-performing building standards as part of its 
tools and strategies to help achieve energy and water savings goals. 
GSA reported in 2015 that it had reduced its EUI by over 30 percent 
since 2003, resulting in $83.6 million in avoided utility costs in 
2015. With water, GSA reported reducing its water use intensity 
(gallons per square foot) by nearly 30 percent from 2007-2015, avoiding 
over 2.78 billion gallons of water use since 2007 through efficiency 
and saving $10.6 million in FY 2015.\12\
---------------------------------------------------------------------------
    \12\ GSA, FY 2016 Strategic Sustainability Performance Plan 
[https://www.gsa.gov/cdnstatic/GSA_FY_2016_SSPP_Final_Cleared_508.pdf].
---------------------------------------------------------------------------
    For a 2018 report, GSA examined 200 buildings over a three year 
period and found that, compared to legacy buildings, GSA's high 
performing buildings show 23% less building operating expenses, 23% 
less energy use, 28% less water use, and a 9% decrease in waste.\13\ 
And, according to the Office of Management and Budget (OMB), as a 
result of historic investments in energy efficiency since 2009, the 
government will consume 20 percent less energy in buildings than it 
would have, saving taxpayers billions of dollars.
---------------------------------------------------------------------------
    \13\ U.S. General Services Administration, ``The Impact of High 
Performing Buildings'' [https://www.gsa.gov/cdnstatic/
GSA%20Impact%20of%20HPB%20Paper%20June%202018_508-2%20(1).pdf] (2018).
---------------------------------------------------------------------------
    High performing, green building certification systems--particularly 
LEED--have helped agencies achieve these savings. GSA's use of third-
party standards, including LEED, fulfills the National Technology 
Transfer and Advancement Act (NTTAA) of 1996, which calls for the 
federal government to use nongovernmental standards where appropriate, 
rather than waste government resources to create duplicative standards. 
GSA's ad-hoc Discussion Group found in 2013 that ``[P]roperly aligned 
with government requirements, use of these systems saves government 
resources by eliminating the cost to Government of developing its own 
standards while furthering the policy of reliance on the private sector 
to supply Government needs for goods and services.''
    In addition to GSA's leadership by example and its recommendations 
for third-party high-performing building certification systems, 
government-wide efficiency is also significant aided by FEMP, a DOE 
office that provides key efficiency guidance and services to federal 
agencies. FEMP also works with agencies and with the Office of 
Management and Budget, and the Council on Environmental Quality, on 
reporting related to energy, water, and other aspects of 
sustainability.
    Through these efforts, the Office of Federal Sustainability of CEQ 
reports that in Fiscal Year 2017, the Federal government reduced energy 
in Federal buildings by 2% since FY2016 and reduced potable water 
consumption by 3.8% since FY2016. In addition, Federal agencies 
reported leveraging $1.145 billion in private sector investments 
(performance contracts) to drive energy and water savings in Federal 
facilities; using renewable energy to power more than 10% of facility 
energy needs; and increasing renewable electricity produced on Federal 
land by 16% since FY2016.
    The Office collects and reports additional critical data, including 
government Scope 1 and 2 greenhouse gas (GHG) emissions, which indicate 
over 25 percent reduction since 2008. Investment in federal efficiency 
is also tracked; these data reflect American Recovery and Reinvestment 
Act of 2009 (ARRA), which includes the single largest investment in 
energy efficiency in history. GSA, for example, received over $5 
billion to invest in high-performing buildings. These data also help 
show the leverage of private sector funding through performance 
contracts, which continues to increase.
    GAO has also affirmed Federal agency benefits from green building 
systems. As part of the Government Accountability Office's (GAO) 
portfolio of work on the performance and accountability of federal 
agencies with respect to sustainability, GAO evaluated the 
implementation of key green building requirements as directed by 
federal laws, executive orders and other policies.\14\ The report 
examined the use of third-party certification, including the LEED green 
building rating system, in helping meet these standards.
---------------------------------------------------------------------------
    \14\ Federal Green Building--Federal Efforts and Third-Party 
Certification Help Agencies Implement Key Requirements, but Challenges 
Remain, GAO-15-667, July 2015, Page 17.
---------------------------------------------------------------------------
    GAO surveyed five agencies including the GSA, Department of Energy 
(DOE) and the Environmental Protection Agency (EPA), each of which have 
green building expertise and responsibilities related to federal 
guidelines for buildings, and the Veterans Administration (VA), Air 
Force and U.S. Army, as building owners and users. GAO did not make any 
recommendations to improve performance or evaluation or use of green 
building rating systems by the federal agencies.
    All five agencies use LEED in their current policies related to new 
construction and major renovations. Additionally, officials from all 
five select agencies (DOE, EPA, GSA, VA, Air Force, and Army) reported 
to GAO that third-party certification helps ensure compliance with key 
building requirements by holding contractors and agency project teams 
accountable for incorporating the requirements. GAO reported agency 
comments on how LEED is used to support federal efforts, including 
reducing costs, promoting accountability, and providing a framework for 
projects. According to GSA officials, as reported to GAO, third-party 
certification accounts for an average of just .012 percent of total 
project costs.
                             broad benefits
    Beyond the direct financial benefits, high-performing buildings 
support a productive federal workforce. For example, a series of recent 
academic studies quantified higher cognitive function scores, fewer 
sick building symptoms and higher sleep quality scores associated with 
green, energy efficient buildings; and higher cognitive function with 
improved indoor air quality, associated with properly managed energy 
efficient buildings.\15\ Specifically, the studies found improved 
indoor environmental quality doubled cognitive function test scores. 
Scores averaged 101% higher in green buildings with enhanced 
ventilation compared to conventional buildings. Finally, the studies 
estimated $6,500 in annual improved productivity in green buildings 
with enhanced ventilation.
---------------------------------------------------------------------------
    \15\ See Harvard T.H. Chan School of Public Health, ``The impact of 
green buildings on cognitive function.'' [https://green.harvard.edu/
tools-resources/research-highlight/impact-green-buildings-cognitive-
function]
---------------------------------------------------------------------------
    Federal agencies' use of high performing buildings may also have a 
positive spillover effect, in encouraging the spread of innovative 
building science and technology. A Harvard Business School study found 
that public investment in LEED-certified government buildings 
stimulates private investment, supply and market uptake of greener 
building practice.\16\ The research finds that green public building 
commitments produce a near doubling effect in private investment across 
the building sector and up and down the supply chain of products, 
professionals and services.
---------------------------------------------------------------------------
    \16\ T. Simcoe and M. Toffel, Public Procurement and the Private 
Supply of Green Buildings, National Bureau of Economic Research, 
Working Paper 18385 (2012).
---------------------------------------------------------------------------
                                exports
    Global markets see growth for high performing, energy efficient 
buildings and the products and services that support their development 
and operation. Goods and services touching on clean energy, energy 
efficiency, resilience and increasingly, buildings and infrastructure 
related IT and data, are a growing area of the U.S. economy. These 
sectors provide an already impressive number of jobs for U.S. citizens 
including many high quality manufacturing and construction jobs. 
According to the IEA, the global market for energy efficiency in 
buildings grew by 9% from 2014 to 2015 to $388 billion.\17\ A 2016 
study found that global green building continues to double every three 
years.\18\
---------------------------------------------------------------------------
    \17\ International Energy Agency (IEA), Energy Efficiency Market 
Report 2016.
    \18\ Dodge Data & Analytics, SmartMarket Report: World Green 
Building Trends 2016: Developing Markets Accelerate Global Green Growth 
(2016).
---------------------------------------------------------------------------
    Private and public sector support for energy efficiency and 
sustainability within the U.S. has enabled a thriving industry, in turn 
creating a huge export market for U.S. made building products and 
services. The U.S. Department of Commerce projected a $39 billion 
export market for the building sector in 2018, with focus on 
sustainable, energy efficient goods and services.\19\ Commerce 
identifies the global demand for sustainable construction as a major 
driver for the demand for US products and services; with China number 3 
in importing American building products.
---------------------------------------------------------------------------
    \19\ U.S. Department of Commerce, International Trade 
Administration, 2016 Top Markets Report: Building Products and 
Sustainable Construction, A Market Assessment Tool for U.S. Exporters 
(2016).
---------------------------------------------------------------------------
    This strong export market for products such as wood products, 
windows and doors, insulation, HVAC, insulation, plumbing and glass all 
increase good jobs here in the U.S. As Commerce observes, with 
increased global interest in smart, resilient, and efficient buildings, 
``U.S. building products are competitive . . . U.S. manufacturers have 
much to offer global markets that recognize increasing building 
performance.'' \20\
---------------------------------------------------------------------------
    \20\ Id.
---------------------------------------------------------------------------
                            federal drivers
    As a starting point, energy efficiency in federal buildings is 
established in law. Since the energy crisis of the late 1970s, Congress 
has repeatedly sought to ensure federal buildings achieve energy 
efficiency. Notably, the Energy Independence and Security Act of 2007 
(EISA) requires federal agencies to reduce energy use in federal 
buildings by specified levels each year, culminating in a 30 percent 
reduction by 2015. More recently, in 2012, Congress added requirements 
regarding building metering and transparency, to help hold agencies 
accountable for their progress in energy management.
    EISA also established GSA's Office of Federal High-Performance 
Green Buildings, and required it to identify the certification system 
that is ``most likely to encourage a comprehensive and environmentally 
sound approach to the certification of green buildings,'' as noted 
above; In consultation with GSA and the Department of Defense, the 
Department of Energy (DOE) was then required to identify a system and 
level for use by agencies. The DOE rule asserts ``the Federal 
government has a statutory obligation to lead by example,'' and pushes 
agencies to do better. The DOE rule formalizes a policy of flexibility 
for federal agencies in how they meet requirements for energy and water 
efficient buildings.
    Federal guidelines known as the Guiding Principles established by 
Federal agencies in 2006 and incorporated into executive orders in 2007 
and 2009 and later codified by Congress, and updated in 2016, sets out 
to achieve gains in five key areas of sustainability: employ integrated 
design principles, optimize energy performance, protect and conserve 
water, enhance indoor environmental quality, and reduce the 
environmental impact of materials.\21\
---------------------------------------------------------------------------
    \21\  See Guiding Principles for Federal Leadership in High 
Performance and Sustainable Buildings [https://www.energy.gov/eere/
femp/guiding-principles-sustainable-federal-buildings].
---------------------------------------------------------------------------
                       areas for increased impact
    Federal progress over the last decade has been significant, in term 
of increasing energy and water efficiency in buildings, providing 
indoor environments that support wellness and productivity, and 
achieving sustainability. Ensuring adequate continued funding for the 
GSA Office of High Performing Green Buildings is key to continued 
progress, as well as authorization of and funding for FEMP, which plays 
a critical role along with GSA in supporting government-wide energy and 
water efficiency and sustainability, for buildings and government 
operations. FEMP is a hub for best practices and provides services to 
help agencies implement improvements, including procurement through 
energy savings performance contracts, utility energy service contracts, 
and distributed energy.
    We see opportunities to strengthen and expand Federal building 
sustainability and cost savings. For example, Federal agency goals for 
key metrics such as energy use, water consumption, renewable energy, 
and efficiency investment such as performance contracting, should be 
continued to ensure all agencies are engaged in and benefit from 
efficiency. Federal energy efficiency performance standards are another 
area where updating could help increase federal savings. For leases, 
there is opportunity to strengthen the applicability of efficiency and 
green lease provisions, and to further ensure cost-effective efficiency 
measure requirements are implemented.
    To enhance resilience activities in particular, existing federal 
facilities, campuses, and land, can further utilize green 
infrastructure and stormwater management to reduce strain on local 
waterways, storm drains, and wastewater systems, building off of what 
is required under EISA 2007 for new development. Goals for applying 
these strategies could also be helpful.
    Also related to resilience, as well as energy independence, Federal 
agencies can be encouraged to attain net zero operations at key 
facilities, to showcase American innovation as well as serve as hubs 
and operations centers. Pilot testing of new resilience tools and 
systems may also be beneficial, particular in conjunction with critical 
facilities such as military bases and hospitals; as would be a 
resiliency fund. In this regards, we encourage a broad view of 
resiliency to include health. We are also supportive of the 
reinstatement of a Federal flood risk management standard, to protect 
Federal investment.
    Several contracting provisions could also be updated to reflect 
current conditions and opportunities. Federal agency achievement 
related to renewable energy could be increased with extension of 
allowable timeframes for power purchase agreements. Agency use of 
Utility Energy Service Contracts provisions could also benefit from an 
extension in permissible contract length, while their use of Energy 
Savings Performance Contracts could be increased with specific 
directives and clarifications.
    With respect to Federal planning, we support continuation of agency 
Sustainability Plans, along with tracking and reporting, and are 
pleased to see that the recently issued Implementing Instructions for 
Executive Order 13834 include these critical requirements. The agency 
scorecards are also important and highlight some specific areas for 
further attention. These could potentially be expanded to incorporate 
resilience metrics.
    In the context of infrastructure, we support inclusion of public 
buildings, including Federal buildings, as part of a package. In 
particular, funding could drive increased efficiency and resiliency in 
retrofitting or replacing aging facilities.
    Thank you for the opportunity to provide information to the 
Subcommittee on this important topic.

    Mr. Van Den Wymelenberg. Good morning. I want to thank 
Chairman DeFazio, Chairwoman Titus, Ranking Member Meadows, and 
all the members of the committee for this opportunity.
    As was mentioned, I direct the Energy Studies in Buildings 
Lab. But additionally, I direct the Biology and the Built 
Environment Center, and an institute called the Institute for 
Health and the Built Environment. Together, we are a group of 
designers and scientists from multiple institutions that 
partner with groups in industry in a program called Build 
Health. And together our goal is to look for the synergies 
between energy efficiency and healthy indoor environments.
    Today I want to emphasize that a vision of resiliency that 
encompasses human health indoors and unleashes the power of 
integrated design is the key to unlocking deeper energy 
savings, while also promoting health indoors.
    Why does resilience in buildings matter? Americans spend 
over 90 percent of our lives in buildings. After decades of 
increasing lifespans, now we see declines. We are spending more 
on health care than other industrialized countries, yet our 
quality of life and our life expectancy is decreasing.
    Evidence is mounting that indoor environments impact human 
health outcomes. You may have heard of sick building syndrome, 
and thought we fixed that a couple of decades ago. But maybe 
more recently you have experienced headaches from background 
noise from traffic or a building fan whirring. And the WHO has 
connected those kind of impacts to cardiovascular and metabolic 
health implications. Or maybe you have had a child or a 
grandchild come home from daycare with a rapidly transmissible 
virus that wreaked havoc in your home. Or maybe you got sick, 
or a loved one got sick when they went to the hospital, the 
very place they were meant to go get healthy. So indeed, indoor 
environments impact human health.
    So how are we doing on energy efficiency? Certainly we have 
made tremendous progress in efficiency: lighting and HVAC 
technologies, secondary glazing systems, smart windows, smart 
building infrastructure software. Many of these innovations are 
funded by the Department of Energy, implemented through GSA, 
and then supported with public utility investments.
    Recently we worked with a group called the Northwest Energy 
Efficiency Alliance and Seattle City Light to pilot the first 
power purchase agreement for energy efficiency. It is typically 
used for rooftop solar. These efforts, though incredibly 
important, have only slowed the growth of energy consumption in 
the United States.
    I will argue that we need more leverage. We spend $1 on 
energy, and for every dollar we spend on energy we spend $100 
on employees. We need to focus on people. We need to focus on 
improving the health and wellness of people in buildings. And 
we need to make sure that we pull increased energy efficiency 
along for the ride.
    So what is a resilient building? You might think of a 
resilient building as passive survivability, this idea that, 
under a power outage, that people can have access to light and 
air and still occupy a building safely. But we need a grander 
vision that I will call passive thriveability. This idea is 
that resilient buildings can improve the health of occupants, 
regenerate the health of the planet, produce more energy than 
is consumed, and support a healthy bottom line for the 
businesses that operate within them.
    It is a grand vision, but the good news is we have two or 
three decades of lessons that can be learned from our efforts 
in energy efficiency market transformation that can be brought 
to bear. We have learned that we need ingenuity and innovation. 
We need incentives and investments. We need policy and 
education to sustain that innovation. This can be complex, or 
really quite simple.
    When we put people next to an operable window they get an 
access to views of nature, they get abundant daylight, they get 
access to fresh air when they think they need it. And these 
have all been associated with increased health outcomes, 
circadian entrainment, supporting healthy sleep-wake cycles, 
accelerated stress recovery, and reduced exposure to indoor 
toxicants. This elegant strategy also can save tremendous 
amounts of energy. This is passive thriveability.
    I encourage the committee to consider the following 
recommendations. I suggest we need to capitalize on the 
investments that we have made over decades in energy 
efficiency; document the persisting energy savings; establish 
reinvestment mechanisms; and research the associated non-energy 
benefits of health and comfort, such that we can drive these 
investment mechanisms for deeper energy and improved--deeper 
energy savings and improved health.
    At the University of Oregon we call this approach, this 
program, BTUs 4 BTUs, or Building Tune-Ups for BTUs--reduced 
energy savings. We are developing metrics for non-energy 
benefits, developing institutional performance verification 
strategies, and reinvestment plans. We are expanding this with 
a campuswide building resilience initiative.
    In closing, I would like to suggest that Federal buildings 
have a well-established tradition of serving as agents of 
change in our built environment. And the lessons that we have 
learned in the last decades in energy efficiency can be applied 
to our new vision for resiliency.
    Thank you.
    [Mr. Van Den Wymelenberg's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Kevin Van Den Wymelenberg, Director, Energy 
         Studies in Buildings Laboratory, University of Oregon
    Good morning Chairwoman Titus, Ranking Member Meadows, and 
Committee Members. I want extend my gratitude to Chairwoman Titus, the 
Ranking Member, and all members of the committee for the opportunity to 
submit testimony about energy efficiency and resilience in federal 
building design and construction. I also want to thank you for your 
service to our country and your leadership through the impactful work 
of this subcommittee.
    I am Kevin Van Den Wymelenberg, a professor of architecture at the 
University of Oregon. I direct the Energy Studies in Buildings 
Laboratory, a laboratory that for the past four decades has focused on 
passive heating and cooling, passive ventilation and daylighting in 
buildings. I co-direct the Biology and the Built Environment Center, a 
center focused on understanding indoor microbial ecology, the 
microbiome, and the architectural and human factors that influence it. 
I also lead the Institute for Health in the Built Environment, a cross-
disciplinary institute comprising designers and scientists at the 
University of Oregon and many other collaborating universities, along 
with an industry partnership program called Build Health that seeks to 
research and design strategies that synthesize energy efficiency and 
human health.
    Today, I will describe how the habitat in which Americans spend the 
majority of their time is changing and how this is connected with 
energy resource consumption, human health and well-being, and overall 
economic productivity. I will describe a vision for improving our built 
environment and the role of resilient design to achieve energy 
efficiency and improved human health outcomes. I will illustrate how 
our efforts to transform energy efficiency markets have taught us 
important lessons about how to achieve our goals for resilience of 
individuals, buildings, communities and our country. Finally, I will 
open a window to illuminate how to initiate and sustain progress toward 
our goal of resilient buildings and communities.
    Over the course of the last 5-7 generations, Americans have 
transformed how and where we spend our time. We have moved indoors, 
become an indoor species. We have yet to fully understand the 
implications of this transformation. Over the same period, we have 
increased life-expectancy, from below 50 years of age in 1900 to nearly 
79 years of age in 2010. But in the last few years, according to the 
Centers for Disease Control and Prevention, Americans are experiencing 
annual declines in life expectancy, in part due to factors related to 
mental health. Furthermore, we are falling behind our peers in Spain, 
Australia, and Canada, by as much as four years, despite the fact that 
we spend thousands of dollars more per person each year on healthcare 
than these countries (per OECD data). Evidence is mounting that 
highlights a connection between indoor environmental quality and human 
health outcomes. We have seen steep increases in inflammatory diseases 
including asthma, especially in families living in low-income housing. 
We have observed increases in healthcare-associated infection so severe 
that insurance companies are sometimes not reimbursing these costs and 
patients are beginning to make health care choices with infection risk 
in mind. Similarly, we have experienced increased absenteeism in K-12 
schools due to the prevalence of rapidly transmissible viruses which 
appear increasingly resistant to antimicrobial compounds. In Oregon, as 
in other states, we have recently witnessed more severe wild fires 
whose smoke has forced my campus to shut off access to outside air in 
buildings for days at a time.
    In the last 100 years we have dramatically increased energy 
production and consumption. In recent decades we have made concerted 
efforts to reduce energy consumption. Over my 20-year career in 
architectural research, I have witnessed tremendous innovations for 
energy efficiency by manufacturers of lighting and HVAC equipment, 
industry service providers of smart building infrastructure software, 
by public utilities through public benefit charges and incentive 
programs, by research funded through the US Department of Energy's 
Building Technology Office, and through standards within the US 
Government, such as building energy performance targets in federally 
owned or occupied buildings. These efforts, though incredibly important 
and substantial, have only curbed US total growth in energy 
consumption, not significantly reversed the trend.
    I argue that we need a more leveraged suite of tools, a more 
comprehensive cost/benefit analysis than relying on energy efficiency 
alone. There is a principle of 3, 30, 300, in workplace facility 
management that proportionally represents business expenditures, such 
that if an organization annually spends $3 per square foot on 
utilities, and $30 per square foot on building infrastructure, then 
that same square foot will cost $300 for employees annually, scaled by 
geographic and market location. Today, we are not only talking about 
federal spending on utilities and buildings, we are also talking about 
better leveraging spending to support federal employees such that they 
can more readily achieve the missions expected of them by taxpayers, 
policy makers, and meet their own high professional standards.
    When we get past looking solely at building efficiency and open the 
discussion to resilience in federal buildings, we increase the scope of 
our potential impact to the lives of all federal employees. Resilience 
encompasses several aspects of building design, construction and 
operation. We can think of resilience as ``passive survivability'', or 
the ability for people to survive in a building during a disaster or 
power outage. Do building occupants have access to light and air? 
Survivability is critical during an extreme event, but for a more 
comprehensive understanding of resilience on a day to day basis, we 
really need a vision of ``passive thrive-ability'', or environments 
that improve human productivity and health outcomes while using less 
energy and approaching net-zero energy performance. We can also think 
of resilience as supporting the triple bottom line of people, planet, 
and profit. Resilient buildings improve the health of the people who 
occupy them, regenerate the health of the planet through their design, 
construction and operation, and produce a healthy bottom line for the 
organizations that use them to support governance and commerce.
    Conceived in this manner, creating resilient buildings and 
communities is essential to the prosperity of our country, and indeed 
represents a grand challenge! The good news is that there are some 
important lessons to glean from decades of investment into market 
transformation for energy efficient buildings. First, we have learned 
it takes ingenuity and innovation. Academics have to generate new 
ideas, businesses need to create new technologies, and professionals 
need to innovate new best practices. Second, we need incentives and 
investment to ignite this innovation. We have seen the beneficial 
impacts of utility public benefit funded investments, such as that of 
the Northwest Energy Efficiency Alliance to support integrated design 
and energy efficiency market transformation, philanthropic and 
foundation support, such as that of the Alfred P. Sloan Foundation for 
fundamental research on indoor microbial ecology and indoor chemistry, 
and federal research funding such as that of the EPA and DOE. We have 
seen how mission-driven non-profits promote reach standards that focus 
the public's attention and provide guidelines for how to achieve these 
goals, how government organizations such as the General Services 
Administration can mobilize the private sector by establishing building 
performance thresholds, and finally how universities and industry can 
partner, through programs like Build Health at the University of 
Oregon, to sustain this progress by collaboratively exercising their 
business models.
    Many of these lessons are transferrable to our quest to create 
resilient buildings and communities. We can leverage the power of 
design to take advantage of synergies in both human health and building 
energy goals. For example, we can provide people with an operable 
window, replete with access to a view of nature, filling rooms with 
abundant daylight, and direct access to fresh air. We can create spaces 
that achieve high performance thresholds for thermal, visual, and 
acoustical well-being while providing high air quality. These 
attributes have been shown to support positive human health outcomes 
through circadian entrainment, attention restoration, accelerated 
stress recovery, improved cognition, increased indoor microbial 
diversity, and reduction of low dose exposures to toxins. When 
implemented properly, these same strategies can dramatically reduce 
energy consumption. This is ``passive thrive-ability''; this is 
building resilience.
    In order to take advantage of the longer lever arm of our 
investment in people, there are critical knowledge gaps and barriers in 
practice to overcome. First, we need a clear vision that defines a 
healthy building and recognizes that energy efficiency alone is not a 
sufficient goal. Second, we need resources to ignite innovations that 
aim to improve human health indoors, document the impact of associated 
health outcomes, and monetize these for use in lifecycle cost-benefit 
studies. Third, we need to promote policies, reach standards, and 
educational programs that sustain continuous improvement and scale up 
implementation in a collaborative manner, inclusive of government, 
education, and private industry sectors. It is especially important 
that care be taken to support equity through these efforts so as to 
avoid some of the documented pitfalls of socio-economic class 
disparities that currently exist in our built environment.
    I believe that the GSA is already on the pathway to efficient and 
healthy public buildings, indeed resilient buildings, and that their 
efforts to date should be lauded and further supported. Federal 
leadership has made a positive impact on energy efficiency market 
transformation and holds similar potential for healthy and resilient 
buildings. These efforts have taught us many important lessons that can 
accelerate our progress in this new quest. However, we need to be 
willing to transform our thinking and shift away from what has been a 
more singular focus on energy efficiency in public buildings and toward 
the inclusion of the health of federal employees, veterans, security 
and maintenance staff, guests and others that inhabit our public 
buildings. Only by harnessing the longer lever arm associated with the 
resources we investment in people will we achieve our far more 
ambitious goal of building resilience and support optimal human health 
and productivity. I encourage the committee to consider the following 
three recommendations to promote efficient and resilient public 
buildings that foster thriving occupant communities.
    First, we should capitalize on the investments we have made in 
efficiency to date by documenting the persistent energy savings from 
strategies implemented and the associated non-energy benefits in 
domains such as thermal, visual, and acoustical well-being and improved 
air quality. This will facilitate efforts to establish mechanisms to 
reinvest these savings to drive deeper efficiency and even more 
positive human health outcomes. To accomplish this, we need further 
research to determine measurable and verifiable metrics for monetizing 
the associated non-energy benefits, case studies to test these 
approaches, some additional convening to facilitate the peer-review 
process and consensus building. The results of this work would have 
far-reaching impacts beyond GSA, including expanding public utility 
incentive programs and efforts of energy efficiency market 
transformation organizations.
    Second, we should pilot these reinvestment mechanisms to implement 
deeper energy efficiency and human health strategies in existing 
federal and state public buildings. For example, the University of 
Oregon is in the second year of piloting ongoing building 
commissioning, a strategy whereby energy savings are achieved through 
improved building management tools and practices. We are developing 
metrics to document improved human comfort, productivity, and health 
outcomes, and developing institutional performance verification and 
reinvestment strategies. We are documenting the energy savings from 
ongoing commissioning and reinvesting a portion of these fund to 
support more ambitious goals for energy and health in existing 
buildings. We are concurrently developing a cross-disciplinary 
Resilience Initiative that aims to have teaching, research, and 
industry engagement components and will benefit from and support the 
ongoing building commissioning program. The reinvestment strategy 
creates a self-sustaining pool of resources to promulgate the 
initiative. The GSA has conducted building commissioning and has 
additional insights to share. We propose a program I call BTUs 4 BTUs, 
Building Tune-Ups for BTUs (energy), that expands our current work in 
ongoing commissioning and campus resiliency, and we would relish the 
opportunity to collaborate with GSA to pilot the program and 
potentially extend the model through collaboration with other 
universities and public sector organizations.
    Third, the current and emerging investment streams need to be 
paired with targeted incentives, establishment of federal policies, and 
research grants that build upon lessons learned from energy efficiency 
market transformation to fill knowledge gaps and barriers in practices 
in order to achieve goals of healthy and resilient buildings. These 
steps can unlock increased energy savings and human productivity 
improvements while reducing the cost of operating infrastructure.
    Public buildings have a well-established tradition of serving as 
pace-makers and agents of change for our built environment. By building 
upon these successes and striving for a more holistic vision of 
resilient buildings we can accelerate the implementation of energy 
efficiency, innovate best practices, increase productivity, support 
well-being, and ultimately reverse the disconcerting downward trend in 
life expectancy and rising cost of healthcare for Americans.
    A grand challenge is upon us. Realizing the promise of resilient 
buildings will improve the health outcomes of the people inside, 
regenerate the health of the planet, and produce a healthy bottom line 
for the organizations that use them. Thank you for your time and 
attention.

    Ms. Titus. Dr. Russell?
    Mr. Russell. Thank you, Chair Titus, Ranking Member 
Meadows, and the committee for this chance to share some 
information about GBI and Green Globes' experiences working 
with the Federal Government on sustainability projects.
    I am Mark Russell, a professional engineer with a 
background in Government construction building rating systems. 
As a Green Globes Assessor, I have completed 44 Federal Green 
Globes and Guiding Principles Compliance projects, and have 22 
additional Federal projects in progress. I am appearing here on 
behalf of the Green Building Initiative.
    GBI is a 501(c)(3) company which owns and operates the 
Green Globes sustainable building certification system. Green 
Globes offers four levels of certification, using a 1,000-point 
system. Points are weighted across the criteria to drive users 
toward best practices in areas such as energy, water, and 
materials. Green Globes' process also requires third-party 
assessment by a Green Globes Assessor. Assessors like me 
conduct oversight of each project, and conduct a final onsite 
assessment at completion to ensure the building has earned its 
certification level.
    Green Globes also offers a not-applicable feature that 
allows projects to identify criteria that do not apply to the 
buildings. N/As are approved by assessors, and allow unique 
projects, like many undertaken by the Federal Government, to 
complete Green Globes certification without being penalized for 
lack of compliance with criteria that do not apply to them. For 
example, a museum that cannot allow windows and day-lighting in 
most of its space due to the need to preserve artifacts is not 
penalized for failure to have adequate energy-efficient 
windows.
    GBI also offers a program called Guiding Principles 
Compliance, designed specifically for use by the Federal 
Government. In 2015 GBI introduced a DoD-specific GPC version 
that combines the DoD unified facilities criteria and the 
Interagency Sustainability Working Group's guiding principles 
into one program. These programs help departments and agencies 
to confirm compliance with Federal guiding principles 
requirements for sustainability.
    The GSA, in 2013, and again in a 2009 review, recommended 
Green Globes for use by the Federal Government. GBI has long 
supported the idea that the Federal Government should encourage 
competition in the marketplace, as it relates to federally 
approved certification systems. As a significant marketplace 
customer, the Federal Government should have choices among 
certification systems to identify those that best meet the 
needs of the many unique projects the Government undertakes. 
Encouraging certification systems to compete helps the 
Government ensure it is getting what it needs on projects, 
attaining a good cost benefit for taxpayers on certification, 
and encouraging systems to continue to evolve to meet future 
needs.
    Since 2014 over 600 Federal projects have been certified 
under Green Globes, and 104 Federal projects are in progress. 
In all, over 750 Federal building certifications have been done 
through GBI. We have worked with a broad scope of Federal 
buildings, including projects such as courthouses, data 
centers, laboratories, and VA hospitals. As an assessor I have 
encountered many interesting Federal projects that use creative 
methods for energy savings, such as a VA facility in Oregon 
that uses an ice plant to create an ice reservoir that is then 
used during the day to cool the facilities.
    We continue to see Federal project teams make great 
progress in improving their buildings. Repeat clients often 
demonstrate significant enhancement in subsequent buildings, 
and the use of the certification program helps organize and 
guide Federal teams. Building performance improvement helps to 
provide long-term savings to taxpayers as a result of energy 
and water savings, and increased workforce productivity, and 
followup with Federal teams to indicate that they see positive 
impacts to the operational costs resulting from the stabilizing 
measures incorporated into the buildings.
    Government teams also have an increasing interest in 
understanding how occupant health, wellness, and effectiveness 
is influenced by their buildings, supporting a desire to 
provide buildings that are pleasant to work in, and lead to 
more efficient and productive work environments. This interest 
has helped to encourage the evolution of certification systems, 
which are now looking more closely at indoor environment 
criteria.
    Building resilience continues to be an important concept, 
but one that still needs further discussion and definition. 
This is a great challenge ahead in determining how to establish 
which Federal buildings need to be resilient, and to which 
disasters or challenges. As part of the Guiding Principles 
Compliance Certification, we require the project team to 
identify potential impacts as part of the design process, and 
Green Globes' new update includes building risk assessment that 
attempts to identify resilience priorities.
    In conclusion, improving the performance of Federal 
buildings stands to have ultimate benefit for operational 
costs, Government workers' productivity, and also taxpayers, 
who benefit from the cost savings generated by a more nimble, 
energy-efficient, and sustainable Federal portfolio.
    The Green Building Initiative has greatly enjoyed its 
ongoing collaboration with the Federal Government on hundreds 
of projects, and we look forward to assisting the Federal teams 
as we improve Federal buildings and spaces to address better 
performance, sustainability, resilience, and savings for 
American taxpayers.
    Thank you for this opportunity to provide our thoughts.
    [Mr. Russell's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Mark Russell, Ph.D., P.E., GGA, LEED AP, BREAAM 
          IA, Green Globes Assessor, Green Building Initiative
    Thank you Chair Titus, Ranking Member Meadows, and members of the 
committee for this opportunity to share some information and thoughts 
on the Green Building Initiative (GBI), our certification system Green 
Globes, and our work supporting the federal government's efforts toward 
advancements in green building.
    My name is Mark Russell and I am a professional engineer based in 
Gainesville, Florida, with a PhD in Building Construction. My PhD 
dissertation focused on enhancing building rating systems. I am also a 
credentialed Green Globes Assessor (GGA) who has completed 44 federal 
building projects under the Green Globes and Guiding Principles 
Compliance programs. I have 22 additional federal projects currently in 
progress. I am appearing here today on behalf of The Green Building 
Initiative (GBI).
    This statement will discuss the Green Building Initiative: our 
green building certification systems Green Globes and Guiding 
Principles Compliance; GBI's role working with the federal government 
on green building and sustainability; and the trends we see in this 
space.
  the green building initiative: green globes and guiding principles 
                          compliance programs
    First, I would like to provide some background on GBI for those on 
the Subcommittee who are not familiar with our role. GBI is a 501(c)(3) 
non-profit organization that brought the Green Globes certification 
system into the U.S. in 2004, having been adapted to the U.S. market 
from its original Canadian version. In 2005, GBI was approved as the 
first ANSI consensus-based Standards Developer for commercial green 
building certification systems in the U.S. GBI then undertook a multi-
year process to bring together an ANSI Consensus Body and develop its 
American National Standard, ANSI/GBI 01-2010: Green Building Assessment 
Protocol for Commercial Buildings. Green Globes was further revised in 
2013 to make several improvements, including adding many of the federal 
government's Guiding Principles requirements into the system, and 
transitioning the entire system into a comprehensive online software 
program that provides clients with a user-friendly system that promotes 
a team-based approach to achieving goals. GBI has received ANSI 
approval of the revision to its 2010 American National Standard, now 
titled, ANSI/GBI 01-2019: Green Globes Assessment Protocol for 
Commercial Buildings, and it will be published in mid-June, 2019. In 
fact, today in Chicago, GBI is conducting its Board of Directors 
meeting to review ANSI's final approval of ANSI/GBI 01-2019: Green 
Globes Assessment Protocol for Commercial Buildings, and to vote to 
approve and officially publish the updated consensus standard. This 
represents the culmination of a four-year cycle in the ANSI consensus 
update process that consisted of 38 full Consensus Body meetings, a 
total of more than 230 open meetings including subcommittee meetings, 
and 3 open public comment periods. Going forward, the updated Standard 
will be maintained using ANSI's Continuous Maintenance process.
    Green Globes offers four levels of certification. One Green Globes 
is the first level and requires at least 35% of Green Globes criteria 
to be met; whereas Four Green Globes is the highest level and requires 
85% of criteria to be met. Green Globes uses a 1000-point system, where 
the point allocations are strategically weighted across the criteria to 
drive users towards best practices, rather than static prerequisites. 
The criteria cover a number of categories including energy, water, 
project management, site, water, materials & resources, emissions, and 
indoor environment.
    Additionally, Green Globes' process requires third-party assessment 
by an experienced Green Globes Assessor (GGA or assessor).
    Under GBI's requirements, GGAs must be a licensed engineer or 
architect, have an educational background in engineering, architecture, 
or sustainability, 10+ years of prior building experience, evidence of 
significant work on at least three sustainable projects, and must also 
complete GBI's Green Globes Assessor training program and pass a series 
of exams. Assessors are involved with each project from the earliest 
possible point. Although the first official review of the project often 
occurs at the completion of the construction documents, assessors can 
be called upon by the design team during the design phase to provide 
recommendations to improve the building performance. Once the building 
has been completed, the assessor travels to the building location and 
performs an onsite assessment prior to submitting the final report on 
eligibility for certification. During the site visit, the GGA meets 
with the project team, reviews final documentation, and tours the 
building in a typically 6-8 hour timeframe to verify implementation of 
claimed credits. The GBI performs a review of all reports to ensure 
consistency and appropriate credit validation prior to issuing the 
official building certification. Once the certification is completed, 
the client receives a detailed copy of their final assessment report, 
which identifies the criteria that were met to achieve their level of 
certification, and provides recommendations for additional actions that 
can be taken in the future to improve the building further.
    Green Globes' combination of weighted criteria and direct oversight 
by third-party assessors makes across-the-board prerequisites 
unnecessary in our system and accommodates each building's unique 
features and sustainability goals. In addition, the Green Globes system 
includes a Not Applicable (N/A) feature that allows project teams to 
identify criteria that do not apply to their projects. The assessor 
verifies the validity of each N/A claim through a document review or 
site visit--meaning project teams cannot claim N/A for a criterion 
simply because they don't want to comply with it. Weighted criteria, 
actively engaged expert GGAs, an onsite assessment, and the ability to 
identify N/As mean that Green Globes can be used to certify unique 
buildings in both the private and public sectors. For example, a 
recycling facility in the Rocky Mountains at an elevation of 10,000+ 
feet is not penalized for a lack of energy efficient air-conditioning 
systems because the climate requires no air-conditioning. Likewise, a 
Department of Defense building that--for mission purposes--has no 
windows is not penalized under Green Globes for omitting energy 
efficient windows from its design.
    In 2012 GBI first introduced to the federal market our Guiding 
Principles Compliance (GPC) program, which was designed specifically to 
help federal departments and agencies to efficiently and confidently 
confirm their compliance with the requirements of federal guiding 
principles for sustainability. The 2013 update of Green Globes also 
included the incorporation of federal guiding principles requirements 
as established by the Interagency Sustainability Working Group (ISWG) 
as a subcommittee of the Steering Committee established by Executive 
Order (E.O.) 13423. The ISWG initiated development of the High 
Performance and Sustainable Buildings Guidance (Guiding Principles) to 
meet the EO goals. Additionally, in 2015, GBI worked closely with the 
Department of Defense to develop a program called Department of Defense 
Guiding Principles Compliance for New Construction & Modernization (DoD 
GPC NC,) which specifically combines the federal guiding principles 
requirements and those of the DoD's Unified Facilities Criteria (UFC 1-
200-02) to provide the military branches with a program that allows 
them to verify compliance with the complex overlay of both federal and 
military-specific requirements. Not long after launch, the DoD GPC NC 
program was updated to reflect changes made in the 2016 Guiding 
Principles update.
    Federal projects choose either to certify under Green Globes, 
Guiding Principles Compliance, or in some cases, dual-certify under 
both systems. The GPC programs are prescriptive in nature, covering the 
requirements of the Guiding Principles, whereas Green Globes is 
performance-based. Many federal teams choose to dual-certify their 
buildings under GPC and Green Globes because it provides guidance on 
additional opportunities for sustainable design in a building. As of 
May, 2019, 193 federal projects have certified under both programs.
                federal recognition and federal projects
    In 2013, Green Globes was recognized by the GSA in its statutorily 
required High-Performance Building Certification System (HPBCS) Review 
as a certification program that could be used by the federal government 
to certify federal buildings alongside of USGBC's LEED program. The GSA 
recently released its initial analysis of the 2019 HPBCS Review, again 
recommending Green Globes as a system for use by the federal 
government.
    GBI has long supported the idea that the federal government should 
encourage competition in the marketplace as it relates to federally 
approved certification systems. The federal government, as a 
significant customer in the marketplace, should be able to make choices 
among certification systems to identify those that best meet the needs 
of the many unique projects that the government undertakes. 
Additionally, encouraging certification systems to compete for the 
government's business not only puts the government into a better 
position to ensure it is getting what it needs for its projects, and 
attaining a good cost-benefit for taxpayers on the building 
certifications, it also encourages certification systems to continue to 
evolve and compete in order to meet government needs.
    Since federal recognition of Green Globes was confirmed by the 
Department of Energy in 2014 and Guiding Principles Compliance was 
introduced in 2012, over 600 federal projects have been undertaken by 
nine federal departments and agencies including those such as DHHS, 
DHS, DOD, DOE, State Department, GSA, NASA, Department of Veterans 
Affairs, and USDA. Today, GBI has 104 additional federal building 
projects in process, for a total of over 750 federal building reviews 
completed or in progress since 2014.
    The scope of federal buildings certified through Green Globes and 
GPC is broad. We have worked with projects ranging from offices and 
courthouses to data centers, laboratories, VA hospitals, specialized 
military facilities such as military working dog facilities in 
Guantanamo Bay, Engine Test facilities, Utility Distribution Centers, 
Submarine support centers, Barracks, Operational Readiness facilities, 
Training buildings, and Parachute maintenance facilities. Many federal 
project teams have appreciated GBI's approach to certification--noting 
that the ability to move their unique buildings and facilities through 
the GBI process using a team-based and user-friendly online system--and 
assessors who are actively involved and available to the teams 
throughout the project--has helped the departments and agencies to 
achieve their goals.
    Some of the more interesting projects I have encountered in my time 
as a GGA include the renovation of a USDA Forest Service facility in 
Northern Wisconsin that was designed to reduce impact on the 
environment and educate the visitors on the sustainable principles; a 
VA facility in Oregon that uses an ice generation plant to create an 
ice reservoir that is then used during the day to cool the facilities; 
and a Navy Exchange car care center that is designed to capture 
exhausts and recycle vehicle waste products.
                trends in federal sustainability efforts
    Throughout our work with the federal government and GSA in the area 
of sustainability, we have noticed several significant trends. As a 
Green Globes Assessor, I see directly that repeat clients often 
demonstrate significant improvements in subsequent buildings with 
energy savings, water conservation, and material selection. The use of 
the certification program helps to organize and guide federal teams 
while educating them about the vast possibilities for improving their 
buildings. Once they have gone through the process, it informs their 
teams in the next project and often leads to an even greater desire to 
pursue more sustainability, efficiency, and long-term cost savings. 
Additionally, I find that in going through the certification process 
with federal teams that they are increasingly focused on ensuring that 
information is shared among other facilities in a campus environment 
and a synergy of techniques such as improved air handling systems and 
base wide monitoring systems are being installed. The involvement of a 
base energy manager or a sustainability coordinator enhances the 
program and further encourages higher levels of building ratings. Much 
of the data that is accumulated during the evaluation process can be 
used for tracking building performance and improving the life cycle 
efficiency of the facility. By effectively capturing the applicable 
information in the bases monitoring program they can continue to ensure 
that the building will perform at the optimum level and facilitate 
future maintenance operations.
    Importantly, the use of GSA tools such as SFTOOL.GOV has assisted 
project managers in selecting appropriate materials and tracking 
procurement activities. DOE tools such as PVWATTS.NREL.GOV are 
providing a quick reference to assist with the decision making process. 
The federal government has invested in creating important tools that 
help the federal teams make good decisions about building construction 
and renovations. As an assessor, I often help to educate the project 
team on the available resources to improve the efficiency of the 
building and document their decisions.
    More broadly, we see that government teams including GSA are 
increasingly interested in the health and wellness factors that are 
influenced by the buildings owned and used by the federal government. 
These factors, while in many cases are still being defined, are 
increasingly important to federal teams for the impact they have not 
only on the health and safety of federal workers, but also on creating 
workplaces that lend themselves to increased productivity of the 
federal workforce and increased longevity of the workers' tenure with 
the departments and agencies. This increasing interest in the nexus 
between buildings and their impact on the health and wellness of the 
workers within them has encouraged the evolution of certification 
systems in the private sector to do more to assess these areas. While 
Green Globes has always assessed key indoor environment factors such as 
ventilation systems, views, daylighting, air quality, thermal comfort, 
and noise attenuation, Green Globes' new ANSI update now includes 
criteria such as passive strategies for natural light, access to 
outdoors, and a Health Risk-Assessment, which assesses items that could 
impact the general health and welfare of humans (including residents, 
workers, and visitors). There is also a section on the Environmental 
Management System which reviews policies and practices that support the 
health of humans, especially those in occupied buildings during the 
construction process, which is often the case in federal projects.
    Additionally, among federal teams we have seen an increased focus 
on attempting to identify the cost-effectiveness and taxpayer benefits 
of improving the performance of federal buildings. The recent 
implementing instructions that accompanied Executive Order 13834, 
Efficient Federal Operations, specifically emphasize these concepts as 
well. Another of GBI's third-party assessors, Jane Rohde of JSR 
Associates, Inc., who is also a member of GSA's Green Building Advisory 
Committee, conducted an analysis in 2017 of federal projects certified 
under Green Globes entitled ``Efficiency, Effectiveness and 
Accountability for Federal High Performance Buildings: Green Globes 
Certification and Guiding Principles Compliance Assessment Program 
Cost-Benefits.'' In the analysis, she noted that a federal high 
efficiency building's energy and water savings, relative to an average 
sample of similar federal buildings, demonstrated a return on 
investment (ROI) of more than 200 percent over the life of the 
building. In her study of the topic she interviewed many federal agency 
energy managers with one noting, ``[Since the Green Globes 
certification] back in 2009, we've probably increased our services by 
40 percent, and our energy use has stayed flat. We probably have added 
1,000 employees in that time.''
    According to the National Institutes of Buildings Science's Whole 
Building Design Guide (WBDG) [https://www.wbdg.org/resources/life-
cycle-cost-analysis-lcca], the average life cycle costs of a building 
over a 30 year period are 2% for design and construction, 6% for 
operations & maintenance (O&M), and 92% for personnel. If we assume, 
for purposes of example, an extremely modest construction cost of $10 
million, this would mean that the operations & maintenance costs of 
that building would be $30 million over its lifetime, or roughly $1 
million per year. The WBDG also notes that approximately 50% of the O&M 
costs annually are in energy, meaning that our imaginary building 
spends approximately $500,000 per year on energy costs.
    Federal buildings typically design their sustainability projects to 
achieve around 30% energy savings--in fact, the federal Guiding 
Principles direct projects to achieve a minimum of 30% energy savings. 
For purposes of the example, we will assume that the total cost of all 
sustainability measures (planning, equipment, materials, technology, 
etc.) cost about 10% of the building cost, or $1 million. Due to the 
energy savings built into the sustainability upgrades, the building has 
decreased its energy use by 30%, meaning it is saving $150,000 per year 
in energy versus its previous energy costs. The $1 million cost of 
implementing the sustainable features saves $150,000 per year, and 
therefore the costs are recouped in 6.7 years. After that point, the 
initial investment is paid off and the building's energy cost savings 
are fully benefitting the bottom line. This very basic explanation 
doesn't take into account the indoor environmental factors that improve 
the health, well-being, and retention of employees, which is of course 
more difficult to quantify. But even without considering all of the 
other benefits that come from sustainability, the imaginary building is 
saving approximately $3.45 million alone in energy costs during its 30-
year lifetime. These types of savings, multiplied across the vast 
federal portfolio, are a significant benefit of sustainable design and 
improvements.
    In our opinion, the focus of federal project teams on enhancing the 
performance and sustainability of the federal building stock provides 
benefits to taxpayers by improving energy efficiency, lowering water 
usage, and utilizing advanced technologies and construction practices 
to lower costs associated with the federal government's building stock. 
We believe that the efforts of the federal government to continue to 
pursue efficiency and sustainability should continue to be encouraged.
    Another trend we see in both the federal and private sector 
sustainability fields is a push toward incorporating and better 
understanding the concept of ``resilience.'' The next step to enhancing 
the concept of sustainability, the focus on determining the resilience 
of buildings--how well buildings can withstand an emergency situation 
and recover from it. GBI's ANSI update has added new criteria related 
to resilience, including a Building Risk Assessment. The assessment is 
designed to analyze continued building occupancy resulting from extreme 
natural events, anticipated changes to regional and local environment, 
and human activity for the expected service life of the building. The 
assessment identifies hazards and evaluates the probability and 
expected severity of occurrence of those events. These hazards include, 
but are not limited to, weather, flooding, seismic and volcanic events, 
drought, wildfire, soil stability, and terrorism.
    However, in conversations with both federal agencies and private 
sector groups, we find that there is some disagreement about what 
constitutes true resilience, how to properly define its scope, and how 
to determine which buildings need to be resilient in the face of 
potential future disasters. In the private sector there is seemingly 
still a challenge related to finding entities that are qualified to 
determine that a building can be certified as ``resilient.'' Because 
again, the question often becomes ``resilient to what and for how 
long?'' For example, many entities and experts who might attempt such 
resilience certifications are finding that their general liability 
insurance companies are unwilling to insure those declarations made by 
experts, fearing liability later if buildings are irrevocably damaged 
after having been certified as ``resilient'' by an expert they insure. 
This type of private sector uncertainty creates some challenges for 
developing a comprehensive and uniform definition of resilience, and a 
plan to achieve it. However, we believe that the ongoing work of the 
federal government in this area will be important to informing the 
private sector about the role of emerging resilience technologies, 
practices, and concepts. In every US community, the federal government 
operates facilities and offices that are important to the community and 
often key to helping a community respond to and address the aftermath 
of an emergency. Improving the sustainability and resilience of the 
federal portfolio will have long-term benefits once we can answer the 
question, from which types of potential challenges do specific federal 
buildings need to be resilient?
    Importantly, while most people--when they think about the 
performance of federal buildings--think about buildings that are owned 
by the federal government, one of the areas of biggest challenge that 
we see is that of the leased portfolio of the federal footprint. Today, 
more than 50% of the GSA's footprint is in leased, or built-to-lease, 
buildings and facilities. The federal government as a whole is the 
largest commercial tenant in the United States, occupying approximately 
2.8 billion square feet of leased space, and its influence is great. 
While big cities like DC, New York, Chicago, and San Francisco, and 
states like Nevada, have prioritized policies that promote 
sustainability and enhanced building performance, many small- and 
medium-sized areas of the country and many private sector owners have 
not--whether due to a lack of information, a lack of incentive, or a 
lack of funds to undertake such improvements. Yet in many ways the 
government does not get to choose where to locate its offices and 
buildings--the federal government must be available everywhere. The 
lack of sustainably-designed buildings offering space for lease impacts 
the ability of GSA to find and secure space that helps the government 
meet its sustainability and energy savings goals.
    There are some market changes occurring in a few areas where we see 
private sector building owners and developers incorporating 
sustainability and energy saving measures in an effort to entice the 
federal government to lease space in their buildings. However, market 
adoption in small and medium cities is slow to evolve and presents an 
interesting opportunity for the federal government, as a customer in 
the marketplace, and entities like GBI to find ways to encourage the 
adoption of sustainability measures. As a 501(c)(3), GBI's mission 
includes attempting to broaden the base of buildings in the U.S. that 
pursues sustainability and to explain to building owners and developers 
the benefits that result from both the better performance of a building 
and the lessening of its impact on the local community.
                               conclusion
    The federal government's leadership and influence in the area of 
green building and sustainability continues to be significant. The 
continued prioritization of improving the performance of federal 
buildings stands to ultimately benefit not only government workers and 
their productivity, but also taxpayers who will benefit from the cost 
savings generated by a more nimble, energy-efficient, and sustainable 
federal portfolio. The Green Building Initiative has greatly enjoyed 
its ongoing collaboration with the federal government on hundreds of 
projects, and we look forward to assisting the federal project teams as 
they strive to build and redevelop federal buildings and spaces to 
address better performance, sustainability, resilience, and savings for 
American taxpayers.
    Thank you for this opportunity to provide our thoughts.

    Ms. Titus. Well, thank you very much. I am encouraged to 
hear all of you with a positive commitment to doing even more, 
but also with the recognition that a lot has been done. And so 
that is encouraging.
    We will now have questions. I will recognize each of the 
Members for 5 minutes of questions, and begin by recognizing 
myself.
    We know a good bit about how to make buildings greener and 
more energy efficient, less so about how to make them healthy, 
and even less about how to make them smart, when we talk about 
the development of artificial intelligence and internal 
security.
    You are a very forward-thinking architect, Mr. Van Den Wy, 
will you please give us some specifics about how to make 
buildings more healthy? I know I am frustrated by the Russell 
Building, because I can't open my windows. I just want to open 
that window for some reason. Would you just talk about that a 
little more?
    Mr. Van Den Wymelenberg. Sure. Well, and I think in its 
simplicity, opening a window and having access to fresh air is 
a great starting point for making healthy buildings. We have 
seen buildings that are ventilated through the facade, through 
windows, have indoor microbial communities that look more like 
the outdoors and look less like our own skin and gut 
microbiomes, which inherently means there are likely to be 
fewer pathogens in these environments that are directly 
ventilated.
    It is always a balancing act with energy, because if you 
leave a window open in the middle of winter, then you have 
those penalties, too. So this begs for that smart building, 
that automated building that can also have a strategy to close 
those windows when it knows nobody is there, and it knows the 
best energy decision would be to close it.
    So we are working on a project that we call Fuzzy Wrenches, 
which is--the fuzzy part is the fuzzy logic and machine 
learning ideas that we see through computational science. The 
wrenches part is people who own and operate and run buildings. 
And we are doing that as a microcosm on our campus. And the 
BTUs 4 BTUs project is an example. So we are trying to empower 
the folks who operate buildings with some of the capabilities 
that some of our scientists and our data science initiative 
have with fuzzy logic and machine learning.
    Ms. Titus. When you talk about healthy buildings, you are 
talking about mental health, as well as physical health, aren't 
you?
    Mr. Van Den Wymelenberg. Yes, definitely. In fact, you 
know, we look at some of the declines in life expectancy, and 
the root is often mental health concerns. And so access to 
views of nature have been shown to provide what we call 
microrestorative experiences. Researchers at Michigan several 
decades ago brought that idea to our lexicon.
    One of the challenges with healthy buildings, and why I 
think, as Ranking Member Meadows described previously as this 
being elusive in some ways, is that we don't have great metrics 
for defining what is a healthy building. In energy we have got 
energy use indices. For healthy buildings we are starving for 
that sort of basic unit of, like, environmental and mental 
health. And perhaps the closest thing we have is occupancy 
rates. But that is an imperfect metric, as well. So that is 
where I referenced the need to develop some metrics of these 
non-energy benefits.
    Ms. Titus. Thank you. I would ask the two of you who 
represent different kinds of certification if you would address 
the types of buildings or projects that you are involved in.
    So we know that you are kind of working in tandem, as 
opposed to competitively, and in conflict. Because I understand 
you do different kinds of projects and different kinds of 
buildings, that some are more appropriate for LEED, some may be 
more appropriate for what you do, Dr. Russell. Is that 
accurate?
    Ms. Beardsley. Thank you, Chairwoman. There are--I can 
speak to LEED, and let Mr. Russell speak to Green Globes, but 
LEED has many adaptations. I believe we are over 20 adaptations 
for different building types, so a wide range from--you know, 
certainly we started with office buildings, but now we have 
customized rating systems for things like data centers that can 
be large energy users, things like museums have been certified 
under LEED, certainly green schools are a major element that we 
have used, as well as residential of all sizes. So we have been 
really adapting and getting market feedback, and over the last 
5 or 6 years creating those specialized systems to meet a full 
range of building types.
    Mr. Russell. We typically do, actually, very similar-type 
buildings. It is just the way we address them is probably a 
little bit different, in that for Green Globes the main way we 
deal with the different types of facilities, such as 
warehouses, data centers, VA hospitals, and things like that, 
we use a lot of our not-applicable-type criteria. So the main 
Green Globes criteria covers all the important aspects.
    And then, working with the assessor, we determine--for 
example, if a certain aspect would not be applicable to a 
warehouse, we use N/A so that those features do not impact the 
overall score rating, and the building still gets the 
sustainable criteria that it has actually earned. And so----
    Ms. Titus. Thank you. The ranking member.
    Mr. Meadows. Thank you, Madam Chair. Is it Beardsley?
    Is that correct, Ms. Beardsley? Let me come to you. When 
you are doing the LEED certification, is there a different 
criteria for a building, the same building in Florida, as there 
is in Michigan?
    Ms. Beardsley. Thank you. Yes, that is correct, Ranking 
Member.
    Mr. Meadows. So there is a different criteria?
    Ms. Beardsley. I am sorry. The criteria are the same, and 
the idea is that----
    Mr. Meadows. Why would they be the same?
    Ms. Beardsley. So the idea is that, when you see a LEED 
certification, you know that it stands for the same 
performance.
    Mr. Meadows. But since this is--you know, you guys are the 
experts. I just build the buildings.
    Let me tell you the problem with that. And it gets to the 
fundamental question of why we need more flexibility in terms 
of the way that we actually quantify that. Actually, when we 
look at--you are solving, in terms of energy efficiency, for 
two different things: either heating load, HVAC, or lighting 
load. All right?
    And so that is why you have windows. And yet, when you look 
at a building in Michigan versus a building in Florida, you 
will have two very different criteria that you should be 
solving for. And yet we have a--one LEED standard that actually 
will make you build a less-energy-efficient building in one of 
those two environments. Would you agree with that?
    Ms. Beardsley. Thank you for restating the question, 
Ranking Member. So the criteria are the same in the sense that, 
across the categories of LEED, we have prerequisites. Those 
apply to all buildings. Those are very baseline, so that you 
know----
    Mr. Meadows. And they are a point system. I get that. All 
right.
    Ms. Beardsley. Right, right. So then, within the point 
system, project teams choose the points and the credits that 
are most applicable to their buildings. So we do have buildings 
that use natural ventilation and don't necessarily have 
mechanical systems if the climate is suited to that. We have 
other systems that might use day-lighting, and others might use 
a much smaller----
    Mr. Meadows. No, I get that. I guess what I am saying is 
there is a lack of flexibility when it comes to those 
standards.
    And in my opinion, having built buildings in different 
geographical locations, which, by its very definition of the 
way it is structured right now, makes you build a less energy 
efficient--because, for example, if you are looking to lessen 
your lighting load in Florida, you will create a higher 
building envelope with more windows in doing that, which makes 
it less energy efficient, because your HVAC load goes way up. 
And so you end up spending more on energy than you would, just 
because you have a very naturally lit environment.
    And I guess my encouragement to you would be to look at 
recommendations that we could either do legislatively, or 
provide greater flexibility. So the example that Dr. Russell 
was putting, in terms of a museum or an art gallery, is 
applicable, but it is also applicable when you are not talking 
about necessarily use.
    You can say a commercial building for the same exact use--
Federal building in Florida should be designed differently than 
a Federal building in Michigan. Wouldn't you agree with that?
    Ms. Beardsley. And they are, and this is where the 
integrative design that Mr. Kampschroer spoke about comes into 
play, as well as----
    Mr. Meadows. So you think LEED has enough flexibility to 
allow it to do that?
    Ms. Beardsley. We are----
    Mr. Meadows. Because I would challenge you on that. That 
is--you are talking to someone who has actually done it.
    And so you are saying LEED gives you enough flexibility, 
enough point system to give you that flexibility? Because I 
think a Federal footprint will be almost exactly the same 
because what they will do is not take in the geographical 
differences.
    Ms. Beardsley. Sir, I believe that the LEED system does 
provide flexibility. We have worked hard to increase 
flexibility in the system. And through the energy model, 
integrative design, those kind of trade-offs and balancing can 
be made between whether to get more energy----
    Mr. Meadows. And those are based on scientific modeling?
    Ms. Beardsley. Yes, through feedback we have----
    Mr. Meadows. I will let you revisit that.
    Dr. Russell, do you agree with all of her analysis there?
    Mr. Russell. Not completely. For example, Green Globes--
what we reference always is the ASHRAE 90.1 for energy 
performance. And ASHRAE 90.1 actually is climate-dependent. It 
sits there and says that each climate district has their own 
specific criteria.
    And so, when we evaluate a building, we are looking at that 
specific criteria and how that building complies, relative to 
what the standard is for that location. And so you get a more 
sustainable building for that location.
    There are certain criteria, for example, in which we 
encourage more day-lighting, and certain regions where we 
don't, because we recognize, because of the solar heat gain 
coefficient that you get out of that, you don't need to have 
those type of factors. And so we certainly try to build in that 
regional----
    Mr. Meadows. All right. And I am out of time. And so, with 
our architect and his--is it Oregon?
    So I am going to ask all of you if you will give three 
recommendations on how we can take the current rating system 
and make it more flexible, and more efficient, as it relates to 
those--and perhaps look at both LEED and other opportunities on 
rating commercial buildings. And if you will get that back to 
the chairman, I would appreciate it.
    I yield back.
    Ms. Titus. Thank you. We will look forward to receiving 
that.
    I now recognize Ms. Davids for 5 minutes.
    I guess Ms. Davids has left us. So we will now go to Ms. 
Mucarsel-Powell.
    Ms. Mucarsel-Powell. Yes, thank you, and thank you for 
coming here this morning.
    I represent the southern-most part of Florida, the 
southern-most district, and I believe one of the most beautiful 
areas, the Florida Keys and parts of Miami-Dade County. And we 
are definitely ground zero for climate change. And so this 
hearing--if we can't make advances on ensuring that we have 
these regulations for our Federal buildings, then we won't be 
able to expect the same investments in commercial and private 
facilities, as well.
    So I wanted to ask you, Ms. Beardsley. Last year the 
National Defense Authorization Act required the Department of 
Defense to assess the flood risk of its facilities, and to 
mitigate those risks. But other non-DoD facilities are not 
included in this requirement. And I am concerned about the 
resiliency of essential Federal buildings after hurricanes, 
specifically, and floods, buildings that house very important 
services for my constituents and constituents all over the 
United States.
    Do you think that we need to establish a Federal flood risk 
management standard for all Federal buildings and 
infrastructure?
    Ms. Beardsley. Thank you, Congresswoman. Yes, we would 
agree that such a standard would be helpful to ensure that 
there is baseline protection of Federal investment, as well as 
life and property across the board.
    Ms. Mucarsel-Powell. And so, since Mr. Meadows was bringing 
that up, that different buildings should have different 
requirements, can you expand a little bit on that? I would like 
for you to comment on the questions that he was asking.
    Ms. Beardsley. So, as I mentioned, the LEED system does 
have flexibility, and needs to account for what the conditions 
are facing that building, the climate zone.
    And I will note we also do reference the ASHRAE 90.1 
system, which is an energy model, and energy requirements are 
based on the climate.
    With respect to the flood plain, this is where, you know, 
consideration of changing conditions is important, where 
existing maps may not reflect the conditions that the building 
will face over its lifetime of 60, 80, 100 years.
    Ms. Mucarsel-Powell. Do you think--and I know that you 
attended the Paris climate meetings, and the talks--do you 
think that there are any specific policies from other countries 
that you would suggest we consider here in the United States, 
that we should implement, especially as it pertains to 
Government infrastructure, buildings, facilities?
    Ms. Beardsley. Yes, thank you. That is a great question. 
The Paris climate conference was really quite exciting, and a 
remarkable moment in time. And what we have seen since then is 
a movement from these high-level commitments towards more 
action by the countries who are a party to the agreement.
    Some of the key areas that we are seeing action on relating 
to buildings include commitments to net zero energy buildings, 
and also interest in net zero carbon buildings. For example, 
the EU has a directive requiring all new public buildings to be 
nearly zero energy buildings, and all new buildings, including 
private, by 2030. Japan has some analogous requirements, as 
well. And some countries are also providing financial 
incentives to move towards zero energy buildings.
    Ms. Mucarsel-Powell. So it is possible. We can do this.
    Ms. Beardsley. We would agree, yes.
    Ms. Mucarsel-Powell. Thank you. Sorry. I realize I have an 
extra minute. I wanted to ask a quick question of Mr. Russell.
    What has been your experience working with the GSA? And 
what have been the chief obstacles that the GSA or other 
agencies have faced in pursuing Green Globes certification?
    Mr. Russell. I have really enjoyed working with the GSA. I 
use a number of the GSA resources, such as the SFTool website, 
to provide education to our various clients, the various 
project teams, on really good sources of where you can find 
good materials, what are good methods, different techniques 
they can do to help make the projects more sustainable. And so 
we really haven't had much of a problem in working with GSA.
    As far as obstacles, the biggest thing is probably more 
familiarity of working with Green Globes, and recognizing that 
we are a viable option out there, and to recognize, you know, 
that it is a great resource to consider. So----
    Ms. Mucarsel-Powell. Thank you, Mr. Russell. I yield back 
my time.
    Ms. Titus. Thank you.
    Mr. Pence?
    Mr. Pence. Thank you, Chairwoman Titus. Thank you, 
panelists, for all being here today.
    As I mentioned in the first panel, it is my understanding 
that nearly half of the Federal buildings managed by GSA are 
over 50 years old. If we are serious about improving the 
efficiency of Federal buildings and reducing costs, we need to 
find solutions for new efficient buildings, given limited 
funding.
    In 2016 Congress passed the Federal Asset Sale and Transfer 
Act. FASTA identifies opportunities for the Federal Government 
to sell underutilized property, generating capital by getting 
rid of some of these old, inefficient buildings. We should also 
be looking at public-private partnerships, or P3s. Not only do 
P3s shift liability to the private sector, but utilizing P3s 
would ensure efficiency is built in and maintained, long-term.
    Dr. Russell, with limited dollars available for new 
construction and major renovations, and the overwhelming amount 
of old buildings in our inventory underutilized, do you believe 
P3s could help energy efficiency savings?
    Mr. Russell. Mr. Pence, yes, definitely. P3 has a lot of 
potential for assisting with that. I have over 12 years' actual 
construction experience, and one of the things I learned pretty 
fast from the construction standpoint is the person who is 
designing or building the facility--I don't have that much 
incentive to actually continue to make it more sustainable, to 
push above and beyond what has been required. It is that 
maintenance side where you really start to recognize the 
savings.
    And so, by combining that maintenance side along with the 
person who is actually building it, you can actually get a 
building that really does save energy over a long period of 
time. And so by encouraging those types of design-build-
maintain or build-operate-transfer--there are a number of 
terminologies that will come out of the P3--it becomes very 
beneficial for those type of things, because now you are 
getting a contractor who is dedicated. They recognize that they 
need to save the operating money if they are going to make 
money in the long term on that project.
    And so I think it is a fantastic resource. A number of 
other countries have looked into it. But the problem with it is 
that run into some unique financial conditions. There has been 
a lot of research over the last 5 years into difficulties in 
using P3, and how do you establish the correct parameters for 
monitoring it so that the contractors can work to the highest 
benefit, and yet it doesn't waste a lot of Government funding.
    And so I think, with the proper parameters, I think P3 is a 
good way to proceed.
    Mr. Pence. So, on an efficiency point of view, do you think 
we should look at P3s with our older buildings that we are 
releasing, like we just did recently? Would we save money, 
operationally, and be more energy efficient?
    Mr. Russell. You can if the contract is set up properly. If 
the contractor recognizes that they are going to see the cost 
savings, that they are going to make more profit, essentially, 
by making it more sustainable based upon the way you establish 
the financial model, based on the operating costs, you can 
encourage the contractor to do that.
    And if you don't set it up properly, no, you are not going 
to see that much of a change. And so it really requires some 
more detailed analysis of what is the proper contract language 
that is going to attract contractors who are good at making it 
more sustainable, and recognize the investment.
    Mr. Pence. And you are referring to existing buildings that 
we could turn? OK.
    Mr. Russell. Yes, you could definitely do that to existing 
buildings, also.
    Mr. Pence. OK, thank you.
    Ms. Beardsley, you wrote in your closing statement 
paragraph that funding could drive increased efficiency and 
resiliency in retrofitting or replacing aging facilities. Are 
there other solutions, other than P3s, to address our lack of 
capital funding to make buildings more efficient?
    Ms. Beardsley. Thank you, Congressman. There are a number 
of different public-private partnership models that can be used 
to advance resiliency and save money. So there is performance 
contracting, there is also utility energy savings contracting, 
and other P3 models.
    I think GSA uses a number of different models in its 
contracting, ranging from design-build with option to buy, 
design--different kinds of lease, build to lease, build to 
suit, and other models. So really, all of these different 
contracts can be used with a resiliency lens and an efficiency 
lens to save money and to set up a modern Federal portfolio for 
the future.
    Mr. Pence. OK. Thank you, everyone. I yield my time.
    Ms. Titus. Thank you. I now recognize Ms. Holmes Norton.
    Ms. Norton. Thank you very much, Madam Chair. I am 
particularly interested in the inventory of the Federal 
Government, because the most valuable inventory is in my own 
district, the Nation's Capital.
    I have just spoken with our ranking member. He and I share 
an interest in selling buildings that simply cannot be made 
usable. I should indicate, however, that we don't want to do a 
lot of leasing, or any more leasing than we have to. So we 
value old buildings to the extent that we can make them usable.
    Now, the Federal Government does have a number of old 
buildings because--and especially those here in the Nation's 
Capital. I am not talking about those that are no longer usable 
and should be sold. But what are the most important steps that 
should be taken first in making old buildings usable?
    What I am really speaking to is how these must be the least 
energy-efficient buildings here. And so one of the things the 
Federal Government is going to look at is not only is it worth 
renovating it, but making it energy efficient--or it certainly 
should be looking at it before deciding whether to sell it, or 
whether to renovate it, which might help us also, because we 
don't want to do any more leasing than possible.
    Actually, Mr. Russell, or any of you who have a view on 
that I would be interested in.
    Mr. Van Den Wymelenberg. Thank you, Congresswoman. I will 
answer very briefly and defer my time.
    What I think is most important about existing buildings 
is--especially older existing buildings--is the investments 
have already been made, in many regards, and especially if they 
are over 50 years old. They probably have good bones, as we 
say, and they probably have reasonable access to natural light 
and ventilation through the facade. The trick will then be to 
create these hybrid new buildings that are not, you know, 
completely leaky at the facade, and have thin exterior skins.
    So the first piece I would recommend----
    Ms. Norton. Well, those would be buildings--I mean they are 
probably more solidly built----
    Mr. Van Den Wymelenberg. That is right.
    Ms. Norton [continuing]. Than any buildings we are building 
today.
    Mr. Van Den Wymelenberg. Right. So it is likely looking at 
the envelope, looking at windows, in particular; reducing 
loads; and then looking at ways to downsize the existing 
systems when we replace mechanical heating and cooling. Thank 
you.
    Ms. Norton. Did you have any view, Mr. Russell?
    Mr. Russell. There has been a number of research papers and 
articles provided to go through exactly that process. I did 
some research projects, one of those at the University of New 
Mexico several years ago, in which we were analyzing various 
older buildings, and what is the most cost-effective way to 
make those differences.
    And fortunately, agent groups like NAHB--National 
Association of Home Builders--AGC, they have come out with, 
actually, guidelines that help the average building owner with 
that process.
    And so, as Dr. Van Den Wymelenberg had mentioned, you start 
with the building shell, and then you proceed on through the 
basic systems--simple things you can do to your house, even. 
You know, make sure all your doors are properly sealed, your 
windows are properly sealed. Get rid of all those thermal 
bridges and enclose your facility as much as possible, keep it 
weather tight. And then just upgrade the performance of your 
individual components within that----
    Ms. Norton. Do you find that the Federal Government 
understands what you just said, in terms of its older 
buildings? You know, those are pretty simple things.
    Mr. Russell. Yes, exactly. And then the nice thing is they 
are simple things. The basic things that cause the biggest 
change are actually the most economical.
    And so the key is you start by going through the basic 
elements before you get in the more complex----
    Ms. Norton. Are you finding that the Federal Government is 
doing what you are doing, those basic things? Especially with 
these older buildings?
    Mr. Russell. I think if they have the funding, if they have 
the--you know, it depends upon the agencies themselves, if they 
see the commitment to that. I have seen some DoD projects, 
definitely. They are trying to make that happen.
    Ms. Norton. I would just like to find out at the next 
hearing if the--if we are doing these simple things, first.
    Mr. Russell. Yes, yes.
    Ms. Norton. It seems to me we could be saving the Federal 
Government a lot of money.
    Ms. Beardsley. That definitely----
    Ms. Norton. I do have a question on--I am trying to find 
out about continuity. And I know there is some discrepancy 
between the parties on climate change. But I don't think there 
is any discrepancy on saving money.
    And therefore, I want to ask about the difference between--
and I asked an earlier question on the Executive order from 
this President and what was previously in existence, because if 
an administration says one thing, and the next administration 
undoes it, then I think we are all headed to hell when it comes 
to climate change.
    So there were guidelines set forth by the Council on 
Environmental Quality's implementing instructions. That is 
really important, implementing instructions. They implement 
President Trump's Executive order. Are they different from the 
guidelines which existed from the Energy Independence and 
Security Act?
    I am trying to find out are they a substantial-enough 
departure from those old standards to create a meaningful 
change in the energy footprint of Federal buildings?
    Yes, ma'am.
    Ms. Beardsley. Delegate Norton, thank you for the question.
    Ms. Titus. You are going to have to be brief.
    Ms. Beardsley. Yes. So, essentially, Congress has been 
involved in these Federal targets for a number of years. But 
the statutory guidelines have expired now. And with the new 
Executive order, and the implementing instructions, it does 
leave a lot of discretion with the agencies, so it will remain 
to be seen how the agencies implement that, and as they set 
each annual target, as you heard from Mr. Kampschroer.
    Ms. Norton. Thank you very much. It is all in implementing 
a statute, Madam Chair. Thank you.
    Ms. Titus. Thank you. Maybe we can get some reports from 
some of the different agencies of how they are implementing it.
    I now go to Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chair. I want to go back to 
questions raised by Mr. Pence about the age of buildings and 
what we do about those.
    I do think modern engineering standards, construction 
standards, are high-quality. You know, I appreciate the 
architectural designs of the older buildings, but in terms of 
resiliency I think what we are building now is, in many 
respects, superior to what we had. Think about the older 
buildings and the problem that the Federal Government has is 
underutilization, which I think--or no utilization at all 
increases our cost. And I addressed that with our first panel.
    Mr. Russell, when you are talking about utilization, you 
are really talking about reducing the square footage per 
person. And do you want to talk a little bit about how that 
impacts the operating cost of a facility, if you are packing 
more people into a smaller space?
    Mr. Russell. So by reducing the square foot per person, 
there can be multiple different effects of that. And so, from a 
straight energy standpoint, if you can reduce the square 
footage, then naturally you are going to reduce your operating 
cost. But at the same time, if I increase the number of people 
in a space, I am going to increase my CO2 levels. As the people 
are exhaling, you are going to make it a little bit more 
difficult as far as--you know, we tend to like to have a little 
bit more space for ourselves.
    And so, from the well-being standpoint, I tend to think it 
is not going to be as comparable. And so there is kind of a 
good and bad to it. It is not a definitive answer. So----
    Mr. Palmer. That is my point. You are juxtaposing health 
against energy savings, other savings, lowering our costs. I 
think there was one study for a building out in Denver that 
showed that reducing the square footage per employee to about 
165 square feet would save a little over $2 million, but it 
creates other problems, not just exhaling CO2, but there are 
other things that might be--and what is being exhaled.
    We have also got issues here with our Federal buildings, 
where we have rodents that--you know, you talk about some of 
the--
    [Aside:] You have what? She has got a pet mouse, is that 
right? It is a pet now.
    [Continuing:] But we have got some of those issues. And 
when we talk about asthma rates and things like that, the CDC 
and others admit they don't really know what causes that, 
asthma, but they do know things that create problems, 
particularly in low-income housing, but also in buildings like 
the ones that we occupy, where you have got mice, and other 
issues. That has to, I think, be part of--when we are talking 
about consolidating or better utilizing these buildings, 
because you can mitigate some of those problems by going into a 
renovated facility, and maybe disposing of the older 
facilities. And by that I mean selling or leasing.
    Do you want to--any of you?
    Mr. Van Den Wymelenberg. So I will address it briefly, 
thank you. I think, when you look at utilization, I would 
recommend starting with leased facilities, and prioritizing 
owned facilities, and getting out of leased facilities whenever 
possible.
    I also think that we could benefit through an optimization 
of leased facilities by thinking about which buildings are 
supporting greatest human health. And right now we have a lack 
of information. Mr. Kampschroer gave a great list of metrics 
around performance improvements in Federal facilities.
    And when it came to health I think what we have done often 
is we relied on satisfaction as our metric for health. And it 
is a good start, but it is not sufficient. We need to build a 
more robust suite of metrics for documenting health, and I 
think that can serve as a lens for this optimization. Thank 
you.
    Mr. Palmer. I want to address something Ms. Holmes Norton 
brought up about some of these older buildings in Washington. 
There is also a value, architecturally and historically, in 
that. And it may make sense that in making a determination what 
to do with the building, rather than have a 132-year-old 
building 6 blocks from the White House boarded up, it might 
make sense to sell that to someone else who will make better 
use of it, and preserve that building.
    Madam Chair, I would like to introduce into the record a 
GAO report on space utilization, if we could do that.
     But I just think, when we look at this, it is a broader 
issue, not just reducing our energy consumption costs, but also 
making a decision about how we best use our properties and 
reduce the need to lease.
    With that I yield back.

                                 <F-dash>
``Federal Buildings: Agencies Focus on Space Utilization as They Reduce 
 Office and Warehouse Space,'' U.S. Government Accountability Office, 
    GAO-18-304, March 2018, Submitted for the Record by Hon. Palmer
    This report is retained in committee files and is available at the 
GAO website at https://www.gao.gov/assets/700/690536.pdf.

    Ms. Titus. Thank you. Ms. Fletcher?
    Mrs. Fletcher. Thank you very much, Chairwoman. And I do 
think this is an interesting discussion, and I appreciate the 
comments from my colleagues about how we are prioritizing, and 
what the issues are that we are considering. And, obviously, 
efficiency is important, but I am interested in this 
conversation about the metrics that we value.
    And coming from Houston, a city that is fairly new, I 
personally walk around Washington and wonder at the incredible 
architectural value of these buildings that we work in, and 
that we get to come to work in these buildings every day. And I 
think there is a value that we place on the facilities in 
Washington, and around the country with some of the older 
facilities. So certainly I am more interested in the metrics 
that we can look at besides age, and also the improvements that 
we can make.
    And so I was interested in the conversation about what are 
the things that we can do to make our buildings more energy 
efficient when we recognize that there is a value. Certainly I 
don't think anyone is suggesting that we wouldn't keep the 
buildings that we are currently in, but the discussion about 
looking at the envelope, looking at the windows, or doing some 
simple things like sealing at the exterior of the building.
    I think what would be helpful to us is a sense of what are 
the other metrics we can look at as a shorthand for--and the 
leased--the idea of whether we are in leased buildings and 
getting out of those makes sense to me. But as we are 
evaluating these assets, knowing where we can make 
improvements, I think, would be a useful factor.
    And one thing I want to ask, specifically. One of you 
mentioned the cost of an effort in improving and replacing the 
existing systems, the mechanical heating and cooling systems. 
So recently there was this survey that was supposed to come 
out, a study in September that came out in May from the 
National Institute of Standards and Technology on the economic 
and environmental benefits of gas versus electricity in homes. 
And I would be interested in kind of your thoughts and feedback 
on increasing the use of natural gas in some of these buildings 
versus electric, if that is one of the things, when we are 
talking about replacing existing systems, where you see room 
for improvement.
    Ms. Beardsley. Thank you, Congresswoman. And I have to note 
that Texas is the--one of the top States for LEED in 2018, 
number 5. Very good.
    So I do want to point out that LEED has a system for 
existing buildings to provide a way to approach these 
buildings, which can be more challenging to bring up to highly 
performing energy and water efficiency, indoor air quality. And 
GSA does have experience with that system.
    For example, here in DC there is the Treasury Building, an 
iconic historic structure that achieved LEED Gold in 2011, and 
has been reported at saving about $3.5 million a year in 
utility costs. So that is a good success story.
    You know, we favor and encourage a whole-building approach 
that looks at all of the systems, the envelope, in combination 
with the needs. What are the user's needs for the building? And 
make sure that those are aligned, and then create a structured 
plan to implement the improvements that are needed. That may 
include gas, it may include electric. It is really site-
specific. It may also depend on resiliency goals, and the grid, 
and the vulnerabilities of that location. So these are all 
considerations for dealing with existing buildings and 
improving them over time.
    Mrs. Fletcher. Thank you.
    Mr. Van Den Wymelenberg. I would like to offer one answer 
to two parts of your question each.
    So, in terms of what other metrics we might be considering, 
one that I think would be a great start is looking at how a 
building is occupiable when there is no power. How much of the 
floor area is day-lighted and has access to outside air? So 
many of our buildings, if there is no power, we have to leave 
them. And this is tragic.
    The other is a technology. You asked about what 
technologies, in particular, for existing buildings. And I will 
offer one that continues to bear fruit, which is lighting.
    There are some new innovations with what is called 
luminaire-level lighting control that I think can start to 
stitch together some of our conversations today, one around--it 
can help reduce energy consumption substantially by having a 
distributed sensor network of occupancy and daylight harvesting 
sensors on each light fixture. It is a retrofit technology. And 
you can start to understand your space utilization, because 
each sensor triggers when a person walks by, and it knows how 
occupied or unoccupied certain spaces would be. And it might 
help with the space prioritization. Thank you.
    Mrs. Fletcher. Thank you.
    Mr. Russell. If I can offer, you know, Green Globes also 
does an existing building program. But one of the things that 
we do that works really well, relative to your question, is 
with the Guiding Principles Compliance. It actually requires, 
when you are doing evaluations, to do what is called life-cycle 
assessment, and determine does it make sense. Just because you 
may have a certain efficiency HVAC system, and there is a newer 
efficiency one that comes out, it doesn't mean you need to 
immediately replace that. You need to look at the overall cost 
of it, and determine what is going to make the best sense for 
the operational cost, overall, long-term efficiency of that.
    And so, when doing that analysis to determine the best 
thing, we always recommend to our clients do that analysis. 
What is the lifespan, what is the operating cost that is going 
to come out of that, and what is your new, upfront cost to 
determine what is the best way to proceed.
    Mrs. Fletcher. Thank you very much.
    I see I have gone over, so I will yield back. Thank you, 
Madam Chairwoman.
    Ms. Titus. Thank you. I appreciate you doing the shout-out 
to Texas, Ms. Beardsley, but you might have mentioned how great 
Nevada is, and all of the wonderful projects in Las Vegas, 
including in the private sector with MGM. OK, just put that on 
the record.
    [Laughter.]
    Ms. Titus. All right. Well, thank you very much. It has 
been very interesting.
    You--oh, you are back. All right, I am sorry.
    OK, we will now--before I get to that, we will now hear 
from Mrs. Miller.
    Mrs. Miller. OK, good. Thank you. One thing that I have not 
heard anyone mention--which, to me, is real basic common sense, 
and costs anywhere from $5 to $100--is providing a green plant, 
you know, a tree or, you know, a schefflera, you know, any 
number of things that use carbon dioxide. That is very basic in 
helping keep a healthy office. But I will get on to a little 
more important questions.
    Mr. Van Den Wymelenberg, can you further explain the 
mission of the Build Health program, and the role of resilient 
design and energy efficiency?
    Mr. Van Den Wymelenberg. Sure, thank you. Well, first, 
about trees I agree. There is a measurable clean air delivery 
rate associated with trees indoors. It is marginal. It is not 
gigantic. But every little bit helps. And I think----
    Mrs. Miller. Emotionally, as well.
    Mr. Van Den Wymelenberg. Yes, and emotionally, and from a 
biophilic standpoint, I couldn't agree more.
    Mrs. Miller. Yes, yes.
    Mr. Van Den Wymelenberg. The Build Health program is 
founded on the premise that academics don't know everything. 
Did you hear that?
    Mrs. Miller. I did.
    Mr. Van Den Wymelenberg. Academics don't know everything, 
and that we really----
    Mr. Meadows. Could you repeat that again?
    [Laughter.]
    Mr. Van Den Wymelenberg. And that industry is really 
essential. We believe, by working with industry, we will ask 
smarter questions, and that the work that we do, together with 
industry-guided research, will be more easily taken up and 
implemented into practice. And that is the founding principle 
for Build Health. Thank you.
    Mrs. Miller. Well, how could you educate other universities 
on the benefit of working with industries to create programs?
    Mr. Van Den Wymelenberg. Well, that is a wonderful 
question. Thank you.
    So first of all, within Build Health we do have seven or so 
other universities that partner with us: so University of 
Arizona, Arizona State University, Oregon State University, 
Harvard School of Public Health, Northwestern University, and 
others--Oregon Health and Science University. So, in a way, we 
are doing that by stitching together the expertise that can be 
brought to bear about improving building health.
    But I think, more broadly, one of the ideas is to take the 
BTUs 4 BTUs program and replicate it across other universities, 
similar to the program that is offered by the U.S. Department 
of Energy and their industrial assessment centers.
    Mrs. Miller. OK. In your testimony you recommend a more 
comprehensive cost-benefit analysis than relying on energy 
efficiency alone. What are the negatives of relying solely on 
energy efficiency?
    Mr. Van Den Wymelenberg. Thank you. So the negatives, I 
think, are slower progress. The positives of opening the 
aperture of leveraging that $100 that we spent on employees, 
compared to the $1 that we spend on energy, is that if we can 
link those financial streams we can create greater good for 
both health and energy and buildings.
    Mrs. Miller. All right. And what are some of the ways in 
which Congress can help eliminate barriers in practice, and to 
help to develop a cost-benefit analysis plan?
    Mr. Van Den Wymelenberg. Yes. Through the leadership that 
we have seen from GSA and the high-performance buildings 
program, I would love the opportunity to help explore those 
non-energy benefits, the health and the comfort, so that a few 
years from now, when Mr. Kampschroer comes here, there is 
another set of metrics in that delivery about health outcomes.
    Mrs. Miller. OK. Thank you. I yield back my time.
    Ms. Titus. Well, thank you again very much. We think it has 
been a very worthwhile hearing. We appreciate you all being 
here and sharing these ideas with us. We have some things now 
to kind of get our arms around, and work toward. So you will 
probably be hearing from us again. As we do that we will need 
your help.
    I will ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided any answers or any information that may be submitted 
to them in writing, and unanimous consent that the record 
remain open for 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing.
    Without objection, so ordered.
    If no other Members have anything to add--are we good? Then 
the committee stands adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairwoman Titus.
    Ensuring federal buildings are efficient and resilient can help the 
taxpayer realize savings.
    While we have saved billions of dollars in federal real estate 
costs through consolidations and shrinking our space footprint, even 
more can be saved with added efficiency.
    However, like many things, government can get in its own way.
    That is why it is critical to keep our focus on what works and what 
will ultimately reduce costs to the taxpayer.
    When we pushed agencies to reduce their space footprint, a lot of 
savings were realized early on.
    But, we also saw agencies begin to reduce space--just for the sake 
of reducing space--even when the reduced space cost more.
    Similarly, as we work towards improving building efficiency, we 
cannot lose sight of the ultimate goals.
    We must ensure measures used by agencies make sense, actually work, 
will lower costs, and best allow agencies to meet their missions.
    I look forward to hearing from our witnesses today on these issues 
and yield back.


                                Appendix

                              ----------                              


Questions from Hon. Dina Titus for Kevin Kampschroer, Director, Office 
of Federal High-Performance Buildings, Office of Governmentwide Policy, 
 and Chief Sustainability Officer, U.S. General Services Administration

    Question 1. Please provide a status report on the extent to which 
GSA has explored, or has implemented, subsurface utility engineering 
(SUE) on its design and construction projects. The Federal Highway 
Administration (FHWA) made a review of utilities on highway projects in 
2018. The review team found that most state departments of 
transportation (DOT) do not adequately investigate underground 
utilities, resulting in utility conflicts either being misidentified or 
not identified at all during the preconstruction phase. The lack of 
adequately investigating underground utilities results in contractors 
unexpectedly encountering utilities during construction. This situation 
often causes delay, which increases project costs and imposes health 
and safety risks. One reason why utility conflicts are unknown and thus 
increase project risk is that very few DOTs systematically use SUE and 
American Society of Civil Engineers (ASCE) standard 38-02 (Standard 
Guidelines for the Collection and Depiction of Existing Subsurface 
Utility Data) as a common best practice. Among those states that are 
regularly using SUE are continuing to find returns on investment as 
high as 22 to 1 in some cases for each dollar spent for SUE. Is GSA 
taking advantage of the benefits of SUE services on its projects?
    Answer. GSA implements some of the principles of subsurface utility 
engineering (SUE) on design and construction projects. GSA's Public 
Buildings Service's Facilities Standards for the Public Buildings 
Service (P-100), found here--https://www.gsa.gov/cdnstatic/
2018%20P100%20Final%205-7-19_0.pdf--requirements include project site 
survey and documentation requirements. Projects primarily utilize SUE 
quality levels B, C, and D with limited use of quality level A. GSA 
does not currently implement ASCE standard 38-02 to classify the 
quality of existing subsurface utility data.
    GSA uses a NEPA-based project feasibility and design review process 
for all major construction projects. This process reviews the current 
and historical information available, assesses changes required for 
access roads, in-project roadway construction, and assesses hazards 
that we may encounter when connecting to public roadways and utilities 
located within public roadways.

    Question 2. According to Executive Order 13834 and your testimony, 
agencies have two energy goals: (1) an overarching goal to exceed a 30% 
energy use intensity (EUI) reduction compared to that in fiscal year 
(FY) 2003; and (2) an internally-set goal to achieve an incremental 
reduction from the previous year. These performance measures are 
reported to the Office of Management and Budget (OMB) and the Council 
on Environmental Quality (CEQ) annually and reported on the OMB 
Scorecard for Efficient Federal Operations/Management.\1\ In a General 
Services Administration (GSA) and Rocky Mountain Institute report of 
August 2015, Deep Energy Retrofits Using Energy Saving Performance 
Contracts: Success Stories (Success Stories),\2\ GSA outlines six best 
practices to achieve deeper levels of energy savings. First among those 
is: ``Set Aggressive Long-Term Goals.'' Would you agree that setting 
aggressive long-term goals remains a key best practice to achieve 
significant energy and cost savings? What affect does the absence of 
specific goals have on annual planning?
---------------------------------------------------------------------------
    \1\ Federal Register. Executive Order on Efficient Federal 
Operations (13834). 83 Fed. Reg. 23,771. May 22, 2018. Available at: 
https://www.govinfo.gov/content/pkg/FR-2018-05-22/pdf/2018-11101.pdf
    \2\ Rocky Mountain Institute (RMI) and General Services 
Administration (GSA). Deep Energy Retrofits Using Energy Savings 
Performance Contracts: Success Stories. August 2015. Available at: 
https://www.gsa.gov/cdnstatic/
Deep_Energy_Retrofits_Using_ESPC_508_small.pdf
---------------------------------------------------------------------------
    Answer. GSA's planning processes for energy savings are generally 
focused on individual buildings that comprise its portfolio. Thus, the 
effect of the absence of specific long-term goals is unknown and would 
be difficult to determine. Meeting energy targets at the portfolio 
level has been the result of aggregating the results of numerous people 
and organizations who manage individual buildings. We should note that 
in the short-term, weather conditions can have a significant year over 
year effect. For example, performance in fiscal year (FY) 2018 as 
compared to FY2017 was strongly affected by weather conditions being 
much more difficult in FY2018. Further, since these energy conservation 
measures are life cycle cost effective, GSA continues to pursue them 
regardless of the goal-setting process.

    Question 3. The Success Stories report suggests a key consideration 
is to ``establish long-term goals and build a roadmap toward those 
goals.'' Which planning process would result in attaining significant 
energy and cost savings: By building a roadmap toward their 
achievement? Or by planning annual agency goals in June, four months 
prior to the start of the fiscal year to which they would apply? How 
can agencies such as GSA effectively plan for energy, water, and cost 
reductions without goals that stretch across multiple fiscal years, 
particularly with an uncertain annual appropriations process? Please 
detail GSA's planning process for implementation of energy conservation 
measures within its portfolio of public buildings during FY 2020.
    Answer. GSA has already achieved significant energy, water, and 
cost savings through a multi-year, multi-faceted strategy. Standard GSA 
Federal office buildings--on average--currently use about 51,800 BTU 
per GSF (British thermal units of energy per gross square foot).\1\ The 
typical commercial office building uses approximately 67,700 BTU per 
GSF.\2\ This data suggests that GSA buildings use about 23 percent less 
energy than the commercial average. The average GSA Federal office 
building has reduced energy by over 15 percent relative to fiscal year 
2009 usage levels.
---------------------------------------------------------------------------
    \1\ ``Standard'' is defined as buildings that do not have 
significant laboratory space, data center space, or other energy 
intensive functions such as border protection and national security 
operations. Also, buildings that do not have significant vacancy, are 
being disposed of by the Government, or have other circumstances that 
would distort energy usage significantly.
    \2\ Energy Information Administration, CBECS data [https://
www.eia.gov/consumption/commercial/]; values through 2018 are estimated 
based on the trend observed from the CBEC's 2003 to 2012 data.
---------------------------------------------------------------------------
    GSA has a long track record of improving water usage. GSA's current 
water usage in standard Federal office buildings is about 9.5 gallons 
per GSF and has reduced 35 percent from 2007. The typical office 
building uses approximately 15 gallons per GSF.\3\ These figures 
suggests that GSA buildings are significantly more water efficient than 
their commercial counterparts. Since 2007, GSA has saved or avoided 
using nearly 5 billion gallons of potable water, relative to 2007 usage 
levels.
---------------------------------------------------------------------------
    \3\ Energy Information Administration, CBEC's water data [https://
www.eia.gov/consumption/commercial/reports/2012/water/]
---------------------------------------------------------------------------
    As a result of reduced energy and water consumption, utility costs 
for GSA buildings are generally lower than industry benchmarks, on a 
cost per square foot basis. On average, standard GSA Federal office 
buildings spend about $1.53 per GSF on utilities. According to the 
Building Owners and Managers Association (BOMA), typical commercial 
office buildings spend about $1.92 per GSF \4\ on utilities.\5\
---------------------------------------------------------------------------
    \4\ BOMA figures are typically reported in rentable square foot, as 
opposed to gross square foot. This figure is adjusted by assuming 
commercial office space has 90 rentable square feet for every 100 gross 
square feet.
    \5\ BOMA International Benchmarking Report [https://www.boma.org/
BOMA/Research-Resources/3-BOMA-Spaces/Newsroom/PR91818.aspx]
---------------------------------------------------------------------------
    This cost difference is due to more efficient buildings, and GSA's 
competitive procurement of utilities in markets that allow for such 
competition. For example, the average commercial price of electricity 
in Washington, D.C. was 11.97 cents per kilowatt hour in 2018.\6\ GSA 
buildings in Washington, D.C. paid 10.24 cents per kilowatt hour in 
2018.
---------------------------------------------------------------------------
    \6\ Energy Information Administration, Electricity Data Browser 
[https://www.eia.gov/electricity/data/browser/#/topic/
7?agg=0,1&geo=g&endsec=vg&linechart=ELEC.PRICE.US-COM.AELEC.PRICE.US-
IND.A&columnchart=ELEC.PRICE.US-ALL.AELEC.PRICE.US-RES.AELEC.PRICE.US-
COM.AELEC.PRICE.US-IND.A&map=ELEC.PRICE.US-
COM.A&freq=A&start=2001&end=2018&ctype=map&ltype=pin&rtype=s]
---------------------------------------------------------------------------
    GSA uses both short- and long-term goals, which help clarify 
expectations and accommodate for short-term fluctuations in energy 
usage correlated to changes in weather.
    GSA's capital planning process, and the resulting 5 year capital 
investment plan, promote the improvement of energy efficiency, because 
of the emphasis on efficiency within the engineering and architectural 
industries. The resulting industry changes and improvements help GSA 
reduce energy usage through capital investment and equipment 
replacement cycles. For example, a standard efficiency chiller 
installed by GSA today is far more efficient than a standard efficiency 
chiller installed 20 years ago, resulting in improved energy 
efficiency.
    In addition, GSA's successful footprint reduction and increased 
building utilization efforts have resulted in significant reductions in 
total energy usage and cost. For example, GSA reduced existing leases 
by approximately 3 million rentable square feet over the last two 
years. GSA accomplished this by replacing existing leases with smaller 
leases and by cancelling existing leases and relocating federal 
agencies to existing federal space. As a result, GSA is no longer 
paying to heat and cool 3 million rentable square feet of space that it 
previously occupied. These efforts represent one of the most 
significant opportunities for GSA to further decrease its total energy 
use.

    Question 4. You testified that high performance buildings (HPBs) at 
GSA achieve reduced energy use by 23%, water use by 28%, building 
operating expenses by 23%, reduced waste landfilled by 9%, and 
increased overall tenant satisfaction of 2%. And you point out that GSA 
HPBs are even greater when compared to the industry average benchmarks 
(43% for energy, 23% for water). Given the improved performance and 
reduced energy, water, and cost wasted, does GSA plan to make every 
building in its portfolio a high-performance building? If not, why so?
    Answer. Pursuant to section 432 of the Energy Independence and 
Security Act of 2007 (EISA) GSA is working to build the capability to 
analyze covered facilities every four years, identify energy 
conservation measures, and implement cost effective measures. Many 
buildings receive the High-Performance Building (HPB) distinction 
because they have already achieved certain thresholds of performance. 
In other words, by definition, a building designated HPB has already 
made significant progress in improving efficiency, or it is operating 
in top percentiles of the performance metrics. Often, getting the HPB 
distinction requires that program and property managers add 
documentation discussing existing property management and programmatic 
activities. GSA emphasizes the importance of each individual program 
within the process; the HPB designation becomes an added benefit. 
Ultimately, GSA's mission is to make all of its properties as efficient 
as possible while working within the following constraints:
    <bullet>  Fiduciary responsibilities to taxpayers, and adhering to 
basic life-cycle-cost analysis principles;
    <bullet>  Balancing the other critical investment needs of the 
property; and
    <bullet>  Ensuring safe, comfortable and stable working conditions 
for tenants (particularly around infrastructure and buildings systems 
that support critical Federal operations).

    Question 5. How many GSA-owned buildings utilize intelligent 
efficiency technologies? What are your plans to expand the use of 
intelligent efficiency in GSA owned and leased buildings? Are there 
challenges specifically with older buildings in deploying digital or 
intelligent efficiency technologies?
    Answer. ``Intelligent efficiency technologies'' is an umbrella term 
that can include several different types of technology and systems. For 
example, smart metering, lighting controls, continuous commissioning, 
building automation systems could all be described as intelligent 
efficiency technologies. Even within these system types and 
technologies, there is a spectrum of ``intelligence''. For example, a 
building automation system might have an ``optimum start-stop'' 
program, which attempts to optimize energy usage by learning how long 
it takes a building's temperature to reach the desired point.
    This wide range of system types and differing levels of 
``intelligence'' within each technology make it difficult to precisely 
quantify the number of GSA buildings included in this category. Over 
400 GSA buildings have smart meters. Essentially all buildings have 
automated systems for controlling mechanical systems, but the control 
sophistication varies. About 90 GSA buildings use continuous 
commissioning technologies.
    Retrofitting any system into an existing building, regardless of 
age, is more challenging than designing a new system in a new building 
or full-modernization. In addition, highly sophisticated systems are 
more costly and come with their own distinct challenges--particularly 
around cybersecurity and information-technology. Cost-benefit analysis 
heavily influences the decision between investing in a ``standard'' 
versus ``intelligent'' system. Within the lighting space, GSA research 
has found that new light bulbs are so efficient that ``the added 
savings from [intelligent] controls did not cover the added expense of 
the controls themselves.'' \7\ Ultimately, the decision is made within 
the context of long-term asset management priorities that weigh other 
critical needs of the buildings unrelated to energy, water or utility 
costs. For example, a dollar spent on an intelligent lighting control 
system means a dollar that cannot be spent on repairing cracks in 
concrete.
---------------------------------------------------------------------------
    \7\ https://www.gsa.gov/cdnstatic/GPG_037-Findings-Advanced-
Lighting-Controls-and-LED.pdf

    Question 6. In your testimony in December of 2018 in front of the 
House Committee on Energy and Commerce, you point to research from the 
Oak Ridge National Laboratory that indicates energy savings performance 
contracts save the government money in both the short term and the long 
term, on average 1.96 times what the government initially expected to 
save. Do you think that mandating the use of these contracts should be 
codified in legislation, or do you think there is sufficient 
variability in the regional needs of buildings that they should also be 
able to use utility energy service contracts and power purchase 
agreements?
    Answer. GSA believes the Federal Government needs flexibility in 
determining which financing mechanism to use when performing facility 
upgrades to improve energy efficiency. Energy Savings Performance 
Contracts (ESPCs), Utility Energy Savings Contracts (UESCs) and Power 
Purchase Agreements (PPAs) are tools Federal agencies can use to 
finance energy conservation retrofits based on regional partnership 
opportunities. Limiting public private partnership tools to just ESPCs 
could decrease the number of opportunities and possible partnerships 
and would be counterproductive.
    GSA encourages the use of third party financing to get the maximum 
possible improvement to each building as long as it can be amortized 
over the potential term of these contracts. GSA combines energy 
conservation measures (ECMs), so that measures with a short payback 
offset those with a longer payback in order to fully optimize the 25-
year potential authority.

    Question 7. How does GSA ensure that in buildings it leases, rather 
than owns, building owners are capitalizing on the most efficient 
technologies available, saving taxpayers money on the energy bill for 
government leased buildings?
    Answer. Section 435 of the Energy Independence and Security Act 
(EISA) of 2007 (42 U.S.C. 17091) mandates that no Federal agency enter 
into a lease contract after December 19, 2010, in a building that has 
not earned the Energy Star label, unless the space requirement complies 
with specific exceptions provided in statute. As provided in EISA, 
offerors are not required to comply with the Energy Star Label 
requirements if the offered buildings meet one of the following 
statutory exceptions:
    <bullet>  No space is available in a building with an Energy Star 
label in the delineated area that meets the functional requirements of 
an agency, including location needs;
    <bullet>  The agency will remain in a building they currently 
occupy;
    <bullet>  The lease will be in a building of historical, 
architectural, or cultural significance verified by listing eligibility 
for listing on the National Register of Historic Places; or
    <bullet>  The lease is for 10,000 rentable square feet or less.
    Currently, if a building will not have an Energy Star label in 
accordance with one of the statutory exceptions identified in the 
previous paragraph, the building owner must renovate the space for all 
energy efficiency and conservation improvements that would be cost-
effective over the firm term of the lease, including, but not limited 
to improvements in lighting, windows, and heating, ventilation and air 
conditioning systems.
    Offerors are required to address in their written offer to the 
Government whether or not any cost-effective energy efficiency and 
conservation improvements can be made, and to itemize the upgrades to 
be done. If no improvements can be made, the Offeror must demonstrate 
in writing to the Government why no energy efficiency and conservation 
improvements can be made, using the Building Upgrade Manual [https://
www.energystar.gov/buildings/tools-and-resources/building-upgrade-
manual] and Building Upgrade Value Calculator [https://
www.energystar.gov/buildings/tools-and-resources/building-upgrade-
value-calculator], which are two Energy Star Online Tools.
    In addition, as 95 percent of GSA's leased portfolio is fully 
serviced leases, GSA lessors are incentivized, without Energy Star 
lease provisions, to implement energy efficient and conservation 
measures in order to minimize the cost of utilities and reduce lease 
expenses.

   Questions from Hon. Mark Meadows for Kevin Kampschroer, Director, 
Office of Federal High-Performance Buildings, Office of Governmentwide 
    Policy, and Chief Sustainability Officer, U.S. General Services 
                             Administration

    Question 8. In March 2019, GSA issued ``High-Performance Building 
Certification System Review Findings Report.'' Page 15 of the report 
states, ``Per section 9002 of the Farm Security and Rural Investment 
Act (FSRIA), for U.S. Department of Agriculture (USDA)-designated 
products, use products with the highest content level per USDA's 
biobased content recommendations.'' Page 21 of the report indicates 
that only the Living Building Challenge (LBC) has a prerequisite 
related to biobased content, and that it aligns with prescriptive 
federal building requirements. However, LBC has their own criteria for 
biobased content that goes beyond USDA program requirements and would 
exclude wood from my state and many other parts of the U.S. Why would 
GSA consider the biobased criterion met when it clearly discriminates 
against U.S. products that meet the USDA Biobased Program?
    Answer. Section 436(h) of the Energy Independence and Security Act 
of 2007 (EISA) requires GSA to evaluate high-performance building 
certification systems and provide the findings to the Secretary of 
Energy who, in consultation with the Department of Defense and GSA, 
formally identifies the system(s) to be used across the Federal 
Government. GSA's role is to determine how certification systems align 
with Federal requirements for high-performance buildings and provide 
the facts to the Department of Energy for their consideration in 
completing their statutory requirement. GSA does not make any 
judgements or issue any opinions on any of the certification systems.
    In its review, GSA evaluated certification systems to determine 
their alignment with Federal requirements for high-performance 
buildings. Many of these requirements are contained in the Guiding 
Principles for Sustainable Federal Buildings, which were issued by the 
Council on Environmental Quality (CEQ) on February 26, 2016. One such 
Guiding Principle, Material Content and Performance, says that Federal 
buildings should procure products that meet several requirements, where 
applicable, including section 9002 of the Farm Security and Rural 
Investment Act, which establishes the U.S. Department of Agriculture's 
(USDA) BioPreferred program.
    The BioPreferred program publishes a catalogue of biobased products 
that are eligible for preferred Federal purchasing, and to identify 
products whose biobased content has been independently laboratory 
tested and third-party certified. The BioPreferred program includes 
wood products certified by several wood certification bodies including 
the Sustainable Forestry Initiative (SFI) and the Forest Stewardship 
Council (FSC).
    In its review of certification systems, GSA determined that the 
Living Building Challenge fully aligned with bio-based products as it 
contains a requirement that all wood must be certified to the Forest 
Stewardship Council 100% labeling standards or from the harvest of on-
site timber. While the other certification systems address biobased 
criterion in various ways, these credits are optional and are not 
required for certification. The Living Building Challenge received a 
green check for bio-based products because it will meet the Federal 
requirement and the other systems received a yellow exclamation point 
because the bio-based credits are optional.

    Question 9. What is the process and criteria for the selection of 
the nonfederal members of the Green Building Advisory Committee? How 
often does the membership change? Please provide the Committee with a 
plan on how GSA ensures and will ensure a diversity of opinions are 
included on the Advisory Committee. Please provide the Committee with 
written documentation that governs the selection process, criteria, 
terms, and role.
    Answer. Pursuant to section 494 of the Energy Independence and 
Security Act of 2007 (EISA), GSA's Office of Federal High-Performance 
Buildings created the Green Building Advisory Committee (GBAC). The 
GBAC operates under the provisions of the Federal Advisory Committee 
Act and provides independent policy advice and recommendations to 
advance Federal building innovations in planning, design, and 
operations to reduce costs, enable agency missions, enhance human 
health and performance, and minimize environmental impacts from the 
built environment.
    EISA Sec. 494 governs the selection process, criteria, terms, and 
roles of each of the GBAC members. EISA requires at least 10 federal 
representatives from executive agencies. The GBAC is currently made up 
of 8 federal agencies with 2 slots vacant and 14 non-federal members. 
The current chair is a non-federal member.
    GBAC members serve staggered 4 year terms. EISA limits the non-
Federal membership of the Committee to no more than 15 individuals. The 
law specifies the categories of expertise that need to be represented 
on the GBAC:
    <bullet>  State and local governmental green building programs;
    <bullet>  Independent green building associations or councils;
    <bullet>  Building experts, including architects, material 
suppliers, and construction contractors;
    <bullet>  Security advisors focusing on national security needs, 
natural disasters, and other dire emergency situations;
    <bullet>  Public transportation industry experts; and
    <bullet>  Environmental health experts, including those with 
experience in children's health.
    When soliciting non-Federal members, GSA publishes a notice in the 
Federal Register. The notice contains minimum criteria for membership 
including:
    <bullet>  At least 5 years of high-performance green building 
experience, which may include a combination of project-based, research 
and policy experience;
    <bullet>  Academic degrees, certifications and/or training 
demonstrating green building and related sustainability and real estate 
expertise;
    <bullet>  Knowledge of Federal sustainability and energy laws and 
programs;
    <bullet>  Proven ability to work effectively in a collaborative, 
multi-disciplinary environment and add value to the work of a 
committee; and
    <bullet>  Qualifications appropriate to specific statutory 
requirements.
    The notice requests that interested parties send GSA a resume or 
CV, and a letter expressing their interest and qualifications, 
including for which statutory category or categories they are applying. 
Current committee members are invited to reapply, following identical 
requirements and process. GSA groups applications according to EISA 
categories and reviews. The committee's Designated Federal Officer 
(DFO) identifies the most qualified candidates based on the criteria 
above and discusses with the Director of the Office of Federal High-
Performance Buildings. Section 5(b)(2) of the Federal Advisory 
Committee Act (FACA) requires `` . . . the membership of the advisory 
committee to be fairly balanced in terms of the points of view 
represented and the functions to be performed by the advisory 
committee.'' The mix of qualified GBAC candidates is reviewed to ensure 
that it meets various tests of balance, including on sector, 
perspective, geography and gender. The Office also ensures balance in 
membership rotation to ensure that no business, government, or sector 
is over-represented.
    GSA solicited non-Federal members in 2014, 2016, and 2018, and will 
continue to do so as members' terms expire.

  Questions from Hon. Mark Meadows for Elizabeth R. Beardsley, P.E., 
           Senior Policy Counsel, U.S. Green Building Council

    Question 1. Certification systems should provide flexibility to 
ensure buildings are built in the most efficient way given the 
geographic location. An office building in Florida, for example, should 
not be built in the same way as one in Michigan to ensure maximum 
efficiency. Please provide the Committee with three recommendations on 
how certification systems should be more flexible given factors such as 
location.
    Answer. Ranking Member Meadows correctly observes that geographic 
location can be a factor in determining optimum ways to construct 
buildings. We agree that considering not only the general geography 
such as climate zone, but also the site specific conditions are 
critical to designing, constructing, and operating high performing, 
efficient buildings.
    Moreover, our Leadership in Energy and Environmental Design (LEED) 
certification system provides a high degree of flexibility to project 
teams in selecting the key outcomes--credits--appropriate for their 
project, while ensuring minimum performance of all LEED certified 
building through core prerequisites. LEED provides a range of credits 
for projects to choose from; and most credits provide several pathways 
for projects to achieve the credit. Thus, projects can choose the 
credits and the pathways that best fit their needs and conditions. In 
addition, LEED has an array of pilot credits to allow flexibility--and 
anyone from a member organization can propose new pilot credits for 
consideration.\1\
---------------------------------------------------------------------------
    \1\ See https://www.usgbc.org/articles/leed-link-propose-pilot-
credit.
---------------------------------------------------------------------------
    Below, I provide several recommendations for how certification 
systems can provide flexibility in regards to locational factors and 
conditions.
                   reflect local climatic conditions
    A core way that certification systems should provide flexibility is 
through mechanisms for building designs and construction methods to 
reflect location-specific climatic conditions. With the LEED system, 
this is accomplished by incorporating energy modeling into the design 
and certification process. LEED credits for new construction award 
points for building energy efficiency by comparing the modelled energy 
use for the building design with a ``baseline'' building.\2\
---------------------------------------------------------------------------
    \2\ See LEED new construction v4 credit: optimize energy 
performance [https://www.usgbc.org/node/2614273?return=/credits/new-
construction/v4/energy-%26amp%3B-atmosphere].
---------------------------------------------------------------------------
    Building engineers develop energy models which include various 
inputs based on the project's geographical location. LEED references 
the model code ASHRAE 90.1. This code incorporates geographical 
information such as location and weather, as well as building site 
characteristics such as orientation of building facades and materials. 
This process is described by the Pacific Northwest National 
Laboratory.\3\ For example, local weather data in the model include 
such data as temperature and humidity for the site in which the 
proposed design is to be located.\4\ These models reflect not only 
local weather, but local energy costs as well, to enable cost-
effectiveness comparisons.
---------------------------------------------------------------------------
    \3\ See PNNL, ANSI/ASHRAE/IES Standard 90.1-2010 Performance Rating 
Method Reference Manual (May 2016), page 2.8, Figure 3, flow chart.
    \4\ See id. at page 1.2.
---------------------------------------------------------------------------
    LEED points for energy efficiency are performance-based for the 
specific location. By comparing a building design to the baseline, both 
based on the local conditions, every project can show it is exceeding a 
code building. So, the model results for a high-performing building 
design in Michigan are compared to the model results for a baseline 
building in Michigan, to determine the points; whereas a the model 
results for a high-performing building design in Florida are compared 
to the model results for a baseline building in Florida, to determine 
the points. Building projects can earn up to 18 points in LEED for 
optimizing energy efficiency in this way, reflecting local geography.
    We note the use of energy models to compare a building design with 
a baseline code building is the same way that Federal statute 
articulates the requirement for Federal buildings to be better than 
model code.\5\
---------------------------------------------------------------------------
    \5\ See 42 U.S.C. Sec.  6834(a)(3)(A)(i)(I).
---------------------------------------------------------------------------
                       prioritize local materials
    Another key way that certification systems can provide flexibility 
and reflect local construction methods is to incentivize use of local 
building materials and products. This provides ``triple bottom line'' 
benefits by enhancing local economic opportunity; reducing 
transportation and associated environmental impacts and costs; and 
encouraging buildings that consider local context.
    LEED both supports and incentivizes building projects to use local 
materials and products. Specifically, for three credits, when local 
materials or products--sourced within 100 miles of the project site--
they are valued at 200% of their cost in credit calculations.\6\ This 
extra value incentivizes project teams to use local materials and 
products, supporting local economies while reducing environmental 
impacts.
---------------------------------------------------------------------------
    \6\ See v4 credits [https://www.usgbc.org/credits/new-construction/
v4/material-%26-resources?keys=local] and v4.1 credits [https://
www.usgbc.org/credits/new-construction/v4.1/material-%26-resources].
---------------------------------------------------------------------------
                          regional priorities
    Certification systems can also reflect local conditions by 
emphasizing particular performance outcomes that are most critical to a 
location. LEED rewards projects that incorporate regional priorities 
with extra points. Projects can earn up to four of the six regional 
priority points by achieving the priority credits for the project 
location. These credits have been identified by the USGBC regional 
councils and chapters as having additional regional importance for the 
project's region.\7\
---------------------------------------------------------------------------
    \7\ A database of Regional Priority credits and their geographic 
applicability is available on the USGBC website, www.usgbc.org/rpc.
---------------------------------------------------------------------------
    For example, in North Carolina, regional priority credits include 
renewable energy, energy efficiency, daylight, rainwater management, 
outdoor water efficiency, and heat island effect. In contrast, the 
regional priority credits in Montana are renewable energy, energy 
efficiency, high priority sites, surrounding density and diverse uses, 
site development habitat protection, and indoor water efficiency.
                               user input
    Another important way for certification systems to be more flexible 
and reflect local conditions and geography is to consider input and 
feedback from users. USGBC has instituted key mechanisms to proactively 
seek such input from users of the LEED program. For example, we have 
issued a Beta version, LEED v4.1, which is open for use and feedback 
through the end of the year. And, for the second time in two years, we 
have recently opened a call for suggestions.\8\
---------------------------------------------------------------------------
    \8\ See ``Submit your ideas on the future of LEED.'' [https://
www.usgbc.org/articles/submit-your-ideas-future-leed]
---------------------------------------------------------------------------
    Understanding user experience with the certification system, 
including any feedback relating to the application of particular 
credits in different locations, is important to improve the 
effectiveness of the system long-term.

    Questions from Hon. Mark Meadows for Kevin Van Den Wymelenberg, 
 Director, Energy Studies in Buildings Laboratory, University of Oregon

    Question 1. In your testimony you highlighted the importance of 
building in health and wellness in buildings. Yet, the reality is--we 
do not know how many people actually work in a given building each day. 
GSA cannot tell in any given building how the space is actually being 
used. We know generally how many workers may be assigned to a building. 
How do we accurately plan for and design spaces if we do not have data 
on how buildings are actually being used? Would this data be helpful?
    Answer. We agree that there is often little data about how real 
buildings are used by occupants. In fact, we have conducted original 
research to utilize sensors within buildings to try to better 
understand space utilization rates and human activities. Without 
adequate data, we are often forced to make theoretical assumptions 
based on market trends, anecdotal history or limited observation. We 
can model and simulate building energy usage; although, our simulations 
are only as good as our base assumptions (see IEA-EBC Annex 66 for 
improved assumptions) and as the culture of work constantly evolves, 
any assumptions we make can become quickly outmoded. One way that 
building product manufacturers have responded to this conundrum is 
through the development and deployment of mesh sensor networks in 
buildings, such as those integrated into light fixtures (Luminaire 
Level Lighting Control, or LLLC) at a high spatial density and able to 
discern patterns of spatial occupant density. This approach can be 
implemented when retrofitting a building's light fixtures. Another way 
to understand and design for actual versus assumed building usage is 
through the deployment of deidentified occupant wearable sensors and 
low-cost Bluetooth beaconing stations. These wearable sensors also have 
the added advantage of being able to collect a range of environmental 
data, such as light, relative humidity, temperature, or even air 
quality information. This type of original data would be very helpful 
in space planning existing or future infrastructure from fundamental 
aspects such as space utilization, to more advanced applications such 
as designing healthier buildings. For example, the LLLC sensors or the 
wearable sensors could provide information about air quality and access 
to natural light at a floor plan resolved scale, and illustrate how 
many people within a workforce are gaining access to high quality light 
and air and how many may be being exposed to toxicants or deprived of 
daylight.

    Question 2. Certification systems should provide flexibility to 
ensure buildings are built in the most efficient way given the 
geographic location. An office building in Florida, for example, should 
not be built in the same way as one in Michigan to ensure maximum 
efficiency. Please provide the Committee with three recommendations on 
how certification systems should be more flexible given factors such as 
location.
    Answer. One of the first concepts that we teacharchitecture 
students is the importance of site and designing in response to place, 
this is what we call climate response design. Good architecture 
responds to the local site through an understanding of vernacular 
forms, space patterns, material choices, and construction assemblies 
that have evolved with a keen awareness of local climate dynamics, 
culture, economics and building traditions, to be very efficient and 
effective. For example, in Oregon, we have a regionalist vernacular of 
heavy timber and broad roofs using local materials with forms that 
acknowledge our rainy climate, yet this may not be appropriate in the 
Southwest where wood is scarce, and the desert exerts high daily 
temperature swings on buildings. Given this, three ways in which 
certification systems might respond to geographic location include: (1) 
incentivize human health indoors at three scales--individual, community 
and planet--using a human health outcomes based approach (2) 
incentivize energy performance targets rather than prescriptive design 
pathways to meet targets, and (3) incentivize holistic approaches, such 
as calculations of embodied energy or carbon with life cycle analysis 
approaches. We believe each of these approaches will support an 
appropriately regionally responsive and flexible model for 
certification systems.

 Questions from Hon. Mark Meadows for Mark Russell, Ph.D., P.E., GGA, 
  LEED AP, BREAAM IA, Green Globes Assessor, Green Building Initiative

    Question 1. Certification systems should provide flexibility to 
ensure buildings are built in the most efficient way given the 
geographic location. An office building in Florida, for example, should 
not be built in the same way as one in Michigan to ensure maximum 
efficiency. Please provide the Committee with three recommendations on 
how certification systems should be more flexible given factors such as 
location.
    Answer. As we mentioned during our testimony, GBI's Board of 
Directors met on June 11, 2019 in Chicago to hear the report from ANSI 
on its final approval of the updated Green Globes standard, and to vote 
to officially publish the standard. Thus, your question about 
improvements to flexibility was very well-timed because we have been 
thinking a lot about this topic as we conducted our consensus process 
to update the Green Globes standard, ANSI 01/19: Green Globes Green 
Building Certification Standard. GBI's mission continues to be to 
promote a practical, science-based approach to green building, with the 
goal of improving the performance, cost- and energy-savings of each 
building we work with, while recognizing every building's goals, 
priorities, and unique needs.
    We believe that Green Globes presents a robust, logical, 
challenging--yet fair--green building certification regimen that 
appropriately acknowledges that in a nation as large as the United 
States, with 8 different climate zones, differing private- and public-
sector building priorities, different marketplace needs, and an 
abundance of differing building purposes, the certification system has 
an obligation to work with projects of all types to meet their needs 
and help them attain their goals. If our collective goal is to build 
better, more sustainable and cost-efficient buildings, we must 
recognize that every building cannot be treated with a one-size-fits-
all mentality.
    Green Globes historically, and in its updated 2019 standard, 
addresses the issue of flexibility in several key ways:
    1.  The Green Globes and Guiding Principles rating systems are all 
based on industry standard documents such as ASHRAE 90.1, ASHRAE 189.1, 
and UFC 1-200-02. When evaluating buildings, the assessor ensures that 
the correct climate zone has been identified and that all energy 
modeling and criteria are based on that region. As an example, in 
ASHARE 90.1, Table 5.5 Building Envelope Requirements, there is a 
different chart of criteria for each of the 8 Climate Zones. Thus a 
building in Miami, Florida--Climate Zone 1 may require a roof 
insulation of R-15 and a similar building in Fairbanks, Alaska--Climate 
Zone 8 may require a roof insulation of R-20. Additionally, the 
differences in building functionality and construction methods are also 
addressed in the same tables. The assessors are guided through this 
process by specific questions within the scorecard that call out 
climate zone and functionality differences. As one example, the 
criteria for skylights establishes that the requirement is not 
applicable for buildings in climate zones 7 and 8.
    2.  Green Globes does not mandate a static set of pre-requisites 
across all buildings. Instead, we use a system of weighted criteria to 
drive users toward best practices, while managing a process that allows 
buildings to identify the criteria that best meet their project, 
geographic, and sustainability needs. We frequently find in the 
marketplace that many building owners and developers are frustrated 
with prerequisites because static, mandatory prerequisites don't 
consider the needs of a specific building. Projects often feel that 
they must spend a lot of time, money, and resources ``point chasing''--
funding technologies, construction concepts and other development 
items--simply to meet mandated requirements that don't actually address 
that building's performance or goals.

        As Green Globes was first being developed in its consensus 
process, participants highlighted the problems created by point chasing 
as a key factor in creating additional unnecessary costs, roadblocks to 
completing certification, and frustration with the process of 
developing sustainably built buildings. Because of those concerns, 
Green Globes chose to forego mandatory across-the-board prerequisites 
in favor of the weighted criteria system. As a result of that decision, 
Green Globes can be cleanly implemented by any building type, 
regardless of location, regardless of the building's purpose, and 
regardless of the building's unique or specific needs. This has also 
meant that Green Globes does not need to create additional modules 
targeted to one type of building or another, i.e. specific to 
hospitals, or retail, or military buildings. Every type of building can 
pursue Green Globes certification through our basic Green Globes for 
New Construction, Green Globes for Existing Buildings, or Green Globes 
for Sustainable Interiors programs.
    3.  Green Globes also chose to create an assessment system that 
uses the in-depth expertise of third-party Green Globes Assessors (GGA) 
to work in a team-based approach to completing projects. Our assessors 
must be licensed architects or engineers, must have a minimum of 10 
years of specific experience in the field, and must have an educational 
background in architecture, engineering, or sustainability in order to 
qualify and train to sit for the exams to become a GGA. Assessors 
provide oversight over a project, providing expertise as needed and 
serving as a resource, in addition to acting as the assessor who 
determines whether the project has successfully and faithfully achieved 
the required criteria for recognition. Importantly, this process of 
using an assessor who is actively involved in reviewing the project 
enhances flexibility. Assessors bring to these projects significant 
expertise and provide support to projects by explaining our Green 
Globes criteria and providing insight into how projects with a similar 
building purpose in a similar location were able to achieve their 
desired performance. Often, GGAs provide innovative solutions and ideas 
to address challenges that occur during the construction process based 
on their prior experience.

        To further enhance our assessor network, GBI has established a 
quarterly roundtable forum and annual meeting in which the assessors 
can share ideas, raise questions, and disseminate new information 
regarding building evaluations. This network is assisted by the GBI 
staff to provide a resource for assessors to provide timely consistent 
responses when unusual situations arise.
    4.  Green Globes offers a ``Non-applicable (N/A)'' feature that 
combines our expert assessors and our weighted-point criteria to create 
logical, project-based flexibility. Within the certification system, 
criteria can be declared ``N/A'' if they represent items in the system 
that do not apply to the building in question. A project team can 
identify N/A criteria, and the Green Globes Assessor confirms the N/A. 
For example, a DoD building that, for purposes of mission, does not 
have windows could receive an N/A for criteria related to energy-
efficient windows. Projects may not have an N/A on criteria simply 
because they don't want to meet a criterium's requirements. This is an 
important distinction because approved N/A criteria are subtracted from 
the total possible score for a building. The value of approved N/A 
criteria is subtracted from the total possible points that can be 
earned by the building, allowing a building to still work to achieve 
the certification level it wants to, while not being penalized for 
criteria that should never have applied to the project.
    We appreciate this opportunity to provide additional thoughts on 
the importance of flexibility in building certification systems. We 
strongly believe that recognizing the individual needs, challenges, and 
goals of each project is key to achieving the best possible performance 
and savings in each building that pursues certification. We would be 
happy to answer any further questions about Green Globes and our 
continued work with federal building projects.

                                   [all]

                                    
</pre></body></html>
